<html>
<title> - CONSUMER SAFETY INITIATIVES: PROTECTING THE VULNERABLE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




         CONSUMER SAFETY INITIATIVES: PROTECTING THE VULNERABLE

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON TELECOMMUNICATIONS,
                     TRADE, AND CONSUMER PROTECTION

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2000

                               __________

                           Serial No. 106-130

                               __________

            Printed for the use of the Committee on Commerce


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
64-762                     WASHINGTON : 2000

                    ------------------------------  

                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

   Subcommittee on Telecommunications, Trade, and Consumer Protection

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL G. OXLEY, Ohio,              EDWARD J. MARKEY, Massachusetts
  Vice Chairman                      RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               BART GORDON, Tennessee
PAUL E. GILLMOR, Ohio                BOBBY L. RUSH, Illinois
CHRISTOPHER COX, California          ANNA G. ESHOO, California
NATHAN DEAL, Georgia                 ELIOT L. ENGEL, New York
STEVE LARGENT, Oklahoma              ALBERT R. WYNN, Maryland
BARBARA CUBIN, Wyoming               BILL LUTHER, Minnesota
JAMES E. ROGAN, California           RON KLINK, Pennsylvania
JOHN SHIMKUS, Illinois               TOM SAWYER, Ohio
HEATHER WILSON, New Mexico           GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi                          JOHN D. DINGELL, Michigan,
VITO FOSSELLA, New York                (Ex Officio)
ROY BLUNT, Missouri
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Baloga, Tom, President, Britax Child Safety, Inc.............    72
    Brown, Hon. Ann, Chairman, Consumer Product Safety Commission    26
    Currie, Malcolm R., President and CEO, Currie Technologies...    78
    Fackler, Kathy...............................................   100
    Gall, Hon. Mary Sheila, Commissioner, Consumer Product Safety 
      Commission.................................................    31
    Graff, John, President and CEO, International Association of 
      Amusement Parks and Attractions............................   107
    Herndon, David N., Chief of Staff and Director of Research, 
      Shriners Burns Hospital....................................    82
    Millman, Rosalyn G., Deputy Administrator, National Highway 
      Traffic Safety Administration, U.S. Department of 
      Transportation.............................................    17
    Moore, Hon. Thomas H., Commissioner, Consumer Product Safety 
      Commission.................................................    37
    Stone, Judith Lee, President, Advocates for Highway and Auto 
      Safety.....................................................    66
    Wakelyn, Phillip J., PhD, Senior Scientist, Environmental 
      Health and Safety, National Cotton Council.................    94
Material submitted for the record by:
    Alliance of Automobile Manufacturers and the Automotive 
      Coalition for Traffic Safety, prepared statement of........   118
    American Academy of Pediatrics, prepared statement of........   120
    Borowski, David M., prepared statement of....................   121
    Easter Seals, prepared statement of..........................   121
    Gall, Hon. Mary Sheila, Commissioner, Consumer Product Safety 
      Commission, letter dated May 22, 2000, to Hon. W.J. Tauzin.   122
    Herndon, David N., Chief of Staff and Director of Research, 
      Shriners Burns Hospital, letter dated June 2, 2000, to Hon. 
      W.J. Tauzin, enclosing response for the record.............   123
    National Fire Protection Association, prepared statement of..   124
    Shahan, Rosemary, President, Consumers for Auto Reliability 
      and Safety, prepared statement of..........................   125
    Tombrello, Stephanie M., Executive Director, SafetyBeltSafe 
      U.S.A., prepared statement of..............................   126
    Wakelyn, Phillip J., PhD, Senior Scientist, Environmental 
      Health and Safety, National Cotton Council, letter dated 
      June 15, 2000, to Hon. W.J. Tauzin, enclosing response for 
      the record.................................................   129

                                 (iii)

  

 
         CONSUMER SAFETY INITIATIVES: PROTECTING THE VULNERABLE

                              ----------                              


                         TUESDAY, MAY 16, 2000

              House of Representatives,    
                         Committee on Commerce,    
                    Subcommittee on Telecommunications,    
                            Trade, and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2322, Rayburn House Office Building, Hon. W.J. ``Billy'' 
Tauzin (chairman) presiding.
    Members present: Representatives Tauzin, Oxley, Stearns, 
Gillmor, Cubin, Rogan, Shimkus, Pickering, Ehrlich, Bliley (ex 
officio), Markey, Eshoo, Luther, Sawyer, Green, and McCarthy.
    Also present:Representatives Ganske, and DeLauro.
    Staff present: Hugh Halpern, parliamentarian; Robert 
Gordon, majority counsel; Robert Simison, legislative clerk; 
and Bruce Gwinn, minority professional staff.
    Mr. Tauzin. The subcommittee will please come to order. I 
am pleased to continue this subcommittee's tradition of 
bipartisan hearings on consumer protections. We will be 
examining four consumer safety initiatives at this hearing: 
children's safety restraints in automobiles, the regulation of 
electric bicycles, flammability standards for children's 
sleepwear, and regulation of fixed-site amusement parks.
    Testifying on H.R. 4145, the Child Passenger Protection 
Act, by Representative Shimkus, will be Rosalyn Millman deputy 
administrator of the National Highway Traffic Safety 
Administration on the first panel. And Mrs. Judith Stone, 
president of the Advocates for Highway and Auto Safety; and Mr. 
Tom Baloga, president of Britax Child Safety on the second 
panel. They will discuss the need for improvements in the 
Nation's standards for child safety restraints. Clearly, we 
must protect children from injuries. But we must do so in a way 
that does not compromise NHTSA's other important safety 
missions.
    While I think there is general agreement on the ultimate 
objective, I look forward to hearing the different ways in 
which our witnesses propose to improve the safety of our 
children.
    We will also be reviewing a bill introduced by 
Representative Rogan. H.R. 2592 will transfer oversight of 
electric bicycles from the National Highway Traffic Safety 
Administration to the Consumer Produce Safety Commission. Low-
speed electric-powered bicycles are currently regulated by 
NHTSA as motor vehicles because they have motors that can 
operate independently of pedaling. Motor vehicles are required 
to have a number of safety features that are proactively costly 
or wieldy or consume too much power for the use on a low-speed 
bicycle.
    H.R. 2592 would reclassify low-speed electric bikes as 
consumer products instead of motor vehicles, making them 
subject to the oversight by the Consumer Products Safety 
Commission. And since they are used a bicycles, they should be 
regulated as such with the appropriate safety standards and 
comparable oversight.
    On the second witness panel, Dr. Malcolm Currie, president 
and CEO of Currie Technologies, will tell us how this bill 
would not only help reduce air pollution and improve fitness by 
encouraging bicycle use but also help the development of the 
electric bike industry provide better and safer transportation 
for consumers.
    Testifying on flammability standards for children's 
sleepwear, Dr. David Herndon, chief of staff and director of 
research for Shriners Burns Hospital; and Dr. Phillip Wakelyn, 
the senior scientist at the National Cotton Council, will 
provide us with their views on their decision by the commission 
to grant exemptions for tight-fitting and infant sleepwear 
under the Flammability Fabrics Act.
    The commission has examined this act several times and 
determined that there was no unreasonable risk of injury 
associated with single-point small open-flamed ignition of 
tight-fitting cotton sleepwear. Today's witnesses will help us 
determine if the commission made this determination using the 
appropriate data and data analysis.
    I would like to extend particular thanks on this issue to 
Consumer Products Safety Commission Commissioner Moore, who 
will be testifying on the first panel, for providing this 
subcommittee with information and background on this 
commission. All three commissioners will hopefully be able to 
enlighten us as to whether we are doing what we can to keep our 
children safe and protected in the way that parents can and 
should support.
    Today's hearing will also examine ideas for making our 
amusement parks safer for consumers. In 1981, Congress amended 
the Consumer Product Safety Act to transfer jurisdiction over 
fixed-site amusement parks from the CPSC to the States. 
Representative Markey has introduced legislation, H.R. 3032, to 
return jurisdiction to the CPSC, appropriating 500,000 annually 
for this task.
    On our first panel, Cosumer Products Safety Commission 
Chairman Ann Brown and Commissioners Mary Gall and Thomas 
Moore, can hopefully help us understand what sort of resources 
the commission could be able to commit to this task and what 
thoughts of value the commission could add to make our parks 
safer.
    On the second panel we are privileged to have before us 
Kathy Fackler, a cofounder of the computer software design 
firm; recipient of A Point of Light Award by President Bush for 
her work in child abuse prevention programs; more recently a 
full time mother of two sons, one of whom was tragically 
injured on a roller coaster ride in California. Kathy will talk 
to us about her son's injury and her resulting efforts as a 
local and national amusement ride safety activist.
    Mr. John Graff, president and CEO of the International 
Association of Amusement Parks and Attractions, will describe 
for us the safety standards and procedures already in place at 
fixed-site amusement parks and his views on whether additional 
Federal regulation would complement or interfere with current 
State oversight.
    As you can see, all four issues are terribly important 
consumer protection provisions and laws. We are pleased to have 
before us today such a distinguished panel of witnesses to help 
us understand and lay a foundation for potential reforms.
    Now the chairman of our full committee has asked that I go 
to the floor and handle the Internet bill that is on the floor, 
I think under suspension, so I will have to leave in just a few 
minutes, but we will take opening statements and then begin. We 
will also have a visit and a presentation of views from a 
colleague, Mr. Rosa DeLauro, who has a great interest in the 
flammable children's sleepwear issue. Then we will hear from 
our distinguished other panel.
    So the Chair is now pleased in the absence of my friend, 
Mr. Markey, who is on his way, to welcome the chairman of the 
full committee, Mr. Bliley, for an opening statement.
    Chairman Bliley. Thank you, Mr. Chairman. The rules of the 
House of Representatives grant this committee jurisdiction over 
all consumer affairs and consumer protection. Today's hearing 
focuses on a number of consumer protection safety initiatives 
to protect America. The first two issues will be H.R. 4145, the 
Child Passenger Protection Act, and H.R. 2592, a bill to 
facilitate the development of electric bicycles. I want to 
congratulate Representatives John Shimkus and Jim Rogan for 
their fine work on these bills.
    H.R. 4145 would direct the National Highway Traffic Safety 
Administration to undertake new efforts to make riding safer 
for children. Generally, I support efforts to protect kids; but 
I recall the tragic consequences of overzealous air bag 
legislation. That being said, Mr. Shimkus' bill is an excellent 
starting point for directing NHTSA's efforts at keeping kids 
safe.
    Representative Rogan's bill, H.R. 2592, is an equally 
important consumer protection initiative. Low-speed electric-
powered bicycles are currently regulated by the National 
Highway Traffic Safety Administration as vehicles instead of as 
bicycles. I pretty much think a bike is a bike and not a 
motorcycle. This is a proenvironment, proconsumer bill that 
simply reclassifies these electric bicycles in the appropriate 
agency according to their intended use.
    I hope that outside interest groups and the Consumer 
Products Safety Commission will avoid the temptation to use 
this bipartisan bill as a vehicle for other agendas. In 
particular, it worries me when I hear that the commission 
doesn't want to follow existing laws in regulating consumer 
products, asking for waivers from the Consumer Products Safety 
Act, the Federal Hazardous Substance Act, the National 
Environmental Policy Act, and the Small Business Regulatory 
Enforcement Act.
    The General Accounting Office has already admonished the 
commission for failing to use adequate data collection and 
analysis in certain areas. Exempting the commission from 
congressional and executive mandates for fact-finding and data 
analysis would only exacerbate this problem. The commission has 
made several notable improvements over the last few years in 
their procedures, and I believe that they would do a fine job 
overseeing electric bikes without additional waivers or 
exemptions.
    Today's hearing will also examine the spate of recent 
deaths and injuries at fixed-site amusement parks. 
Representative Markey has introduced legislation, H.R. 3032, to 
return jurisdiction over fixed-site amusement parks to the 
commission, appropriating $500,000 annually for this task. This 
hearing will hopefully shed some light on the current safety 
standards for amusement parks, whether regulation of fixed 
sites is better left to the States or the commission, and 
whether the commission has the resources to undertake this 
task.
    The last issue that will be examined by this hearing is the 
decision by the commission to grant exemptions for infant 
sleepwear. Today's witnesses will help us determine if the 
commission made this determination using the appropriate data 
and data analysis to protect our children. I thank the 
witnesses for joining us today and look forward to building a 
better foundation of understanding on these important consumer 
protection issues. Thank you.
    Mr. Rogan [presiding]. I thank the chairman of the full 
committee for his comments. The Chair is pleased to recognize 
our friend and colleague, Dr. Ganske, for an opening statement.
    Mr. Ganske. Thank you, Mr. Chairman. And thank you for 
holding this hearing. There will be many important issues that 
will be talked about, but I particularly want to thank our 
colleague, Rosa DeLauro, for being here today and for talking 
about a very important issue for children's safety as it 
relates to the flammability of children's sleepwear.
    A couple years ago, the Consumer Product Safety Commission 
changed the standards and weakened the standards of 
flammability of children's sleepwear. We are going to hear 
testimony today from representatives of the Shriners hospitals 
about how there has been an increase in children's burns 
related to easier flammability of children's sleepwear.
    As a reconstructive surgeon, I have worked on many children 
in the past who have been badly burned. In fact, I have worked 
at the Shriners Hospital in Boston. This is, Mr. Chairman, this 
is an issue that we ought to move in committee and actually get 
on to the floor. I believe the changes by the Consumer Product 
Safety Commission were ill-advised and we should go back to the 
standards as they were a few years ago. And I am happy to 
announce today that I also am going to be a cosponsor for Ms. 
DeLauro's bill. With that, I will yield back.
    Mr. Rogan. The Chair will recognize the gentleman from 
Illinois for an opening statement.
    Mr. Shimkus. Thank you, Mr. Chairman. I think it is a good 
day for our children as we address some very important issues. 
This year, I join my colleague, Senator Peter Fitzgerald on the 
Senate side, to address the infant child safety seat standards 
which we are going to hear, get a chance to ask questions 
about. NHTSA, who has a good record of trying to protect the 
public, needs to update its standards. At present, they use a 
1973 bench seat of a Chevrolet Impala. They don't use side 
impacts, roll-overs, rear impacts. And I appreciate the fact 
that National Highway Traffic Safety Administration has come to 
talk to me, and we are going to work on issues.
    I think that hopefully the hearing will help hash out too a 
way that we can make sure that the safety standards that we 
want for all our children, that the National Highway Traffic 
and Safety Administration is being a good steward of our public 
funds in making sure that these are really good standards; that 
we are testing them in a manner that we want our children 
protected.
    So I appreciate the hearing today, and I look forward to 
moving this process forward. I also join my colleagues, 
Congressman DeLauro and Congressman Ganske--I am very 
supportive of what she is trying to do and get involved in 
addressing some matters on this sleepwear issue.
    I have my son here with me in the office. I was going to 
bring him over as Exhibit A--but he is sleeping and not in 
sleepwear because he is in his little onesie outfit--to carry 
around. But he will probably migrate over here later on, and 
hopefully I will have my process of testimony and questions 
done before he disrupts the rest of the hearing.
    As many of you know, the spouses are in town for the first 
lady's luncheon, so a lot of us get to be working dads today as 
we cart our children around with us. And I am looking forward 
to that. I appreciate the hearing. I look forward to the panel 
testimony. I yield back my time. Thank you, Mr. Chairman.
    Mr. Rogan. The Chair thanks the gentleman from Illinois. 
The Chair will recognize himself for a brief opening statement. 
First, I want to thank Chairman Tauzin for calling this hearing 
on these key issues of consumer product safety. As the author 
of one of the bills that will be discussed here today, H.R. 
2592, I especially want to thank him for his support in the 
effort to promote the use of electric bicycles as an 
alternative form of transportation and recreation.
    This particular bill would amend the Consumer Product 
Safety Act to provide that low-speed electric-bicycles are 
consumer products and are not subject to the same regulations 
as mopeds and motorcycles. As I think most of our colleagues 
know, a legislative remedy to the current classification 
problem associated with electric bikes is necessary because the 
National Highway Traffic Safety Administration currently 
interprets the statutory definition of motor vehicles as 
applying to bicycles with low-powered motors that can operate 
independently of pedaling. As a result, electric bicycles are 
subjected to motor vehicle requirements.
    NHTSA has never indicated whether it believes that this 
position represents a valid policy. Rather it has claimed that 
such standards must be enforced as a requirement under the 
current law.
    Unfortunately, subjecting electric bicycles to motor 
vehicle requirements would mean the addition of a large array 
of costly and unnecessary equipment on the electric bike: brake 
lights, turn signals, automotive-grade headlights, rear view 
mirrors and more. These additions would restrict operating 
requirements which consumers do not want. These additions would 
also raise the cost of an electric bicycle by hundreds of 
dollars and in many cases doubling the cost of the bike. 
Predictably, such regulations also would kill the growing U.S. 
market fpr electric bikes and put the U.S. Firms who 
manufacture these bikes at a competitive disadvantage vis-a-vis 
foreign companies.
    H.R. 2592 is a straightforward clarification of existing 
law that will help consumers and manufacturers alike. It will 
promote better health, especially among seniors, by convincing 
more people to ride bicycles and forego automobiles when 
traveling over short distances. As a result, it should help in 
the fight against air pollution. And finally, the bill would 
benefit American manufacturers of electric bicycles to helping 
make these bikes more palatable to consumers.
    In short, it is good legislation that deserves to move 
quickly through the committee process to the House floor and on 
to the Senate. And once again, I want to thank Chairman Tauzin, 
the chairman of the subcommittee, for his leadership.
    I am now pleased to welcome and recognize for an opening 
statement the distinguished gentleman from Massachusetts, the 
ranking member of the subcommittee.
    Mr. Markey. Thank you, Mr. Chairman, very much. And thank 
you for convening this hearing and thank you to Mr. Tauzin, who 
I know is on the floor at this very moment. I am looking very 
much forward to the statements of each of our witnesses on a 
series of consumer issues related to NHTSA and to the Consumer 
Product Safety Commission.
    I am especially appreciative that the subcommittee has been 
given the chance to consider the need for action to improve 
safety at amusement park rides as the 2000 summer season 
begins. It is time to close the roller coaster loophole. H.R. 
3032, the National Amusement Park Ride Safety Act has been 
cosponsored by 25 Members of Congress from both parties. In 
addition, it has been endorsed by three of the Nation's leading 
consumer safety organizations: the Consumers Union, the 
Consumer Federation of America, and the U.S. Public Interest 
Research Group, as well as the National Safe Kids Campaign. I 
would ask that their letters of endorsement be made a part of 
the hearing record at this time, Mr. Chairman.
    Mr. Rogan. Without objection.
    [The letters follow:]

  Prepared Statement of Mary Ellen R. Fise, General Counsel, Consumer 
                         Federation of America

    Consumer Federation of America is pleased to offer its strong 
support for H.R. 3032, the National Amusement Park Ride Safety Act. 
This legislation closes a gaping loophole in CPSC law, which currently 
prohibits the safety agency from regulating rides in fixed site 
amusement parks while allowing authority over mobile rides. The 
distinction does not make sense and consumers pay the price in terms of 
lives lost and injuries incurred.
    Fourteen states and DC have no program whatsoever to inspect rides 
in fixed site amusement parks. In other states, inspections vary. 
Regardless of any state authority, there is no comprehensive mechanism 
for the collection of data about unsafe rides. Furthermore, no 
compliance authority exists for inspection of hazardous equipment or 
for the recall of unsafe or defective ride machinery. The federal 
government can not set safety standards for these rides or invoke its 
imminent hazard authority to seize amusement ride products which pose 
imminent and unreasonable risks of death or severe personal injury. 
Manufacturers, distributors and others have no obligation to report to 
CPSC when they learn of an amusement ride that could injure or even 
kill its patrons. Because of these gross deficiencies in consumer 
protection, it is clear that for consumers visiting fixed site 
amusement parks the watchwords are: ``Rider Beware!''
    More than 28 deaths have occurred on rides at fixed site amusement 
parks in the last 13 years and there is an increasing trend in the 
number of injuries over the last several years. The National Amusement 
Park Ride Safety Act will help reduce these preventable deaths and 
injuries. CFA commends Representative Markey for his leadership on this 
issue and strongly urges Congress to initiate work toward passage of 
this important safety legislation.
                                 ______
                                 
                                            Consumers Union
                                                      March 8, 2000

Congressman Edward Markey
House Subcommittee on Telecommunications, Trade and Consumer Protection
2108 Rayburn Building
Washington, DC 20515-2900
    Dear Congressman Markey: Consumers Union is pleased to support H.R. 
3032, the National Amusement Park Ride Safety Act. This bill would 
restore to the Consumer Product Safety Commission (CPSC) the 
jurisdiction to investigate accidents or exercising other jurisdiction 
over fixed-site amusement park rides, jurisdiction removed from the 
agency in a 1981.
    Consumers Union believes that the current situation, whereby the 
CPSC may investigate amusement park rides that move from site to site, 
but not those at a fixed site, has led to nonsensical and potentially 
dangerous results. If the CPSC discovers that one manufacturer's ride 
at a mobile site has a safety problem that needs to be addressed, the 
CPSC can require the problem be addressed. If, however, the ride is at 
a fixed site, current law prevents the CPSC from addressing an obvious 
safety problem.
    We agree with your statement that overall the record of amusement 
parks is generally good. However, the CPSC's statistical analysis 
comparing serious injuries on fixed and,mobile, sites provides 
compelling evidence on the need for this legislation. The statistical 
estimates show that as of the CPSC's July 1999 summary, emergency room 
injuries for fixed rides increased from 2400 in 1994 to 4500 in 1998. 
This compares with the lower and more steady increase for mobile rides, 
with 2000 injuries in 1994 and 2100 in 1998.
    This legislation also addresses the problem that 13 states have no 
inspection program at all for amusement park rides. Others exempt 
certain parks or certain geographical areas. The tragic deaths on 
amusement park rides of four people in one week of August, for a total 
of 6 deaths last year, tells us that safety is still a problem. The 
CPSC should have the jurisdiction to inspect the variety of amusement 
park rides across the country, develop action plans to correct defects, 
require reports whenever a substantial hazard is identified, and 
regardless of whether they are fixed or mobile sites, and use it's 
collective knowledge to address safety problems comprehensively.
    Consumers Union applauds you for introducing this bill. We look 
forward to working with you to see H.R. 3032, the National Amusement 
Park Ride Safety Act enacted into law.
            Sincerely,
                                            Sally Greenberg
                                      Senior Product Safety Counsel
                                 ______
                                 
                        U.S. Public Interest Research Group
                                                  February 29, 2000

The Honorable Edward Markey
2108 Rayburn Building
House of Representatives
Washington, DC 20515-2107
    Dear Representative Markey: We are writing on behalf of the members 
of the United States Public Interest Research Group to officially 
endorse the National Amusement Park Safety Act, H.R. 3032. We applaud 
your leadership in preventing future amusement park deaths and 
injuries.
    We believe that the Consumer Product Safety Act, which charges the 
Consumer Product Safety Commission (``CPSC'') with the responsibility 
of protecting the public against unreasonable risks of injuries and 
deaths associated with consumer products, must give the CPSC reculatory 
authority over fixed location amusement parks. Federal oversight is 
crucial to the prevention of any future deaths and injuries associated 
with fixed site amusement parks due to the vast variation in state laws 
and the absence of any regulation in some states.
    The CPSC has illustrated its ability to identify and prevent 
injuries from many consumer products including mobile amusement park 
rides. The National Amusement Park Ride Safety Act will grant the CPSC 
the same scope of authority to protect against unreasonable risks of 
harm on fixed-site rides that it currently retains for carnival rides 
that are moved from site to site.
    U.S. PIRG applauds your efforts to protect consumers from the 
serious dangers posed by amusement park rides. We look forward to 
working with you on this important safety issue.
            Sincerely,
                                           Rachel Weintraub
                                                     Staff Attorney
                                 ______
                                 
                                National Safe Kids Campaign
                                                       May 15, 2000

The Honorable Edward Markey
United States House of Representatives
Washington, DC 20515
    Dear Representative Markey: On behalf of the National SAFE KIDS 
Campaign and our Chairman, former Surgeon General C. Everett Koop, 
M.D., I would like to express our appreciation for your sponsorship of 
H.R. 3032, the National Amusement Park Ride Safety Act.
    With six fatalities at amusement park rides in 1999--the most in 
any single year in more than a decade--and an estimated 9200 people 
treated for ride-related injuries in hospital emergency rooms in 1998, 
the time has come for Congress to close the ``roller coaster loophole'' 
and enable the U.S. Consumer Product Safety Commission (CPSC) to have 
authority over fixed-site amusement parks. Current law allows the CPSC 
to have jurisdiction over carnival rides moved from site to site, but 
not rides located on permanent grounds. As states have a variety of 
amusement park safety laws on the books--including 11 states with no 
inspection laws whatsoever--the CPSC must be granted jurisdiction of 
fixed-site amusement park rides in order for all states to benefit from 
federal investigation of safety hazards.
    The National Amusement Park Ride Safety Act, if passed, will help 
to ensure the health and safety of our nation's most precious 
resource--it's children. If the National SAFE KIDS Campaign can be of 
any assistance to you, please do not hesitate to contact me or Tanya 
Chin Ross, Public Policy Associate, at 202/662-0600. Thank you for your 
leadership on this important safety initiative.
            Sincerely,
                                        Heather Paul, Ph.D.
                                                 Executive Director


    Mr. Markey. The amusement ride safety act does not single 
out this industry, quite the contrary. Our purpose is to ensure 
that this industry is treated no differently than any other 
industry when it comes to basic consumer safety oversight of 
activity that places small children on large machines designed 
to move them at high speeds.
    When a child dies in a plane crash or a train wreck or a 
school bus, crack Federal investigators from the National 
Highway Traffic Safety Board fly to the scene, reconstruct the 
accident, interview all the players, write a report, share that 
report with the industry, and the public and the State 
authorities and often order safety checks or repairs on similar 
vehicles.
    But when 8-year-old Jessica Bailey and her mother were 
catapulted to their deaths in New Jersey on the side of a 
roller coaster car falling backwards or when a 17-year-old from 
Coney Island is crushed by the car in which he is riding, dying 
from massive internal injuries, what happens? The CPSC checks 
to see if the ride is a so-called ``mobile ride.'' Or if it is, 
like most roller coasters, a fixed-site ride. And if it turns 
out that your son or daughter was unlucky enough to get injured 
or to die on a fixed-site ride, guess what? No NTSB, no 
Consumer Product Safety Commission, no nothing happens here in 
Washington or around the country.
    As a result, the accident is never investigated by anyone 
whose mission it is to share what is learned with all 50 
States. And no one has the power to ensure that a repair that 
is ordered in New Jersey, or New York, is also ordered on the 
same rides in Florida, or Texas or California or any of the 
other 49 States in the Union. That is wrong. That is not smart. 
But it is the law. The industry tries to make sense of this by 
suggesting that it is not like all those other activities, that 
is, that when it comes to safety, it is in another league than 
autos or planes or trains. But the fact is the fatality rate 
per distance traveled on a roller coaster is only slightly 
better than the rate in a car and worse than the rate in a 
plane or a train or a bus.
    So roller coasters are not in a league of their own. They 
are in the same league as other activities where the Federal 
safety role is unquestioned. This amusement park industry 
surely does not merit immunity from Federal oversight, not when 
an accident in one State could be replicated very easily in any 
one of the other 49 States, but the Federal Government cannot 
investigate or share that information with the other 49 States.
    We seek to restore common sense Federal safety oversight to 
this industry so that serious accidents are thoroughly 
investigated by the CPSC and every effort is made to prevent 
foreseeable tragedies from repetitioning themselves across all 
50 States.
    Regarding the other issues which we will consider this 
morning, I want to reiterate my concern about sport utility 
vehicles and roll-overs. Sport utility vehicles are twice as 
likely to be involved in a deadly roll-over as the average car 
on the roadway. I want to again urge NHTSA to move quickly to 
develop a dynamic test for vehicle stability so that consumers 
are provided the best possible information available on roll-
overs.
    I also want to note that I will be introducing legislation 
later this week to enhance the Consumer Product Safety 
Commission's enforcement powers. This legislation will enhance 
the Consumer Product Safety Commission's ability to order 
companies to effectively remedy defective products and recall 
such products from the marketplace. A disturbing pattern has 
developed where companies are concealing their knowledge of 
potentially lethal product flaws from consumers and regulators 
only to be revealed after a tragedy. Eliminating the cap on 
civil penalties for knowing violations of consumer product 
safety laws and increasing the penalties for criminal 
violations would help to correct this trend.
    And finally, I want to encourage the Consumer Product 
Safety Commission to look, again, at issues relating to crib 
safety as well as child sleepwear safety regulations. The 
testimony today from the Shriners hospitals, which treat one-
fifth of all major pediatric burn injuries in the United 
States, said they have witnessed a 150 percent increase in 
sleepwear-related burns since the commission adjusted its 
rules, I believe, warrants a reexamination of what can be done 
to help prevent infant burn injuries. I thank you, Mr. 
Chairman, and I look forward to the testimony from all of our 
witnesses.
    Mr. Rogan. Thank the ranking member. The Chair is now 
pleased to recognize our friend and colleague, the gentleman 
from Florida, Mr. Stearns, for an opening statement.
    Mr. Stearns. Thank you, Mr. Chairman, for holding this 
hearing today to examine consumer safety initiatives. And also 
I appreciate the witnesses taking their time to come here and 
testify. The issue before this subcommittee centers around 
safety and the role of government. H.R. 4145, the Child 
Passenger Protection Act, introduced by my good friend, Mr. 
Shimkus from Illinois, updates Federal test standards for child 
restraints to reduce the number of children killed or injured 
in automobile accidents in the United States. While I commend 
the National Highway Traffic Safety Administration in its 
efforts to improve child restraints, I also believe, Mr. 
Chairman, in support to determine whether the current 
initiatives, the current initiatives are adequate or need 
further modernization.
    Furthermore, while it is essential to have the highest 
standard when evaluating child restraints, it is just as vital 
to utilize public information and educational efforts to teach 
parents about the proper use of safety seats. So I look forward 
to learning more about the initiatives in the NHTSA on child 
safety seats. Additionally, we also examine flammability 
standards for children's sleepwear. While the issue of 
children's sleepwear standards has been before the Consumer 
Product Safety Commission on previous occasions, some advocate 
that such standards are not adequate in protecting children 
from burn accidents and that the labeling standards for 
garments need updating.
    I hope to learn more about the role of the CPSC in reducing 
injuries and what it is doing concerning garment safety 
standards.
    On another note, the legislation offered by my friend from 
California, Mr. Rogan, is a common sense bill. His legislation 
H.R. 2592 offers relief from the regulatory morass of the 
Federal Government. This bill removes NHTSA's authority to 
regulate low-speed electric bicycles by transferring regulation 
to the CPSC and provides for a uniform national definition of 
electric bicycles.
    Regrettably, while I support bestowing the CPSC 
jurisdiction over electric bicycles, I am opposed to 
legislation giving the commission authority to regulate fixed 
amusement parks. As rider accident statistics indicate, fixed 
amusement parks are a safe form of entertainment and H.R. 4042, 
the National Amusement Park Ride Safety Act, amounts to a 
solution in search of a problem. There are more people injured 
while bowling as compared to attendance at fixed amusement 
parks. Would we advocate giving the Consumer Product Safety 
Commission authority to regulate bowling balls? While no one 
here advocates allowing unsafe conditions to persist, I 
question whether another level of bureaucracy and Federal 
regulation is absolutely necessary.
    Additionally, I question the commission's regulatory 
expertise in maintaining oversight safety of fixed amusement 
parks. In fact, State regulations in oversight coupled with 
industry's self-regulation has insured that these amusement 
parks are one of the safest forms of entertainment today. 
Furthermore, when compared to States, the commission by far 
lacks the necessary resources to come even close to inspecting 
all these amusement parks. Quite simply, safety and consumer 
protection over fixed amusement parks is a task best left to 
the States and to the industry itself. Thank you, Mr. Chairman.
    Mr. Rogan. The Chair is now pleased to recognize our friend 
and colleague from Texas, Mr. Green, for an opening statement.
    Mr. Green. Thank you, Mr. Chairman. I appreciate the 
subcommittee's attention to today's legislative initiative to 
design and protect and enhance the lives of our constituents. I 
am long a supporter of the Consumer Product Safety Commission. 
I would like to commend Chairman Brown for her continuing 
efforts to protect my constituents. Her leadership and 
vigilance has saved the lives of many Americans. I am also 
pleased that NHTSA, the National Highway Transportation Safety 
Administration, is here today to provide members with an update 
on their efforts to provide safer child seats. I have two grown 
children, but when they were younger my wife and I really did 
not know what made one seat better that another. Is, for 
example, is a $60 seat safer than a $200 seat?
    I would also like to commend Mr. Markey on his legislation 
we are considering today. Just as NHTSA expands significant 
resources to ensure our children's safety in motor vehicles, we 
need to also make sure our children are safe when they are in 
amusement parks. And again I understand the concern about the 
fixed facilities because I have Astro World that is close to my 
district that is fixed site that offers some of the best roller 
coasters in south Texas; but we also want to make sure they are 
safe. And I know the State of Texas does inspect them on a 
regular basis.
    With that, Mr. Chairman, I will submit the remainder of my 
statement and yield back my time.
    Mr. Rogan. Thank you. If there is no objection from the 
committee members, the Chair will be pleased to accept written 
statements from any members of the committee. Without objection 
so ordered. The Chair thanks our friend from Texas for his 
statement. The Chair is pleased to recognize our friend and 
colleague from Maryland, Mr. Ehrlich, for an opening statement.
    Mr. Ehrlich. In view of the children's hint, I will submit 
my statement. I just want to make one quick comment with regard 
to the CPSC. We have been working with representatives over the 
last year--many of you know we had our first baby--and shortly 
before our son was born, the commission contacted my office and 
offered to host a baby safety shower in our district. We did it 
and it was very, very successful.
    Moreover, now that we have a 9-month-old running around, 
the commission contacted us again with regard to a child safe 
home inspection program. We are going to be doing that in a few 
weeks. This is the way we can publicize how to make your home 
safer for infants and toddlers, and I am looking forward to 
that. We will probably be put to the test. I am looking forward 
to that test, but this is a way we can help really move public 
opinion and constituents with respect to something that impacts 
our lives in a very important way. I yield back.
    Mr. Rogan. The Chair thanks the gentlemen. Chair is pleased 
to recognize our good friend and colleague from Minnesota, Mr. 
Luther.
    Mr. Luther. Thank you, Mr. Chairman. And I will be brief as 
well. I just want to say first of all that I appreciate the 
subcommittee focusing on the consumer protection part of our 
jurisdiction. I think it is very appropriate to have this 
hearing, and I look forward to further hearings. I also want to 
just say on really a personal note that I am very thankful for 
the work of CPSC for developing the voluntary guidelines for 
bleacher safety after a young boy in Minnesota died when 
falling from a bleacher in our State. In general, I believe 
that the CPSC and its current Chairwoman Brown are doing a very 
excellent job responding to the needs, the public safety needs, 
of our country. I look forward to Mr. Markey's bill in that I 
believe that it will capitalize and expand on the commission's 
proven competence in the area of product safety. Again, thank 
you, Mr. Chairman, for the time and I yield back.
    Mr. Rogan. Chair thanks the gentleman. The Chair is pleased 
to recognize our friend and colleague from Wyoming, Mrs. Cubin, 
for an opening statement.
    Mrs. Cubin. Thank you, Mr. Chairman; and thank you for 
scheduling this very timely hearing. As a mother of two sons 
and hopefully someday a grandmother, if they would just get a 
girlfriend, get married and have babies, I think--I know we 
have a ways to go, but we are working on it. I am.
    Anyway, as a mother I really think that one of the main 
thoughts that occupy a mother's mind is the safety and health 
of her children. So I am very delighted we are addressing these 
issues today. And of course the first one that we will be 
addressing is that of protecting children by updating and 
improving the standards for motor vehicle safety seats. I think 
Mr. Shimkus' legislation is necessary to give the National 
Highway Traffic Safety Administration a push in making the 
purchase and installation of proper child safety seats easier 
and more consumer friendly.
    The next piece of legislation we will consider today also 
purports to protect children in the context of the safety of 
their sleepwear. It is encumbent on this Congress to ensure 
that the Consumer Protection Safety Commission is exercising 
due diligence when it comes to the safety of our children's 
sleepwear. If a stricter standard is necessary to protect 
infant children from serious burn injuries and possibly death, 
then such a standard should be adopted without hesitation. I am 
confident this this panel will learn a great deal from today's 
witnesses, and I do look forward to hearing from them.
    Last, I want to address the issue of transferring 
jurisdiction over the fixed-site amusement parks from the 
States back to the Consumer Protection Safety Commission. I am 
not entirely sure why this legislation is necessary since 
currently 41 States already have regulatory requirements in 
place. Of the nine remaining States, most of them are in the 
process of enacting legislation or have few or no amusement 
park facilities.
    The amusement park industry currently adheres to very 
strict safety standards, and statistics prove that more people 
are injured doing leisurely activities than are hurt on theme 
park rides. In fact, Wyoming does not have any amusement parks. 
However, during the summer months, you cannot swing a golf club 
without hitting a carnival in just about any direction in any 
small town in the State. The Consumer Protection Safety 
Commission regulates carnivals and has proven that their 
jurisdiction is not necessarily a prescription for safety 
because that is where the injuries have mostly occurred.
    In the April 2000 issue of U.S.A. Today, an article on park 
safety demonstrates that the two most tragic cases were in 
carnivals over which the CPSC has had authority for a number of 
years. So, Mr. Chairman, I do look forward to all the 
information that we will get, and hopefully we will move 
forward in a wise way.
    Mr. Rogan. I thank the gentlewoman. The Chair is pleased to 
recognize our friend and colleague from Ohio, Mr. Sawyer, for 
an opening statement.
    Mr. Sawyer. Thank you, Mr. Chairman. I will forego the 
opening statement. Just let me make a couple of observations. 
In Ohio, the Department of Agriculture has overseen amusement 
park safety standards for a very long period of time. I 
remember when that legislation was revisited some 20 years ago 
in the Ohio general assembly. It was occasioned by an incident 
in which a father and his daughters were riding in a ferris 
wheel and the safety bar popped open, caught on the framework 
of the ferris wheel, and systematically just dumped them out as 
people looked on in horror.
    The work that has been done since that time to improve not 
only the standards of equipment but the frequency of inspection 
and the skill of those who come to that task I think has been 
laudable. My hope would be that while there may be room for a 
national framework in this sort of undertaking, that we provide 
a vehicle for the States to act in lieu of a Federal 
inspection, set to Federal standards perhaps; but so that those 
people who are closest to the rides, those people who are there 
and in place will have the opportunity to do their job. And if 
they do it to that standard that that will suffice instead of 
putting together a large and duplicative national operation to 
do the same thing.
    With regard to child restraints and safety seats in 
automobiles, I just hope that we will pay close attention when 
Deputy Administrator Millman testifies this morning that we 
should be careful that the legislation not specify the timing 
or outcome of actions. This is an enormously complex arena and 
the dynamics of automobile crashes and the consequences on 
human beings are complicated almost beyond our capacity to 
replicate in any way except in actual testing. So I would hope 
that we would not prejudge what the outcome of that testing 
should be but rather continue to encourage NHTSA to engage in a 
thorough and comprehensive system of measurement of outcomes. 
With that, Mr. Chairman, I yield back the balance of my time.
    Mr. Rogan. The Chair thanks the gentleman. The Chair is 
pleased to recognize for an opening statement our friend and 
colleague from Mr. Ohio, Mr. Gillmor.
    Mr. Gillmor. I don't have any.
    Mr. Rogan. The Chair is even more pleased. Does the 
gentlewoman from California wish to make an opening statement?
    Ms. Eshoo. I thought you said ``gentleman.'' That is why I 
wasn't responding. Thank you, Mr. Chairman, and good morning to 
all of the members of the committee. As the title of this 
hearing suggests, it is this committee's intention to protect 
the vulnerable; and I salute the chairman for his leadership in 
this area. I am looking forward to hearing the testimony 
regarding legislation involving the safety of electric bicycles 
and amusement park rights; and I am especially interested to 
learn how better data can be obtained regarding the types of 
injuries which occur at these large businesses.
    I think the CPSC should expand the National Electronic 
Injury Surveillance System to include all injuries treated in 
emergency departments. I think that that would be a very 
important start. Collecting data involving injury causation at 
amusement parks is one place where they can begin right now. I 
am chiefly concerned with the legislation H.R. 4145, the Child 
Passenger Protection Act. This legislation, while well 
intentioned and possessing some potentially positive 
components, nevertheless, I believe, seeks to micromanage the 
National Highway Traffic Administration.
    The recent NHTSA administrator, Dr. Ricardo Martinez, is a 
renowned emergency physician at Stanford University Hospital, 
which is in my district. Over the last 6 years, Dr. Martinez 
and NHTSA advanced the use and the improvement of child 
passenger safety seats to an unprecedented level. NHTSA 
conducted testing, created standards, and oversaw education 
campaigns that were run by safety groups and funded by 
automobile manufacturers. NHTSA also helped to reach hundreds 
of firefighters, police officers, emergency nurses and doctors 
on how to instruct parents to correctly install these seats. 
And the agency succeeded in getting the President personally 
involved in the rulemaking that improved the installation of 
child safety seats.
    Every Federal agency can improve its performance. I am 
anxious to learn how NHTSA sees how they, too, can improve in 
this arena. But this legislation as it is currently drafted, in 
my view, does not further NHTSA's success. It institutes 
unreasonable deadlines, it interferes with ongoing research and 
crash testing, and it fails to adequately fund the demands it 
makes of the agency. I am also concerned that the bill's 
findings do not recognize the recent accomplishments of NHTSA.
    NHTSA's success in this area is commendable not just in 
certain aspects. Its leadership, including its supportive 
groups that advocate and create safety standards, I think has 
been outstanding. It is one of the true successes of this 
administration.
    Mr. Chairman, as we look for ways to improve upon these 
successes, I hope we can find ways to provide the funding and 
the guidance that will help NHTSA in its mission to improve the 
safety of children. I look forward to working with the sponsors 
of the legislation to accomplish this goal. And I yield back.
    Mr. Rogan. I thank my colleague from California. Are there 
any other opening statements from members of the subcommittee? 
Hearing none, the subcommittee before we go to the first panel 
of witnesses is pleased to welcome our friend and colleague 
from Connecticut, Ms. DeLauro, for a brief statement.
    Ms. DeLauro. Thank you very, very much, Mr. Chairman. I 
want to say thank you to Chairman Tauzin and to Ranking Member 
Markey for allowing me to come here this morning and to testify 
on an issue that is very near and dear to my heart and that is 
children's sleepwear. I also want to say thank you to the 
committee members. I applaud the work of this committee and 
what it does with regard to consumer safety. You really make a 
difference in the lives of our families. And you are to be 
congratulated. Twenty-five years ago, the Consumer Product 
Safety Commission established fire standards for children's 
pajamas. If the sleepwear caught fire from a small flame, it 
had to self-extinguish. The reason for the standards is that 
cotton fibers catch fire easily and they burn quickly. The 
flames are large, and they move quickly up the body to the 
face. Children injured in sleepwear burns are hurt horribly. I 
didn't know this until the burn units at Bridgeport Hospital 
and Yale-New Haven Hospital, St. Raphael's Hospital, and the 
fire fighting community in my district invited me to come and 
to watch a demonstration and to get involved in this issue.
    Before the standards, an average of 60 children died every 
year from burning pajamas. After the standard was adopted, the 
average dropped to fewer than four per year. The standard 
worked. It made sense. It kept our children safe. Then 
something happened which doesn't make sense to me. Four years 
ago, the Consumer Product Safety Commission changed the 
flammability standard--the CPSC approved new standards that 
exempted all sleepwear for infants 9 months or younger from 
proven fire safety standards. They also exempted tight fitting 
sleepwear in children's sizes up to 14 from the standards.
    I don't understand why the CPSC would move to this weaker 
standard. The older, stronger standards have proven effective 
in the past and according to the National Fire Protection 
Agency estimates, there would have been 10 times as many deaths 
and substantially more injuries in the past 25 years if these 
weaker standards had been in place. If you think of the number 
of children now grown up starting families who may have had 
their lives cut short or been seriously burned or injured if it 
not been the tougher sleepwear standards, the number of 
tragedies that have been prevented, or the number of times 
firefighters didn't have to answer a call because the stronger 
standards prevented a terrible tragedy.
    I have high regard for the Consumer Product Safety 
Commission. As so many people have indicated here this morning, 
on so many issues, standards in baby strollers, toys, as well 
as hundreds of other products that we have in our homes. And I 
applaud the baby shower efforts and the making the homes safe 
in terms of making sure that our kids are safe. The CPSC has 
done a remarkable job over the years. They keep the public 
informed, and they help to keep unsafe products off the market. 
But on the children's sleepwear issue, I believe that they have 
made a mistake.
    You are going to hear from people who object to the 
legislation that if parents just buy sleepwear that is tight 
fitting it is more difficult for the flames to spread. That may 
be true and that may sound reasonable, but I don't know parents 
who go out and buy tight fitting sleepwear or other kinds of 
clothing for their children. You normally buy a size bigger; 
and if you are going to a baby shower, you buy a gift that is a 
size bigger so that the youngster can grow into it. That is 
just part of what our culture is all about.
    That is why we need the tougher standards, the combination 
of nonflame resistance and large sizes can be lethal. But with 
a tougher standard, families can be sure they are getting the 
safest product that they can get. We must make sure that the 
labeling indicates that it is flame resistant or it is nonflame 
resistant, if that is the case.
    I join my colleague, Congressman Rob Andrews of New Jersey, 
Congressman Curt Weldon of Pennsylvania, as well as the Safe 
Children's Sleep Coalition, in asking the CPSC for the old 
standards to be reinstated, probably the simplest legislation 
my colleagues will ever see in this institution. It is let's 
just go back to where we were. There is no other change. 
Several members of this subcommittee, Representatives Shimkus, 
Luther, Green, and Dr. Ganske, who said that he is supportive 
of this morning, have joined the effort. I appreciate their 
support.
    This is a bipartisan coalition, that has tried to work with 
the CPSC. The Commission has indicated that it did not intend 
to revisit the standards until it saw proof that the number of 
burned children has increased due to the change. I don't 
believe they really mean that. I truly don't. We do not need to 
see and have to wait for children to be burned in this country 
for us to go back to a standard that was working perfectly 
well. There are two accounts from the GAO that found that the 
CPSC data is insufficient to determine whether the number of 
burns and death for children have risen since the relaxation of 
the standards in 1996. The CPSC says they don't have the data, 
so it won't go back to the stronger standard. But I hear from 
doctors who have seen burned children in their hospitals; they 
don't need to see the data, they need to see the victims.
    I apologize to the chairman. I will conclude. This is not a 
partisan issue. I am proud to join in a bipartisan way with the 
cosponsors of this bill. The chairman of the Fire Caucus, Curt 
Weldon, is an original cosponsor. The Shriners, others have 
joined forces with the fire fighting community to say let us 
win an important victory for America's kids. Let's go back to 
the original standard.
    I encourage and I thank the subcommittee for bringing up 
this issue. Let's make the improvements. We can do this, and we 
can really do something to help our youngsters. I apologize to 
the chairman for taking more time.
    Mr. Rogan. The Chair hates to interrupt your passion.
    On behalf of the subcommittee, we thank our colleague for 
joining us this morning. We are now pleased to recognize and 
invite to the witness table the four witnesses who will make up 
our first panel of witnesses. First, Ms. Rosalyn G. Millman, 
deputy administrator of the National Highway Traffic 
Administration. Our second witness is the Honorable Ann Brown, 
Chair of the Consumer Product Safety Commission. Our third 
witness is the Honorable Mary Sheila Gall of the Consumer 
Product Safety Commission. Our fourth witness is the Honorable 
Thomas H. Moore, commissioner of the Consumer Product Safety 
Commission.
    Ladies and gentleman, welcome. For your convenience you 
will notice on the front of the witness table little boxes. 
When the little amber light goes on, that is the 1-minute 
warning. If you could please summarize at that point.
    Ms. Millman good morning you are recognized.

    STATEMENTS OF ROSALYN G. MILLMAN, DEPUTY ADMINISTRATOR, 
NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION, U.S. DEPARTMENT 
 OF TRANSPORTATION; HON. ANN BROWN, CHAIRMAN; HON. MARY SHEILA 
  GALL, COMMISSIONER; AND HON. THOMAS H. MOORE, COMMISSIONER, 
               CONSUMER PRODUCT SAFETY COMMISSION

    Ms. Millman. Thank you, Mr. Chairman. If I could before I 
start, I would like to introduce my guests that I have brought 
with me. On my right is a 3-year-old dummy in a child safety 
seat; and on the other side is our 6-year-old dummy. And that 
dummy is using a booster seat.
    Mr. Rogan. With their hair lines they look like relatives 
of mine. Your guests are welcome.
    Ms. Millman. I have here a 12-month-old dummy, and it is in 
a convertible seat which can be used for both infants and 
toddlers. Thank you for the opportunity to testify on H.R. 
2592, an amendment to the Consumer Products Safety Act relating 
to electric bicycles and H.R. 4145, the Child Passenger 
Protection Act of 2000. I especially appreciate the opportunity 
this hearing affords NHTSA to brief you on the agency's 
comprehensive child passenger protection program. Nothing has a 
higher priority for us than the safety of children. I want to 
congratulate and thank Congressman Shimkus and the cosponsors 
of H.R. 4145 for raising awareness about the leading killer of 
children in America, motor vehicle crashes. NHTSA welcomes 
their support in making this country's roads as safe as 
possible.
    For more than 30 years, NHTSA has been a leader in 
improving motor vehicle safety for all occupants, especially 
children. We currently have under way a comprehensive program 
that includes research, rulemaking, and public information and 
education. The attachment to my written statement describes 
major activities in our child passenger protection, and with 
your permission I would like to submit that for the record.
    Mr. Rogan. Without objection.
    Ms. Millman. Many initiatives that H.R. 4145 calls for are 
parts of our program and we look forward to making it even 
stronger. NHTSA will vigorously pursue these and other 
initiatives until every child is safe in every vehicle. Working 
with many public and private organizations, we have greatly 
improved safety for children. As you can see in the chart on my 
left, motor vehicle crashes killed 15 percent fewer children 
ages 4 and younger in 1998 compared to 1994.
    The child safety seats now on the market are very effective 
when used properly. They are saving more than 300 children a 
year at the current levels of use. And even though these seats 
are often installed improperly, today's seats are 59 percent 
effective in preventing fatalities for children ages 4 and 
under. That statistic can means that 59 percent of the 
unrestrained children in this age group who died in motor 
vehicle crashes would be alive if they had been in a child 
safety seat, even one that was installed improperly.
    Sadly, not enough children are riding in appropriate 
restraints. Of the 575 children ages 4 and under that motor 
vehicle crashes killed in 1998, half were totally unrestrained. 
Fewer than 10 percent of children ride unrestrained, up from 78 
percent in 1994. Yet they accounted for half of the fatally 
injured children in this age group. We must increase the use of 
child safety seats to 100 percent.
    Right now NHTSA is putting the finishing touches on the May 
22 kick off for Operation ABC, America Buckles Up Children, our 
nationwide mobilization with police and other law enforcement 
officials to educate parents and caregivers and to enforce 
State child safety seat and seat belt laws. Planning guides for 
this campaign are in the information packets that NHTSA 
provided to you. More than 7,100 law enforcement agencies 
throughout the Nation participated in last year's Thanksgiving 
operation ABC mobilization. I expect about that same number to 
join us between May 22 and May 29 this year for outreach, child 
seat check points, and enforcement waves.
    While child safety seat performance can still improve, the 
most promising improvement is to make seats easier to install 
and adjust properly. A seat that parents and caregivers use and 
use properly is by far the best protection we can provide 
children. To increase proper use of child safety seats, NHTSA 
issued new requirements in February 1999, for a standardized 
attachment system, LATCH, Lower Anchors and Tethers for 
Children, for installing child safety seats in cars, minivans, 
and light trucks. On September 1, 2002, when the requirements 
will apply to all new vehicles and seats, properly installing a 
child restraint will be greatly simplified. NHTSA is currently 
working with manufacturers and retailers to educate the public 
about LATCH. This rule will save as many as 50 additional 
children and prevent 3,000 injuries every year.
    In February 2000, NHTSA launched a new nationwide public 
information campaign, Don't Skip a Step, to educate parents 
that as their children grow, their restraint needs change. 
Before children are ready for adult seat belts, they should 
ride in a belt-positioning booster seat for maximum protection, 
as our new 6-year-old dummy in the booster seat is doing. That 
is the one on my left.
    Because NHTSA will not rest until every child travels 
safely, today I am announcing development of a new plan to 
raise child occupant protection to the next level. This plan, 
which we will unveil by the end of this summer, will be the 
successor to the comprehensive plan we issued in 1991 and have 
been implementing since then. LATCH, the standardized 
attachment system, is one result of the 1991 plan.
    This new strategy will describe priority research and data 
analysis, rulemaking initiatives, and expanded public 
information and education opportunities. Since the beginning of 
April, more than 30 NHTSA staff have been reviewing NHTSA's 
current and past activities, recommendations from our February 
public meeting and from the National Transportation Safety 
Board, and other information to identify the activities most 
likely to improve child occupant protection over the next 10 
years. Today, I am further announcing new plans which include 
consideration of rulemaking to ensure that child seat test 
procedures are representative of actual usage conditions.
    Also I can state that NHTSA is conducting research that may 
lead to side impact protection performance standards for child 
restraint systems. Among the outcomes of this plan, I expect to 
initiate rulemaking to replace the current 9-month-old, 3-year-
old, and 6-year-old dummies with the more advanced ones that we 
included in our recent advanced air bag rule. In addition, 
NHTSA will evaluate an advanced 18-month-old dummy.
    I assure you that NHTSA will follow through with its plans 
in a manner that will achieve the goals of H.R. 4145. Many 
NHTSA activities both present and planned correspond to the 
initiatives that H.R. 4145 proposes. Again, I thank you for 
your interest in helping parents and caregivers protect 
children in motor vehicles. NHTSA welcomes the opportunity to 
work with you further to develop and fund the best possible 
program to improve child safety on America's roads. We will 
also be glad to work with you on electric bicycles, to ensure 
an appropriate transition of authority to the Consumer Product 
Safety Commission. This concludes my prepared statement, and I 
will be happy to answer any questions the subcommittee might 
have.
    [The prepared statement of Rosalyn G. Millman follows:]

    Prepared Statement of Rosalyn G. Millman, Deputy Administrator, 
             National Highway Traffic Safety Administration

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to testify on H.R. 2592, an amendment to the Consumer 
Products Safety Act relating to electric bicycles, and H.R. 4145, the 
``Child Passenger Protection Act of 2000.'' I especially appreciate the 
opportunity this hearing affords NHTSA to brief you on the agency's 
comprehensive child passenger protection program. Nothing has a higher 
priority for us than the safety of children.
    I want to congratulate and thank Congressman Shimkus and the co-
sponsors of H.R. 4145 for raising awareness about the leading killer of 
children in America, motor vehicle crashes. NHTSA welcomes their 
support in making this country's roads as safe as possible.
    For more than 30 years, NHTSA has been a leader in improving motor 
vehicle safety for all occupants, especially children. We currently 
have underway a comprehensive program that includes research, 
rulemaking, and public information and education. Attached to my 
statement is a description of major activities in our child passenger 
protection program. Many initiatives that H.R. 4145 calls for are parts 
of our program and we look forward to making it even stronger. NHTSA 
will vigorously pursue these and other initiatives until every child is 
safe in every vehicle.

Progress in Child Motor Vehicle Safety
    Working with many other public and private organizations, we have 
made great progress in improving safety for children. Motor vehicle 
crashes killed 12 percent fewer children ages four and younger in 1998, 
compared to 1996. Of the 575 children ages four and under that motor 
vehicle crashes killed in 1998, half were totally unrestrained. 
Observational studies indicate that fewer than 10 percent of children 
ride unrestrained, yet they accounted for half the fatally injured 
children in this age group. In 1998, 91 percent of child passengers 
ages four and under were riding restrained, up from 78 percent in 1994. 
Our most recent analysis of fatal crashes indicates that child safety 
seats, even though often installed improperly, are overall 59 percent 
effective in preventing fatalities for children ages four and under. We 
must increase the use of child safety seats to 100 percent.
    Of the children killed despite being restrained, it is likely that 
a significant percentage were not properly restrained. Either they were 
in restraints that were not appropriate for their size, they were not 
properly secured to the restraints, or the restraints were not properly 
secured to the vehicle. Some of these children would be alive today, if 
they had been properly restrained. We must ensure that all children are 
not only restrained, but properly restrained.
    The child safety seats now on the market are very effective when 
used properly. While their performance can still improve, the most 
promising improvement is to make seats easier to install and adjust 
properly. A seat that parents and caregivers use, and use properly, is 
by far the best protection we can give children.

Analysis of H.R. 4145
    H.R. 4145 contains three major provisions. The first requires NHTSA 
to consider such new rulemaking actions as dynamic tests of child 
restraints that simulate an array of crash conditions, using test 
dummies that simulate a greater variety of child sizes, and improving 
crash protection for taller and heavier children.
    While the actions described in the bill's first provision may 
improve safety for children, NHTSA's is already planning activities 
will accomplish the provision's goals. Today, I am announcing a set of 
rulemaking and research initiatives, including rulemaking to ensure 
that the test procedures in Federal Motor Vehicle Safety Standard 213 
(FMVSS 213)--child safety seat requirements--accurately represent the 
conditions in which the seats will be used. Further, we are conducting 
research that may lead to performance standards for child restraint 
systems in side impact crashes. We plan to evaluate existing data on 
child restraints involved in both rear-impact and rollover crashes to 
determine the feasibility of establishing test conditions simulating 
these crashes.
    NHTSA has made, and continues to make, significant progress in 
improving test dummies to provide more realistic information. NHTSA 
will initiate rulemaking to replace the current 3-month-old, 9-month-
old and 6-year-old dummies with the new, more advanced dummies included 
in the recent advanced air bag rule. In addition, the agency plans to 
evaluate an advanced 18-month-old dummy. When the new dummy is 
validated, NHTSA will consider requiring its use in compliance tests.
    NHTSA is engaged in several efforts to improve the protection of 
older children, those H.R. 4145 designates as children up to 59.2 
inches tall and weighing more than 50 pounds. These children have 
outgrown conventional child safety seats, but are too small for adult 
lap shoulder belts, unless they use a belt positioning booster seat. 
NHTSA currently tests booster seats with the dummy that simulates a 6-
year-old child. To evaluate the practicability of booster seat 
performance standards for a broader range of children, the agency plans 
to study the feasibility of developing a test dummy that would fall 
between the size and weight of the 6-year-old dummy and the 5th 
percentile female dummy, which is 14 inches taller and 56.4 pounds 
heavier than the 6-year-old device. In the interim, NHTSA is 
considering using an existing 10-year-old European dummy that 
represents children who weigh up to 100 pounds.
    The second major provision of H.R. 4145 mandates that NHTSA (1) 
issue rules within two years requiring manufacturers to make child 
restraints that minimize head injuries in side-impact and rollover 
crashes and that provide side-impact protection; (2) include a child 
restraint in each vehicle crash-tested under NHTSA's New Car Assessment 
Program (NCAP); (3) prescribe readily understandable text for any 
required labels on child restraints; and (4) spend at least $750,000 of 
its safety funds each fiscal year on crash testing child restraints.
    The goals of this provision are laudable, however, at this time 
legislation should not specify the timing or outcome of the actions. 
Further research and public comment are needed so that NHTSA can 
determine their practicability. For example, NHTSA is currently working 
with the International Standards Organization (ISO) to develop an ISO 
standard for child restraints. This work will enable us to determine 
optimum performance criteria for improved head protection in side-
impact crashes.
    Including child restraints in vehicles crash tested under the NCAP 
may be feasible, although the information yielded might not be 
particularly helpful to parents and caregivers trying to choose from 
the vast array of vehicles and seats now on the market. The resulting 
data for each test would represent only one particular child safety 
seat in one particular vehicle and would not help consumers who were 
considering using a particular child safety seat model in another 
vehicle. However, NHTSA will include child sized dummies in some NCAP 
tests to help validate these results to the current FMVSS 213 test.
    H.R. 4145's third major provision requires NHTSA to rate child 
restraint performance. Developing such a rating was the major topic of 
discussion at NHTSA's February 2000 public meeting at which NHTSA 
invited comment on such measures as improved labeling, improved test 
procedures and additional test dummies. Meeting participants, including 
vehicle and restraint manufacturers and others, actively debated each 
of these issues. NHTSA is presently reviewing the meeting comments to 
determine if a rating program is feasible and cost-effective.
    Again, I thank you for your interest in helping parents and 
caregivers protect their children with the introduction of H.R. 4145. 
NHTSA welcomes the opportunity to work with you further to develop the 
best possible program to improve child safety on America's roads.

Improvement of NHTSA Standards for Child Restraint Systems
     Since NHTSA first proposed to regulate child safety seats in 1969, 
NHTSA has been raising the minimum required performance standards for 
motor vehicle child passenger protection. NHTSA's first child safety 
seat regulation, FMVSS 213, went into effect in 1971, and dealt with 
seat strength, the width and strength of webbing, the means of 
attachment to the vehicle, and the use of energy-absorbing materials, 
but it did not address actual performance of the seats. NHTSA issued a 
new version, effective in 1981, that required seats to pass dynamic 
performance requirements simulating the forces of a crash. That version 
is the basis for today's standard, but NHTSA has since upgraded it.
    NHTSA tests every new seat model in the year it is introduced. We 
also conduct defect investigations to identify safety problems that the 
standard does not directly address. In the past four years, we have 
overseen 26 recalls, affecting 4.6 million seats.
    We also continue to upgrade our standard in response to new data 
from the field. One recent upgrade responds to an installation problem 
that became evident as child safety seat installation rates grew in the 
late 1980's and early 1990's. During this period, vehicle manufacturers 
began to install combination lap and shoulder belts in the rear seats 
of vehicles, rather than lap belts. Combination belts protect adults 
better, but make installing a child safety seat more difficult.
    To address this problem, in 1994, NHTSA formed an internal child 
safety seat team to formulate ways to ensure the proper installation 
and use of child safety seats. In 1995, NHTSA convened a panel of 
experts on the subject. Likely solutions would involve changes to 
vehicles so the panel included representatives from motor vehicle and 
child safety seat manufacturers, academic experts, and representatives 
of a broad range of safety organizations.
    These efforts were the framework for the new FMVSS issued in 
February 1999, requiring a single standardized attachment system, LATCH 
(Lower Anchors and Tethers for Children), for installing child safety 
seats in cars, minivans, and light trucks. On September 1, 2002, when 
the rule applies to all new vehicles and seats, properly installing a 
child restraint will be greatly simplified. Each child seat will have 
two standard attachments at the base of the seat, and all new cars, 
minivans, and light trucks will have standard anchors in the back seat 
to link to these child seat attachments. NHTSA is currently working 
with manufacturers and retailers to educate the public about LATCH. The 
rule will prevent as many as 50 child motor vehicle crash deaths and 
3,000 injuries every year.
    Along with the FMVSS requiring LATCH, we upgraded child safety seat 
minimum standards in other respects. In July 1995, NHTSA required a 
greater array of sizes and weights of test dummies in compliance tests. 
The new dummies represent an infant, a 9-month-old child and a 6-year-
old child. The standard previously required only a dummy representing a 
3-year-old child.
    We will begin rulemaking later this year to incorporate the dummies 
in compliance tests for child safety seats the new dummies included in 
the advanced air bag rule. In February 2000 and March 2000, NHTSA 
adopted specifications for new, more advanced child test dummies 
representing 12-month-old, 3-year-old, and 6-year-old children. The 
improved dummies are more representative of humans than the test 
dummies previously used and allow the assessment of the potential for 
more types of crash injuries.
    Along with improvements to FMVSS 213, NHTSA encourages 
manufacturers to exceed the minimum requirements. On September 14, 
1999, former Administrator Ricardo Martinez urged all child safety seat 
manufacturers to increase the margin by which they comply with the 
standard. A rating system would further identify seats that exceed the 
minimum standards.

Public Information and Education Initiatives
    In addition to rulemaking, NHTSA is continuously developing and 
implementing public information and education efforts about proper use 
of child safety seats. In 1996, we began Patterns for Life, a national 
training and educational program to develop and maintain a community 
infrastructure of child passenger safety professionals. New parents 
need accurate information and technical assistance concerning child 
safety seats.<SUP>1</SUP> The national Patterns for Life team consists 
of about 30 representatives from federal agencies and national 
organizations. It identified public education needs and helped develop 
NHTSA's standardized Child Passenger Safety Training Program and the 
American Automobile Association's certification program.
---------------------------------------------------------------------------
    \1\ Every child under age 13 should always ride in the rear seat 
and follow the four steps for proper restraint for every trip. Infants 
under one year old and 20 pounds should be in rear-facing child safety 
seats. Toddlers (children between one year old and 40 pounds) should 
ride in forward-facing child safety seats. Children weighing between 40 
pounds and about 80 pounds should use a belt positioning booster seat. 
At weights above 80 pounds, most children will fit properly into lap 
shoulder belts.
---------------------------------------------------------------------------
    To date, thousands of people have completed this training, and over 
6,000 participants from all 50 states have been certified under the 
program. These certified child passenger safety specialists have 
checked for the proper installation and use of hundreds of thousands of 
child safety seats at special clinics and checkpoints in every state 
and territory.
    NHTSA currently is developing a planning guide for states and 
organizations that wish to establish permanent fitting stations--
locations within a community where parents and care givers can learn 
how to install and use properly their child safety seats. We also are 
working with states, local communities, and national organizations to 
conduct child safety seat checkpoints in every state.
    In 1997, NHTSA joined with the Air Bag and Seat Belt Safety 
Campaign, an advocacy organization that some vehicle manufacturers and 
insurance companies established, to support semi-annual (May and 
November) mobilizations, Operation ABC (America Buckles up Children). 
Operation ABC mobilizations are high-visibility nationwide efforts that 
police and other enforcement officials conduct to educate parents and 
care givers and to enforce state child passenger and seat belt laws. In 
November 1999, more than 7,100 law enforcement agencies throughout the 
nation conducted Operation ABC mobilizations.
    A second ``blue ribbon panel'' of experts convened in 1998 to 
recommend better ways to protect children ages 4 to 16 years old, those 
too large to ride in the child safety seats designed for younger 
children and who should be either riding in belt positioning booster 
seats or using adult seat belts. In March 1999, the panel presented 
recommendations for these children in three areas:

(1) Marketing and Public Education--Educate parents and care givers on 
        the importance of booster seats; generate peer programs for 
        increasing seat belt use among older children.
(2) Legislation and Enforcement--Close gaps in the child passenger 
        safety and seat belt laws that leave children ages 4 to 16 
        unprotected; encourage high visibility enforcement of child 
        passenger safety laws.
(3) Product Design and Implications--Improve booster seat design for 
        safety and comfort; develop recommendations for the use of 
        after market products.
    In February 2000, NHTSA launched a new nationwide public 
information campaign, Don't Skip a Step, that responds to the panel's 
recommendations. We use it to educate parents that as children grow, 
their restraint needs change. Before children are ready for adult seat 
belts, they should ride in a belt positioning booster seat for maximum 
protection.

Jurisdiction of Low-Speed Motorized Bicycles
    Before closing, I want to address H.R. 2592 briefly. NHTSA agrees 
that Congress should amend the Consumer Product Safety Act to provide 
that low-speed motorized bicycles are consumer products subject to the 
jurisdiction of the Consumer Product Safety Commission (CPSC). However, 
NHTSA recommends that the Subcommittee amend H.R. 2592 to bring all 
low-speed motorized bicycles within CPSC's jurisdiction, not just 
electric bicycles. The legislation should focus on the low-speed 
attribute of these vehicles, not on the energy source that powers them.

Conclusion
    Because children cannot protect themselves, adults must make every 
effort to ensure child safety. With regard to the leading killer of 
children, NHTSA vigorously pursues a comprehensive program to improve 
motor vehicle safety for children. Our actions, combined with those of 
our partners, have saved the lives of many children. When used 
properly, child safety seats provide excellent protection. But, we need 
to do more. NHTSA will continue to ensure that seats achieve the 
highest levels of safety and that every child passenger uses them 
properly. We welcome the opportunity to work with the Subcommittee to 
strengthen and fully fund initiatives on this vital issue.

                               ATTACHMENT

 THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION'S CHILD PASSENGER 
                  PROTECTION PROGRAM MAJOR ACTIVITIES

Rulemaking
    NHTSA tests and gathers data in support of regulatory initiatives 
to increase motor vehicle safety.
<bullet> In July 1995, NHTSA added a greater array of sizes and weights 
        of test dummies to FMVSS 213 for use in compliance tests. The 
        dummies added included ones representing an infant, a 9-month-
        old child and a 6-month-old child. The standard retained the 
        use of a dummy representing a 3-year-old child.
<bullet> On February 15, 1997, President Clinton announced NHTSA's 
        proposal for a universal child safety seat attachment system. 
        The agency proposed that motor vehicle manufacturers provide a 
        new way of installing child restraints to (1) make them much 
        easier to install properly in motor vehicles; and (2) eliminate 
        incompatibility problems.
<bullet> On February 27, 1999, President Clinton announced a new FMVSS 
        requiring a single standardized system, LATCH (Lower Anchors 
        and Tethers for Children), for installing child safety seats in 
        cars, minivans, and light trucks. The first phase of the new 
        system was effective on September 1, 1999. On September 1, 
        2002, when the rule is fully implemented, properly installing a 
        child restraint will be greatly simplified. All new child seats 
        will have three standard attachments--one on the top and two at 
        the base--and all new cars, minivans, and light trucks will 
        have standard anchors in the back seat designed to link to 
        these child seat attachments. NHTSA is currently working with 
        manufacturers and retailers to educate the public about these 
        improvements. We expect the rule to prevent as many as 50 
        deaths and 3,000 injuries of children each year.
<bullet> On July 7, 1999, NHTSA issued a request for comment to help 
        determine whether to amend FMVSS 213 to permit child restraints 
        to be tethered to meet the limit on head excursion when tested 
        with the 6-year-old child dummy. If such an amendment is 
        adopted, it could facilitate introduction of child restraints 
        for larger children (weighing over 40 pounds) in seating 
        positions that have lap belts. The agency is now evaluating the 
        comments to determine what further action may be appropriate.
<bullet> On September 14, 1999, NHTSA sent a letter to all child safety 
        seat manufacturers, urging them to manufacture child seats so 
        that they ``perform well beyond the minimum requirements of our 
        standard,'' and pointing out that, with the safety of our 
        nation's children at issue, mere compliance with the standard's 
        minimum requirements is insufficient. The letter further stated 
        that NHTSA planned to schedule a meeting to discuss ways to 
        maximize the safe transportation of children and the 
        possibility of creating a system to rate the relative 
        performance of child restraints.
<bullet> On February 9, 2000, NHTSA convened a public meeting to 
        discuss the issues set out in NHTSA's September 1999 letter. 
        Speakers at the meeting, including manufacturers and other 
        interested parties, and those who commented on the notice that 
        announced the meeting, raised a number of issues and offered 
        varying viewpoints on the merits of a rating for child seats. 
        Also, suggestions were made for future rulemaking, such as 
        improved labeling, new test dummies, and changes to the 
        existing test procedure for child restraints.
      NHTSA is currently reviewing the record of the public meeting and 
        is developing an agency-wide action plan to respond to the 
        issues raised and related matters. We expect to complete this 
        plan by late summer of 2000.
<bullet> In February and March 2000, NHTSA adopted new, more advanced 
        child test dummies representing 12-month-old, and 3-year-old 
        and 6-year-old children. The new dummies are more 
        representative of humans than the existing test dummies and 
        allow assessment of the potential for more types of injuries in 
        automotive crashes. NHTSA will initiate rulemaking in the near 
        future to incorporate use of these dummies into child safety 
        seat compliance tests.

Research and Development
    NHTSA's research and development program covers the full range of 
motor vehicle safety issues.

<bullet> In 1996, NHTSA published the first national study on the types 
        of misuse of child safety seats. This study showed that about 
        80 percent of child safety seats are used incorrectly and that 
        only 6 percent of children of booster seat age ride in a 
        booster seat.
<bullet> In 1999, NHTSA began its initial evaluation of the interaction 
        of seat-mounted and door-mounted side air bags with various 
        types of child restraint systems.
<bullet> In 2000, NHTSA began research to identify potentially 
        effective interventions to address the problem of children 
        moving prematurely from child safety seats to adult seat belts. 
        Also in 2000, the agency plans to assess LATCH.

Enforcement
    NHTSA's Vehicle Safety Compliance Program ensures that motor 
vehicles and motor vehicle equipment, such as child safety seats, 
provide the safety benefits intended by the agency's federal motor 
vehicle safety standards. NHTSA's Defects Investigation Program 
identifies and removes motor vehicles and motor vehicle equipment that 
contain safety-related defects from interstate commerce.

<bullet> From 1996 to the present, NHTSA has conducted compliance tests 
        on 360 models of child safety seats (63 models of booster seats 
        and 238 other safety seat models). Twenty-three recalls have 
        been conducted since 1996, involving about 4.7 million child 
        safety seats. NHTSA has monitored each recall to ensure that 
        consumers were notified, and that the scope and remedy of each 
        recall was adequate and timely.
<bullet> Through NHTSA's toll-free Auto Safety Hotline (1-888-DASH-2-
        DOT) or web site--www.nhtsa.dot.gov/hotline--parents and others 
        report defective child restraints and seat belts to the agency. 
        Through NHTSA's web site, consumers also may access extensive 
        information on the correct use of child restraints.

Public Information, Education and Training
    Public information, education and training are integral to all of 
NHTSA's programs. In particular, NHTSA devotes considerable resources 
to working with the states and communities and the private sector to 
promote child safety education and enforcement efforts that increase 
the correct installation and correct use of these life-saving systems.

<bullet> On October 25, 1995, NHTSA issued a public warning that urged 
        parents, in the strongest possible terms, to insist that their 
        children ride in an appropriate restraint in the back seat 
        whenever possible.
<bullet> In 1996, NHTSA started Patterns for Life, a national training 
        and educational initiative to develop and maintain a community 
        infrastructure of child passenger safety professionals 
        throughout the nation. New parents need accurate information 
        and technical assistance concerning child safety 
        seats.<SUP>1</SUP> The national Patterns for Life team consists 
        of about 30 representatives from federal agencies and national 
        organizations. The Team identified public education needs and 
        assisted in the development of the NHTSA Standardized Child 
        Passenger Safety Training Program and the American Automobile 
        Association (AAA) certification program.
---------------------------------------------------------------------------
    \1\ Every child under age 13 should always ride in the rear seat 
and follow the four steps for proper restraint for every trip. Infants 
under one year old should be in rear-facing child safety seats. 
Toddlers (children between one year old and 40 pounds) should ride in 
forward-facing child safety seats. Children weighing between 40 pounds 
and about 80 pounds should use a belt positioning booster seat. At 
weights above 80 pounds, children will fit properly into lap shoulder 
belts.
---------------------------------------------------------------------------
      To date, thousands of people have completed this training and 
        over 6,000 participants from all 50 states have been certified 
        under the program. These certified specialists in child 
        passenger safety have checked for the proper installation and 
        use of hundreds of thousands of child safety seats at special 
        clinics and checkpoints in every state and territory.
      NHTSA currently is developing a planning guide for states and 
        organizations that wish to establish permanent fitting 
        stations--locations within a community where parents and care 
        givers can learn how to install and use properly their child 
        safety seats. We also are working with states, local 
        communities, and national organizations to conduct child safety 
        seat checkpoints in every state.
<bullet> On January 23, 1997, President Clinton directed Secretary 
        Slater to prepare a plan to increase the use of seat belts 
        nationwide. To carry out this directive, DOT established the 
        BuckleUp America (BUA) campaign. NHTSA coordinates the 
        Department's BUA campaign, which required the agency to 
        implement each of four elements of the President's initiative: 
        partnerships, legislation, enforcement, and education.
<bullet> In 1997, as part of NHTSA's comprehensive plan to share vital 
        information directly with the public on correct child safety 
        seat use and positioning, the agency announced a new computer 
        database for parents and care givers to determine whether a 
        particular child safety seat will fit into a particular make 
        and model of vehicle. The database program, launched with the 
        National Automobile Dealers Association (NADA), contains 
        specifications for child seats manufactured since 1989.
<bullet> In 1997, NHTSA launched ``Safety City,'' a web site 
        (www.nhtsa.dot.gov/kids) that provides children with 
        interactive web pages containing sophisticated graphics about 
        all facets of highway safety. Child safety seat information is 
        included on this site.
<bullet> Beginning in 1997, NHTSA joined with the Air Bag and Seat Belt 
        Safety Campaign to support the semi-annual (May and November) 
        Operation America Buckles Up Children (ABC) mobilizations. 
        Operation ABC mobilizations are high-visibility nationwide 
        efforts that police and other enforcement officials conduct to 
        educate parents and care givers and to enforce state child 
        passenger and seat belt laws. In November 1999, more than 7,100 
        law enforcement agencies throughout the nation conducted 
        Operation ABC mobilizations to enforce child safety seat and 
        seat belt laws.
<bullet> On November 19, 1998, Secretary Slater, together with NHTSA 
        officials, convened a second ``blue ribbon panel'' of experts 
        to recommend ways that children ages 4 to16 years old can be 
        better protected in motor vehicles. On March 15, 1999, the 
        panel presented its recommendations for these older children in 
        the following three areas:
    (1) Marketing and Public Education: Educate parents and care givers 
            on the importance of booster seats; generate peer programs 
            for increasing seat belt use among older children.
    (2) Legislation and Enforcement: Close gaps in child passenger 
            safety laws and seat belt laws, as these laws often leave 
            children ages 4 to 16 unprotected; encourage high 
            visibility enforcement of child passenger safety laws.
    (3) Product Design and Implications: Improve booster seat design 
            for safety and comfort; develop recommendations for the use 
            of after market products, some of which currently have no 
            safety performance standards for their use yet are designed 
            to improve safety belt fit.
<bullet> In 1999, NHTSA awarded nearly $1 million for 21 cooperative 
        Buckle Up America (BUA) agreements with organizations that 
        support child safety seat education and public information 
        efforts.
<bullet> In 1999, in partnership with the Automotive Coalition for 
        Traffic Safety (ACTS), NHTSA initiated a program of periodic 
        meetings with child restraint manufacturers, vehicle 
        manufacturers, and associated retailers to share information 
        and collaborate on the best ways to educate the public about 
        child passenger safety issues.
<bullet> In 1999, NHTSA established the Child Passenger Safety Board as 
        an authoritative body to monitor and provide program and 
        technical guidance in matters pertaining to the NHTSA 
        Standardized Child Passenger Safety Training Program and the 
        American Automobile Association's (AAA) related certification 
        program. Board members include representatives of national 
        organizations that have played a role in standardizing child 
        passenger training.
<bullet> In September 1999, to increase booster seat use for children 
        ages 4 to 8 and seat belt use among children ages 8 to 16, 
        NHTSA awarded a total of $500,000 to six states <SUP>2</SUP> 
        for pilot and demonstration programs.
---------------------------------------------------------------------------
    \2\ Arizona, New York, North Dakota, Rhode Island, Texas, and 
Washington.
---------------------------------------------------------------------------
<bullet> On February 14, 2000, NHTSA awarded $7.5 million to 47 states 
        and the territories under the Child Passenger Protection 
        Education Grant Program (section 2003(b) of the Transportation 
        Equity Act for the 21st Century (TEA-21)). The grant program 
        supports state efforts to develop and implement occupant 
        protection educational outreach programs for children up to age 
        16, to promote proper child restraint use (including booster 
        seats), and to train child passenger safety personnel on proper 
        restraint use. NHTSA has encouraged states to use these funds 
        to target minority and rural populations, and children with 
        special health care needs.
<bullet> On February 14, 2000, Secretary Slater launched NHTSA's Don't 
        Skip a Step national booster seat campaign to educate parents 
        about the risks of improperly positioned adult seat belts and 
        the effectiveness of belt positioning booster seats.

    Mr. Tauzin. Thank you, Ms. Millman.
    The Chair wishes also to thank Congressman Rogan for his 
stewardship of the committee while I was on the floor. I am 
pleased to report, by the way, to the committee the House has 
just adopted our Internet Access Charge Protection Act, 
ensuring that per-minute charges for use of the Internet for 
data services will never be assessed against individuals who 
use the Internet. And that bill now goes on to the Senate, 
hopefully, where the Senate will concur in the wisdom of the 
House.
    The Chair is now pleased to welcome the Honorable Ann 
Brown, the Chair of the Consumer Product Safety Commission, for 
your testimony. Ms. Brown.

                   STATEMENT OF HON. ANN BROWN

    Ms. Brown. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, I am Ann Brown, chairman of the 
U.S. Consumer Product Safety Commission. With me today are Vice 
Chairman Mary Sheila Gall, Commissioner Thomas H Moore, and 
members of the commission staff.
    Before I begin my statement, I want to call to the 
subcommittee's attention the amendments to our statutes that 
President Clinton proposed to the Congress last Friday. 
Briefly, these amendments would strengthen our enforcement 
authority by removing the cap on civil penalties when 
manufacturers fail to report substantial product hazards to us 
as required by current law, making it a felony rather than a 
misdemeanor to violate our statutes in a knowing and willful 
manner, and provide a more effective remedy for consumers when 
a product contains a substantial hazard. The commission voted 
two to one to endorse these amendments, and I hope this 
subcommittee will favorably consider them next year.
    There are four subjects for our agenda today, and I will 
address each of them in turn. The CPSC and the National Highway 
Traffic and Safety Administration, NHTSA, share jurisdiction 
over infant car seats which often serve as a carrier for a 
child when a seat is removed from the car. It is our 
responsibility to ensure the safety of these products when they 
are taken from the car and used as an infant carrier.
    In the past 2 years, we have recalled more than 2.1 million 
defective car seat carriers from three different manufacturers. 
Typically, the defect involved the sudden release of the handle 
of the carrier, thereby allowing the child to pitch forward 
onto the ground. I am pleased to tell you that each of these 
recalls was carried out in a cooperative manner with the NHTSA.
    Electric bicycle manufacturers are caught in a regulatory 
trap between the NHTSA and CPSC. While their products meet the 
strict definition of motor vehicle under the law, the 
manufacturers could not comply with the safety regulations that 
apply to such vehicles. Moreover, NHTSA has no desire to 
regulate these electric bicycles. CPSC is willing to undertake 
this responsibility, provided we can do it in an effective and 
efficient manner.
    Mr. Chairman, I believe the best course here is for our 
staff to work with your staff and interested members to draft 
legislation that the committee could promptly approve. If that 
is acceptable to you, I am ready to move forward quickly.
    On September 9, 1996, the Commission issued amendments to 
the standards for children's sleepwear excluding garments sized 
for infants 9 months or younger and tight fighting garments for 
young children above that age. I dissented. I believe that the 
original children's sleepwear standard was instrumental in 
reducing burn-related deaths and injuries related to flammable 
sleepwear.
    The standard was straightforward and simple. It provided a 
high level of protection for children by requiring fabrics used 
in children's sleepwear to self-extinguish when exposed to a 
small open flame. The regulation was working well. The long-
standing standard is credited with saving many lives and 
preventing countless burn-related injuries. As I have said 
repeatedly, my overriding concern is to keep our children safe. 
I have seen nothing that has caused me to change my position. 
Over the past several years, our staff has spent a great deal 
of time on this issue. Each Commissioner and their personal 
staffs have done the same.
    The situation at the Commission is rigid. There will be no 
movement. We have heard from thousands of people on both sides 
of the issue. We have carefully considered all aspects of the 
issue. The heavy expenditure of resources has been appropriate 
because this is a very important safety issue. However, this is 
not the only safety issue confronting the commission. I believe 
it is now time to move on lest in our vigorous attention to 
this sleepwear question we begin to spend less time on and pull 
resources away from other critical safety problems. For now, we 
turn the issue back to you. If the Congress repeals the current 
rules and directs us to return to the prior standard, we will 
carry out your direction faithfully.
    I would now like to turn to amusement park rides. The most 
tragic news the Commission receives is the death of a consumer, 
especially a child, particularly when that death is 
preventable. In 1998, seven people died on these rides, the 
most in any single year in more than a decade. Today, we have 
no jurisdiction over fixed-site rides. As a result, the amount 
of consumer protection a rider receives depends on an 
irrelevant factor, whether it is a fixed site or a mobile ride. 
Currently, 11 States have no inspection laws, 13 States have no 
laws requiring operators to report injuries, and others have a 
patchwork of inconsistent regulations. I believe this is a 
situation that requires uniform regulatory oversight so that 
all amusement park riders will receive equal protection, no 
matter whether the ride is at a fixed or mobile site.
    Accordingly, I support Congressman Markey's bill H.R. 3032. 
Mr. Chairman, this concludes my statement on the four subjects 
on our agenda today. As always, I am pleased to work with you 
and the members of your subcommittee; and I am ready to answer 
any questions you may have.
    [The prepared statement of Hon. Ann Brown follows:]

 Prepared Statement of Hon. Ann Brown, Chairman, U.S. Consumer Product 
                           Safety Commission

    Mr. Chairman, and members of the Subcommittee, I am Ann Brown, 
Chairman of the U.S. Consumer Product Safety Commission (CPSC). With me 
today are Vice Chairman Mary Sheila Gall, Commissioner Thomas H. Moore, 
and members of the Commission staff.
    Before I begin my statement, I want to call the Subcommittee's 
attention to the amendments to our statutes that President Clinton 
proposed to the Congress last Friday. Briefly, these amendments would 
strengthen our enforcement authority by removing the cap on civil 
penalties when manufacturers fail to report substantial product hazards 
to us, as required by current law, make it a felony, rather than a 
misdemeanor, to violate our statutes in a ``knowing and willful'' 
manner and provide a more effective remedy for consumers, where a 
product does contain a substantial hazard. I support these amendments 
and hope the Subcommittee will favorably consider them next year.

                      WHAT WE DO, AND HOW WE DO IT

    Since this is my first appearance before you in more than two and a 
half years, and many members are probably not familiar with our 
activities, I want to describe briefly who we are, what we do and how 
we do it.
    The Commission was established in 1973, by President Nixon as a 
five, now three, member independent agency. We enforce five federal 
statutes: the Consumer Product Safety Act, the Flammable Fabrics Act, 
the Poison Prevention Packaging Act, the Federal Hazardous Substances 
Act and the Refrigerator Safety Act. All told, we have jurisdiction 
over 15,000 different kinds of consumer products, which are found, in 
and around the home, schools and recreation areas.
    Our mission is simple and non-partisan: preventing deaths and 
injuries to children and families from hazardous consumer products. I 
prefer to work cooperatively with companies, rather than using 
compulsory means, whenever possible. I favor market-oriented solutions 
to product safety problems. The paradigm for the CPSC is the product 
safety triangle, where business, consumers and government each have an 
equal role to play.

                       INFANT CAR SEATS/CARRIERS

    The CPSC and the National Highway Traffic Safety Administration 
(NHTSA) share jurisdiction over infant car seats, which often serve as 
a carrier for a child, when the seat is removed from the car. It is our 
responsibility to assure the safety of these products when they are 
taken from the car and used as an infant carrier. In the past two 
years, we have recalled more than 2.1 million defective car seats/
carriers from three different manufacturers. Typically, the defect 
involved the sudden release of the handle of the carrier, thereby 
allowing the child to pitch forward onto the ground. I am pleased to 
tell you that each of these recalls was carried out in a very 
cooperative manner with the NHTSA.

                           ELECTRIC BICYCLES

    Electric bicycle manufacturers are caught in a regulatory trap 
between the NHTSA and CPSC. While their products meet the strict 
definition of ``motor vehicle'' under Title 49 Section 30102(a), the 
manufacturers could not comply with the safety regulations that apply 
to such vehicles. Moreover, NHTSA has no desire to regulate these 
electric bicycles. CPSC is willing to undertake this responsibility, 
provided we can do it in an efficient manner.
    Accordingly, I support the intent of Congressman Rogan's bill, but 
our staff has several technical problems with the provisions of the 
bill as currently drafted. Last year CPSC and NHTSA staffs developed a 
bill that I believe is a better approach to resolving this 
jurisdictional matter. It is modeled on the bicycle helmet standard 
legislation that this Committee and the Congress enacted as part of the 
1994 amendments to the Consumer Product Safety Act.
    Mr. Chairman, I believe the best course here is for our staff to 
work with your staff and interested Members to draft legislation that 
the Committee could promptly approve. If this is acceptable to you, I 
am ready to move forward quickly.

                    CHILDREN'S SLEEPWEAR REGULATION

    On September 9, 1996, the Commission issued amendments to the 
standard for children's sleepwear excluding garments sized for infants 
nine months or younger, and tight fitting garments for young children 
above that age. 61 F.R. 47634. I dissented.
    Thereafter, certain Members and organizations began urging repeal 
of the amended rules and a return to the prior standard. They persuaded 
the conferees on our FY 1999 appropriation to include a provision 
requiring the CPSC to propose for public comment a revocation of the 
1996 amendments, and to promulgate a final rule on the sleepwear 
standard by July 1, 1999. On June 16, 1999, the Commission voted 2-1 to 
reaffirm the 1996 amendments. I again dissented. I ask unanimous 
consent that my statement of June 16, 1999, on this issue be included 
in the hearing record following my testimony.
    I believe that the original children's sleepwear standard was 
instrumental in reducing burn-related deaths and injuries related to 
flammable sleepwear. The standard was straightforward and simple. It 
provided a high level of protection for children by requiring fabrics 
used in children's sleepwear to self-extinguish when exposed to a small 
open flame. The regulation was working well. This longstanding standard 
is credited with saving many lives and preventing countless burn-
related injuries. As I have said repeatedly, my overriding concern is 
to keep our children safe. I have seen nothing that has caused me to 
change my position.
    I am also not convinced that parents will purchase the correct size 
of tight-fitting sleepwear so their children will not be at risk. There 
also is nothing in the record to demonstrate that the availability of 
this tight-fitting cotton alternative has reduced the use of looser 
cotton clothing such as cotton T-shirts, for sleepwear. Finally, our 
enforcement problems continue.
    Over the past several years, our staff has spent a great deal of 
time on this issue. Each Commissioner and their personal staffs have 
done the same. Our positions are rigidly held. We have heard from 
thousands of people on both sides of the issue. We have carefully 
considered all aspects of the issue. This heavy expenditure of 
resources has been appropriate, because this is a very important safety 
issue. However, this is not the only safety issue confronting the 
Commission.
    I believe it is now time to move on, lest, in our vigorous 
attention to this sleepwear question, we begin to spend less time on, 
and pull resources away from, other critical safety problems.
    For now, we turn the issue back to you. If the Congress repeals the 
current rules and directs us to return to the prior standard, we will 
carry out your direction faithfully.
    I ask unanimous consent to include in the record a copy of the July 
27, 1999, letter to all Appropriations Committee Members signed by all 
three Commissioners asking the Committee not to require further 
expenditure of resources on this subject.

                          AMUSEMENT PARK RIDES

    I would now like to turn to amusement park rides. The most tragic 
news the Commission receives is the death of a consumer, especially a 
child--particularly when that death could have been avoided.
    We all know roller coasters, and other amusement park rides, are 
fun, fast and thrilling. They are supposed to create the illusion of 
danger, without putting riders at risk.
    But the number of deaths tell a different story. In 1998, seven 
people died on these rides--the most in any single year in a decade.
    Until the 1981 amendments to our statute, CPSC had jurisdiction 
over both fixed site and mobile rides. Now we can obtain a corrective 
action from a manufacturer, distributor or ride operator only if a 
mobile ride presents a significant hazard. In fact, last year, CPSC and 
Reverchon Industries announced the recall of the Himalaya ride that 
caused two deaths and three injuries.
    Today we have no jurisdiction over fixed-site rides. As a result, 
the amount of consumer protection a rider receives depends on an 
irrelevant factor, whether it is a fixed site or mobile ride. 
Currently, 11 states have no inspection laws, 13 states have no laws 
requiring operators to report injuries, and the others have a patchwork 
of inconsistent regulations.
    I believe this is a situation that requires uniform regulatory 
oversight, so that all amusement park riders will receive equal 
protection no matter whether the ride is at a fixed or mobile site. 
Accordingly, I support Congressman Markey's bill, H.R. 3032.

                               CONCLUSION

    Mr. Chairman, this concludes my statement on the four subjects on 
our agenda today. As always, I am pleased to work with you and the 
Members of your Subcommittee. I am ready to answer any questions you 
may have.
                                 ______
                                 
                    STATEMENT OF CHAIRMAN ANN BROWN

 DECISION ON REVOCATION OF AMENDMENTS TO CHILDREN'S SLEEPWEAR STANDARD

                             June 16, 1999

    I regret that I must differ from my fellow Commissioners today in 
voting against the motion to withdraw the proposal to revoke the 1996 
amendments to the Children's sleepwear standard.
    I believe that the original children's sleepwear standard was 
instrumental in reducing burn-related deaths and injuries related to 
flammable sleepwear. The standard was straightforward and simple. It 
provided a high level of protection for children by requiring fabrics 
used in children's sleepwear to self-extinguish when exposed to a small 
open flame. The regulation was working well. This longstanding standard 
is credited with saving many lives and preventing countless burn-
related injuries.
    I voted against the 1996 amendments because I could not agree that 
the amendments would improve enforcement of the sleepwear standard or 
that 6-month-old infants were necessarily immobile. I also was 
skeptical of a promise by the sleepwear industry that it would 
implement an aggressive information and education program.
    As I have said time and time again, my overriding concern 
throughout this entire process is the mission of our agency to keep our 
children safe. I have seen nothing to date in the oral or written 
testimony that has changed my original position. A compelling case has 
not been made to me that infants who are capable of wearing age 9 
months sleepwear are not capable of moving to a dangerous ignition 
source.
    I am also not convinced that parents will purchase the correct size 
of tight-fitting sleepwear so their children will not be at risk. There 
also is nothing in the record to demonstrate that the availability of 
this tight-fitting cotton alternative has reduced the use of looser 
cotton clothing such as cotton T-shirts, for sleepwear. Finally, our 
enforcement problems continue.
    In addition, the industry has not fulfilled its promise to 
implement an effective information and education campaign. Although 
about three-fourths of the stores had hangtags, the GAO report 
evaluating the industry effort concluded that only 16 percent of stores 
visited displayed either consumer education brochures or signs about 
sleepwear safety requirements. And now, industry blames the Commission 
for its own spotty efforts.
    In 1996, I said that changing the old standard created an 
environment that may put our children at greater risk for burn-related 
injuries and death. Even though our data sources have not disclosed any 
specific burn cases directly tied to the 1996 standard, I cannot in 
good conscience support a sleepwear standard that I believe may provide 
less protection for the Nation's children.
    I abstained from voting on the staff proposal to require labeling 
of tight-fitting garments. While I have supported certain labeling 
requirements in the past, and will support them on a case-by-case basis 
in the future, I do not believe labeling is sufficient in this case. I 
believe that whenever possible, safety should be built into the 
product--that is, in this case, the garments themselves should 
inherently resist ignition, rather than relying on the purchasing 
decisions of parents. While I recognize that the proposed labeling 
provisions will improve the standard somewhat, they do not go far 
enough in my view.
    I wish to make one other point. Over the past several years, our 
staff has spent a great deal of time on this issue. Each Commissioner 
and their personal staffs have done the same. We have heard from 
thousands of people on both sides of the issue. We have carefully 
considered all aspects of the issue. This heavy expenditure of 
resources has been appropriate, because this is a very important safety 
issue. But this is not the only safety issue confronting the 
Commission.
    And I believe it is now time to move on, lest, in our vigorous 
attention to this sleepwear question, we begin to spend less time on, 
and pull resources away from, other critical safety problems. 
Therefore, while I have not agreed with my fellow Commissioners on this 
issue, the issue has been decided and we now need to turn our attention 
to other important safety issues.
                                 ______
                                 
            U.S. Consumer Product Safety Commission
                                           Washington, D.C.
                                                      July 27, 1999

The Honorable James T. Walsh
Chairman
Subcommittee on VA, HUD and Independent Agencies
U.S. House of Representatives
2351 Rayburn House Office Building
Washington, DC 20515
    Dear Mr. Chairman: As you may know, on June 28, 1999, the U.S. 
Consumer Product Safety Commission (CPSC) voted 2-1 to uphold the 1996 
amendments to the children's sleepwear standards. Commissioners Moore 
and Gall voted to maintain the 1996 amendments and Chairman Brown voted 
to reinstate the original standard. Despite our continuing difference 
of opinion on the merits of the changes to the sleepwear standards, we 
are writing to you to express our unanimous opposition to any 
amendments to CPSC's appropriations legislation on children's 
sleepwear.
    CPSC has already considered the sleepwear issue twice, spending 
approximately 7 years altogether on the issue. During the recent 
reconsideration of the amendments, mandated by our 1999 appropriations 
legislation, the General Accounting office (GAO), completed two studies 
on the effect and implementation of the amendments. After carefully 
considering the GAO studies, additional technical data compiled by CPSC 
staff, and extensive comments from a public hearing where all views 
were heard, the Commission's 2-1 vote in favor of the amendments did 
not change.
    Given this thorough review, we do not believe that requiring the 
Commission to spend more time on this issue will lead to a different 
decision by the Commission. If the Commission has to allocate any of 
its limited resources on yet another study of children's sleepwear, the 
agency will have less time and money to investigate critical safety 
issues that threaten American children and families.
    If you or your staff have any questions about this, please call Bob 
Wager, Office of Congressional Relations; at 301-504-0515. Thank you 
for your consideration.
            Sincerely,
                                                  Ann Brown
                                                           Chairman
                                           Mary Sheila Gall
                                                      Vice Chairman
                                            Thomas H. Moore
                                                       Commissioner
cc: Appropriations Committee Members

    Mr. Tauzin. Thank you Madam Chair.
    The Chair is now pleased to welcome the Honorable Mary 
Sheila Gall, the vice chairman of the Consumer Product Safety 
Commission. Ms. Gall.

               STATEMENT OF HON. MARY SHEILA GALL

    Ms. Gall. Good morning and thank you for the opportunity to 
be here today. I have a statement for the record, but I will 
spare all of us the reading of it.
    Mr. Tauzin. Without objection, if it has not been done yet, 
written statements are automatically a part of our record.
    Ms. Gall. There are a number of issues that relate to the 
Consumer Product Safety Commission, and I will touch upon those 
just briefly. We have Representative Markey's fixed-site 
amusement rides proposal, which would give CPSC jurisdiction 
over fixed-site amusement rides. The commission has not taken a 
formal position on this legislation as of this date. There are 
a number of issues that I think we need to address as we look 
at this legislation from the aspect of Congress as well as the 
commission.
    We have seen in the last year or so, as Chairman Brown has 
noted, that there has been an increase in injuries and deaths 
in fixed-site amusement park rides. We don't have the exposure 
data, however, that will tell us whether or not the increase is 
due to more people attending amusement parks, and increasing 
the number of rides that they go on, or if this is an increase 
in the hazard of the ride itself. So I think that is something 
we need to take a look at.
    The second thing is that we have a number of other factors 
to study. First of all, we know that we have State regulation 
in many of the States. We know some States do not have fixed 
rides. And so obviously they won't have State regulation. I 
think we really need to take a stronger look at that. We know 
some legislation or regulation exist, but we need to look at 
that further. We know there are some voluntary standards 
through ASTM. We also know that ASTM is looking at the issue 
over G forces, not only the number of G forces, the increase of 
the force, but also at the extent of time that an individual is 
exposed to that G force. So that is being looked at by the 
voluntary standards community. We also know that there are 
tough insurance requirements for these fixed-ride parks. And so 
we need to look at that further and see what the implications 
are for safety as far as that is concerned.
    I will say this: much as we all like to think that the 
Federal jurisdiction over an issue gives us a magic bullet to 
address safety, that isn't always the case. Certainly at CPSC 
we acknowledge that despite our jurisdiction we do have 22,000 
deaths per year associated with products that come under our 
jurisdiction; and NHTSA, of course, has 40,000 deaths a year 
associated with motor vehicles despite their best efforts. So 
it is not necessarily a magic bullet.
    The resources issue is something I think we need to 
address. The bill that we have before us would give the agency 
$500,000; and I think that is clearly inadequate. If we are 
going to take on this task, we will need more money to do so. 
These are very complex rides and would require travel money and 
so on.
    Moving on to electric bikes with Representative Rogan's 
legislation, I think that bringing electric bikes to the 
commission is a natural progression and that we already have 
regulations for bicycles. I note that the Chairman mentioned 
that she would like to work with the committee to develop a 
proposal. And I know that CPSC staff has submitted a proposal. 
I am very much opposed to the CPSC staff proposal. It's not a 
simple clear cut bill giving us jurisdiction the way 
Congressman Rogan's bill is. It really takes a dramatic 
departure and bypasses from the normal rulemaking process, and 
I disagree with that strongly.
    As far as sleepwear is concerned, I know that this is a 
very controversial issue. The hazard that the sleepwear 
amendments were designed to address is single-point small open 
flame ignition such as matches or cigarette lighters. It is not 
meant to address whole-house fires because there is very little 
we can do for someone in a whole-house fire. The flame-
resistant clothing is really the last line of defense. We have 
to count on parents and caregivers to make sure that ignition 
sources are kept away from children as well. And the agency has 
been very active in designing and regulating child-resistant 
cigarette lighters and multipurpose lighters toward that goal 
of increased safety.
    I voted for the amendments that were made in 1996. They 
provided for a tight fitting cotton alternative to flame-
resistant sleepwear. It does exempt garments for infants sized 
under 9 months. There is a great deal of confusion that we face 
all the time. These are children who are 6 months or under, who 
are very unlikely to come into contact with cigarette lighters 
or matches. When we look at the market factors, we realize that 
there is a very clear desire for consumers to put their 
children in cotton fabrics; and so what we did was provide a 
safe alternative. You are given the experience we have. Given 
the data we looked at and the studies we undertook, we have 
done a good job in providing that safe alternative.
    The Chairman did mention the Consumer Product Safety 
Commission Enhanced Enforcement Act of 2000 that was announced 
at the White House last week. Although I realize that is not a 
matter before the committee today, I would just briefly like to 
say that I disagree with the provisions of that bill, with one 
exception, and I would be happy to comment on that if the 
opportunity arises and anyone would like to follow up. So I 
thank you very much for your time.
    [The prepared statement of Hon. Mary Sheila Gall follows:]

  Prepared Statement of Hon. Mary Sheila Gall, Commissioner, Consumer 
                       Product Safety Commission

    I appreciate the opportunity to appear today before the 
Subcommittee to address three topics: (1) flammability requirements of 
children's sleepwear; (2) the potential exercise of jurisdiction by the 
Commission over fixed-site amusement parks; and (3) the potential 
exercise of jurisdiction by the Commission over bicycles equipped with 
small electric motors. The hearing today also considers standards for 
child restraints in motor vehicles, products regulated not by the 
Commission, but by the National Highway Transportation Safety 
Administration (NHTSA). I would also like to take this opportunity to 
state my position on draft legislation, sponsored by Senator Hollings 
and Congressman Markey, which was the subject of a press event in the 
White House last Friday, and which amends the enforcement sections of 
some of the statutes administered by the Commission. I realize that 
this legislation is not the explicit subject of today's hearing, but it 
will be referred to this Committee and Subcommittee for consideration.

           FLAMMABILITY REQUIREMENTS OF CHILDREN'S SLEEPWEAR

Background
    Flammability requirements for children's sleepwear are governed by 
regulations promulgated under the authority of the Flammable Fabrics 
Act. The Commission amended the regulations in 1996 to require that 
sleepwear for children be either tight fitting or constructed of flame-
resistant fabric that passes a burn-rate test in which a small open 
flame is applied for three seconds. Sleepwear for infants sized under 
nine months is exempted from the standard. (Such sleepwear is typically 
worn by infants aged six months and younger.) Before the amendments, 
all children's sleepwear had to be constructed of fabric that passed a 
burn-rate test that exceeded the general wearing apparel flammability 
standard.
    The Commission based its 1996 amendments to the regulations on an 
extensive record that documented that the hazard associated with 
single-point, small open-flame ignition of tight-fitting cotton 
sleepwear was very low. Tight-fitting cotton sleepwear is less likely 
to be ignited in the first place, and, if ignited, it burns slowly, 
since its proximity to the skin retards the flow of air that feeds the 
fire and the skin acts as a ``heat sink'' to slow the spread of flame. 
Infants wearing sleepwear sized nine months or smaller lack the ability 
to move to ignition sources.
    When it acted, the Commission had the benefit of observing the 
results of a stay of enforcement, in effect for nearly four years, that 
permitted the sale of tight-fitting children's sleepwear without an 
increase in burn injuries resulting from single-point ignition. The 
Commission also observed a Canadian study that proved unable to find 
incidents of injuries as a result of single-point ignition of tight-
fitting cotton sleepwear. Both the stay of enforcement and the Canadian 
standard permitted the sale of sleepwear that had a looser fit than the 
requirements of the present regulations. The Commission's record at the 
time that it acted was well developed and proved that there was no 
unreasonable risk of injury associated with single-point, small open-
flame ignition of tight-fitting cotton sleepwear. There was no 
challenge to the Commission's decision in court and I have seen no 
evidence since the time of the decision to indicate that burn injuries 
associated with single-point ignition of tight-fitting children's 
cotton sleepwear have increased or represent a significant problem. The 
opponents of the regulatory changes have, however, sought to overturn 
them through legislation that falls within the jurisdiction of this 
Subcommittee.

Reflections on Preventing Fire Injuries
    Many of the issues with which I have dealt during my almost nine 
years of service as a Commissioner have concerned fire: smoke 
detectors, child-resistant cigarette lighters and multi-purpose 
lighters, upholstered furniture flammability, and wearing apparel 
flammability. I believe, therefore, that my observations and 
reflections on how best to prevent fire injuries, particularly those 
involving clothing ignition, will be helpful to the Subcommittee as it 
considers whether to repeal the changes that the Commission made to the 
regulations on children's sleepwear. My most important point is that 
clothing flammability resistance represents a last line of defense. 
Preventing fire deaths and injuries begins with adequate parental and 
other caregiver supervision that keeps ignition materials such as 
matches and cigarette lighters out of the hands of children, and which 
keeps children away from other ignition sources such as ranges and 
fireplaces. A second line of defense involves making certain ignition 
sources child-resistant. During my service with the Commission it has 
adopted regulations that require that cigarette lighters and multi-
purpose lighters be made child-resistant, and I anticipate that these 
requirements will result in reduced numbers of deaths and injuries from 
childplay with fire. Finally, flammability resistance of clothing may 
reduce the severity of injuries where ignition does occur. But no 
children's sleepwear is flameproof, just as no lighter is childproof. 
Adult caregivers have the primary responsibility to assure that 
children do not have access to ignition sources that can lead to fires.

Proposed Legislative Changes to Sleepwear Standards
    The Commission has been the subject of criticism for adopting the 
amendments, and was required by the fiscal year 1999 Appropriations 
Conference Report to reevaluate the advisability of the amendments. The 
Commission did propose the repeal of the amendments, requested public 
comments, held a public hearing and gathered data, decided that there 
was no justification for changing the regulations and sent a letter to 
the Appropriations Committee stating that conclusion. The Commission 
retained the amendments, but modified them to require labels and 
hangtags for tight-fitting garments. Data suggested that the public 
might not be aware that tight-fitting garments are not flame-resistant 
and must be worn with a tight fit. This labeling requirement goes into 
effect June 28, 2000. The Commission is working with the American 
Apparel Manufacturers Association to develop a national information and 
education campaign to inform the public about safe sleepwear and why 
non-flame resistant garments must be tight fitting.
    There have been a number of attempts to repeal the amendments 
legislatively and to reinstitute requirements that all children's 
sleepwear pass a test that requires that they pass a burn-rate test 
consisting of the application of a small, open flame for three seconds. 
Opponents of the Commission's regulatory changes are, of course, free 
to use the political process. I urge lawmakers, however, in evaluating 
the case made by proponents of repeal, to ask the question that I have 
been asking since I started considering these changes. Where are the 
incidents, or the studies, that demonstrate that single-point ignition 
of tight-fitting cotton sleepwear, or sleepwear used by children sized 
nine months and under, is an unreasonable hazard?
    When the Commission made its decision in 1996 it had before it an 
extensive record demonstrating very few injuries associated with 
single-point ignition of tight-fitting children's sleepwear, or any 
sleepwear at all for children sized under nine months. Proponents of 
legislative repeal of the amendments frequently cite numbers of burn 
injuries suffered by children who happen to be in sleepwear at the time 
of the injury. But the flame-resistance standard was never intended to 
protect children from burn injuries from large-open flames. Clothing 
would have to be made of highly flame-resistant fabrics, such as that 
worn by auto racing drivers or military pilots, to protect its wearer 
from burns in general conflagrations. And even highly flame-resistant 
fabrics will do nothing to protect children from inhaling smoke and 
toxic gases.
    There have been other criticisms of the data gathering and analysis 
that the Commission staff performed in developing the record that 
supported the regulatory changes. These criticisms have been 
considered, analyzed and responded to by the staff. I urge the Members 
of the Subcommittee to read the staff response carefully to evaluate 
the techniques of the data collection and analysis that supported the 
regulatory change. I believe that you will find that the means used to 
collect and analyze the data was reasonable.
    Other factors that Congress must consider in deciding whether to 
repeal or to modify the Commission's sleepwear regulation are consumer 
preference for natural fabrics without chemical treatments, and the 
difficulty in defining sleepwear. Garments that meet the children's 
sleepwear flammability standard have been available since the 1970's. 
These garments have not, however, proved popular, since many consumers 
do not want chemically treated cotton, and polyester does not 
``breathe'' in the same way that cotton does. Consumers who wish to 
dress their children in natural fabrics may, therefore, purchase items 
intended for use as daywear or playwear and use them as sleepwear. The 
Commission is powerless to alter this behavior without becoming some 
sort of federal ``pajama police.''
    There have been some changes in the patterns of consumer behavior 
since the time that the Commission began considering the issue of 
amendments to the sleepwear standard. When the Commission began the 
process of considering amendments to the standard, one to two percent 
of all sleepwear sales were flame-resistant cotton. By 1996, when the 
amendments were issued, twenty-five percent of the sleepwear industry 
was cotton (a combination of flame-resistant cotton and cotton garments 
whose sale was permitted by the stay of enforcement). As of May 2000, 
thirty to thirty-five percent of the sleepwear market is cotton, 
overwhelmingly the tight-fitting cotton sleepwear that the amended 
sleepwear standard permits.
    The Commission can, and does, pursue manufacturers and retailers 
who market loose-fitting clothing made from non-flame-resistant fabric 
as children's sleepwear. Determining whether a garment is being 
marketed as children's sleepwear is often difficult. It depends on such 
factors as the ornamentation, the position in the store occupied by the 
garment (e.g., is it in or near the sleepwear section, the underwear 
section or the playwear section), and the responses of sales persons 
when asked about the function of a particular garment. Finally, 
manufacturers and retailers have proved enormously creative in labeling 
garments as daywear, playwear, beachwear, and loungewear, all of which 
may have characteristics of sleepwear. The Commission's Compliance 
staff must deal with these distinctions on a daily basis. New labeling 
requirements will become effective at the end of next month that should 
help alleviate the confusion for consumers, industry and our own 
compliance staff.
    In summary, therefore, the present children's sleepwear standards 
represent a reasonable regulatory response that provides adequate 
safety from single-point, small open-flame ignition while at the same 
time accommodating consumer preference for natural fibers and fabrics 
without chemical treatment. The standards have been the product of 
extensive data collection and analysis, careful consideration, and full 
and free debate. Congress should not overturn it without equally 
careful consideration.

Fixed-Site Amusement Parks
    H.R. 3032 would extend the Commission's jurisdiction to fixed-site 
amusement rides. The decision to exclude the Commission from regulating 
fixed-site amusement park rides was Congress's in the first place and 
Congress is free, of course, to change that decision. In July 1999 the 
Commission staff prepared a report on amusement ride-related injuries 
and deaths in the U.S. That report showed that the number of non-
occupational injuries occurring on fixed-site amusement rides had 
increased between 1994 and 1998. Additional data collection, 
specifically including an exposure survey, will be necessary in order 
to determine whether the risk has actually increased to a point that 
merits federal intervention.
    In considering whether federal regulation is appropriate, I urge 
Congress to consider the existence of state regulation, the adequacy of 
voluntary standards recognized by the industry, the extent of 
compliance with the voluntary standards and the role of insurance 
companies in requiring safe operation of rides. I do note that federal 
regulation does not, in and of itself, ensure safety. The Commission 
estimates that there are over twenty-two thousand deaths and twenty-
nine million injuries every year associated with products within CPSC's 
existing jurisdiction. I note that there are approximately forty 
thousand deaths each year involving motor vehicles under the 
jurisdiction of the NHTSA, the agency with which we share the table 
today.
    Finally, I must raise the issue of resources. The Commission staff 
is already stretched thin to meet its existing regulatory tasks, and 
there is no ``slack'' out of which additional regulatory tasks can be 
paid. Adding the technically complex fixed-site amusement rides to the 
Commission's jurisdiction would require additional funding, including 
travel, if regulation is to be effective. I believe that the $500,000 
figure set forth in Section 3 of H.R. 3032 would not be adequate to 
undertake regulation of fixed-site amusement rides. I prefer to wait 
until the Commission staff has an opportunity to conduct some type of 
survey and assessment of the fixed-site amusement ride industry before 
estimating how much would be necessary for adequate federal regulation.

                           ELECTRIC BICYCLES
 
   H.R. 2592 proposes to extend Commission jurisdiction to bicycles 
with small auxiliary electric motors. The Commission already has 
extensive regulations concerning bicycles promulgated under the 
authority of the Federal Hazardous Substances Act, and H.R. 2592 
subjects these electric bicycles to the existing regulations. To the 
extent that these electric bicycles resemble bicycles in general, I am 
sure that they will be safer if they comply with the regulations and I 
support H.R. 2592.
    If electric bicycles are placed under the jurisdiction of the 
Commission, I recommend that any regulations promulgated by the 
Commission be subject to the three-stage rulemaking procedures and the 
deferral to voluntary standards required by the Consumer Product Safety 
Act (CPSA) and the Federal Hazardous Substances Act (FHSA). H.R. 2592 
does this, but I have seen a draft of a bill developed by Commission 
staff that exempts rulemaking for these bicycles from the requirements 
of any statute and executive order save the notice and comment 
requirements of the Administrative Procedures Act. I do not support 
such a bill. Three-stage rulemaking helps ensure that additional 
mandatory regulations are given wide exposure to the regulated 
community, so that the Commission will have the benefit of comments 
about the nature and desirability of mandatory standards. Deferral to 
voluntary standards in appropriate circumstances has been a feature of 
the CPSA and FHSA since the creation of the Commission, and the 
desirable aspects of such deferral are just as relevant to this type of 
bicycle as to any other product regulated by the Committee under these 
statutes. The bicycle regulations to which these vehicles will be 
subjected were themselves products of three-stage rulemaking and the 
possibility of deferral to voluntary standards. I do not support 
exemptions from three-stage rulemaking or deferral to voluntary 
standards, except in cases where Congress itself specifies a mandatory 
rule and asks only that the Commission issue implementing regulations.

Child Safety Seats
    I have examined H.R. 4145, which pertains to the standards for 
child safety seats. The Commission does not regulate child safety seats 
for use in automobiles, although it does regulate child safety seats 
that double as infant carriers. I find nothing in H.R. 4145 that would 
affect the Commission's ability to regulate such infant carriers, and I 
have no further comments on H.R. 4145.

                        ENFORCEMENT LEGISLATION

    Last Friday First Lady Hillary Clinton, Chairman Ann Brown, Senator 
Ernest Hollings and Congressman Ed Markey announced the introduction of 
the ``Consumer Product Safety Commission Enhanced Enforcement Act of 
2000, which amends some of the enforcement powers of the Commission. I 
would like to address the desirability of those legislative proposals.

Restricting Election of Remedy
    Section 2 of the proposed legislation modifies the election of 
remedy between ``repair, replace or refund'' that manufacturers, 
distributors and retailers have under Section 15 of the CPSA and 
Section 15 of the FHSA. Present law enables the Commission to order a 
manufacturer, distributor, or retailer to repair, replace, or refund 
the purchase price of the defective item, at the election of the 
manufacturer, distributor or retailer. The change would enable the 
Commission to reject the election made by the manufacturer, distributor 
or retailer if the Commission found that the election was not in the 
public interest. I do not support this change, since it would enable 
the Commission to virtually dictate the terms of any remedy, even if it 
made no economic sense. It could, for example, order the repair of 
products with virtually no economic value, or require refunds for 
products that could be economically repaired.
    Under present law the Commission is not helpless if a repair, 
replace or refund program is not protecting the public. The 
Commission's order may require the person to whom it applies to submit 
a plan, satisfactory to the Commission, for carrying out the order. If 
the Commission concludes that the remedy elected and carried out by the 
manufacturer, distributor or retailer has not eliminated or adequately 
reduced the risk from the defective product, the Commission may reopen 
the case. The present system strikes an adequate balance between 
product safety and economic rationality and I do not support a change.

Eliminating Civil Penalty Limits
    Section 3 of the draft legislation eliminates any limits on civil 
penalties for violations of the Consumer Product Safety Act or the 
Federal Hazardous Substances Act. Eliminating limits would obviously 
increase the stakes of any failure to report. At the same time, there 
has been no civil penalty during my over eight years of service as a 
Commissioner that came close to the present limit of 1.6 million 
dollars. Staff has developed a list of civil penalties assessed in the 
last five years for failures to report and I am attaching this list to 
my statement. You can see from this list that most civil penalties are 
between one hundred thousand and two hundred fifty thousand dollars. It 
is, therefore, difficult for me to see how eliminating the civil 
penalty limitation would materially improve our enforcement ability. It 
is the certainty of a penalty, rather than its theoretical upper limit 
that serves as a better deterrent to failures to report product 
hazards.

Criminal Violations
    Section 4 of the draft legislation amends the Consumer Product 
Safety Act to create two tiers of criminal violations. A ``knowing'' 
violation of CPSA Section 19 is a misdemeanor. Under present law, a 
violation must be both knowing and willful to be even a misdemeanor. 
Section of 4 of the draft legislation further amends the CPSA to make a 
knowing and willful violation of Section 19 a felony. The legislation 
eliminates the present requirement that a company be warned that it is 
not in compliance with the CPSA, and be given an opportunity to correct 
the noncompliance, prior to a criminal violation of the CPSA. The same 
section of the draft legislation makes willful violations of the FHSA a 
felony.
    I do not oppose making criminal violations of the CPSA and FHSA 
felonies, but I firmly oppose removing the requirement that companies 
be warned that they are in violation of the CPSA, and being given an 
opportunity to correct the violation, before being prosecuted for 
criminal violations of the CPSA. While the Commission does deal with 
many large companies that have staff and counsel who are aware of the 
Commission and its activities, the Commission also encounters many 
small companies who have no idea that the Commission even exists and 
that there are regulations or standards concerning the products that 
they make. These companies should not be subject to criminal 
prosecution for violation of the CPSA without receiving at least a 
notice that they are in violation and an opportunity to correct the 
violation.

                               CONCLUSION

    I appreciate the opportunity to appear today and to share my views 
with the Members of the Subcommittee. A dialogue between Congress and 
regulatory agencies is highly desirable and hearings are a useful 
aspect of that dialogue. I will do my best to answer any questions that 
the Members of the Subcommittee may have.

    Mr. Tauzin. I thank the gentlelady.
    Speaking of hazardous rides now, Mr. Moore, you survived 
your tour of duty with Lousiana Senator John Breaux. Some sort 
of recognition for that. We want to welcome you, the 
commissioner of the Consumer Product Safety Commission. Mr. 
Moore.

                STATEMENT OF HON. THOMAS H. MOORE

    Mr. Moore. He was one of your buddies. Thank you, Mr. 
Chairman. And I will briefly summarize my statement. The 
Commission has taken no position on the bill that would give 
CPSC jurisdiction over fixed-site amusement park rides. We have 
a lot of work to do in that area. While I have no view at this 
time on the substance of Congressman Markey's bill, I do 
believe it would take much greater resources than the $500,000 
which the bill provides if this agency is to undertake this 
responsibility. Many fixed-site rides are extremely complicated 
combinations of computer technology and sophisticated 
engineering. We would very likely have to seek outside 
contractors with special expertise to evaluate these rides for 
potential defects. So we are going to need much more than 
$500,000, I repeat.
    Now, I have no objections to the intent of Congressman 
Rogan's bill. The Commission will need to review it in more 
detail to make sure the final bill accomplishes its objectives 
in the most effective manner. The children's sleepwear issue 
has been before the Commission since I became a Commissioner in 
1995. The Commission had a three-step rulemaking proceeding 
from 1993 to 1996. And then it reexamined the issue at 
Congress's request during 1998-1999. I have seen nothing, I 
have seen nothing--and I have two children myself--I have seen 
nothing that would lead me to believe the commission made the 
wrong decision to allow a limited cotton alternative in 
children's sleepwear. There is no data showing the tight 
fitting cotton creates an unreasonable risk of a fire which 
would lead to death or injury.
    The incidents which led to the creation of the children's 
sleepwear standard involved looser--and I repeat looser--
fitting garments, typically nightgowns and robes. And those 
types of garments must still meet the flammability test.
    So in essence, Mr. Chairman, that is my statement at this 
point. And I appreciate the opportunity and would be more than 
happy to respond to any questions that anyone might have. Thank 
you.
    [The prepared statement of Hon. Thomas H. Moore follows:]

  Prepared Statement of Hon. Thomas H. Moore, Commissioner, Consumer 
                       Product Safety Commission

    Mr. Chairman and Members of the Subcommittee, I thank you for this 
opportunity to address several issues of interest to the American 
consumer.
    The Commission has taken no position on the bill that would give 
CPSC jurisdiction over fixed-site amusement park rides. While I have no 
view at this time on the substance of Congressman Markey's bill, I do 
believe it would take much greater resources than the $500,000 which 
the bill provides, for our agency to undertake this task. Many fixed-
site rides are extremely complicated combinations of computer 
technology and sophisticated engineering. We would very likely have to 
seek outside contractors with special expertise to evaluate these rides 
for potential defects. The public should also be aware that the agency 
would not be able to do more in this area than it does with mobile 
rides, which is primarily look for defects and seek some redress, after 
an accident has happened. A federal inspection program that would look 
for problems before they happened would be very expensive. According to 
an article in U.S.A. Today, the State of Florida alone spends $1.2 
million on its State inspectors and they do not inspect the bigger 
theme park rides.
    I have no objection to the intent of Congressman Rogan's bill, 
although I am curious about the choice of a 170 pound rider in the 
definition of what constitutes a ``low-speed electric bicycle.'' The 
Commission will need to review the proposal in more detail, along with 
certain changes our staff has proposed (some of which I think need some 
revision) to make sure the final bill accomplishes its objectives in 
the most effective manner.
    The children's sleepwear issue has been before the Commission twice 
since I became a Commissioner in 1995. The Commission had a three-step 
rulemaking proceeding from 1993 to 1996 and then it reexamined the 
issue at Congress's request during 1998-99. I have seen nothing that 
would lead me to believe the Commission made the wrong decision to 
allow a limited cotton alternative in children's sleepwear. There is no 
data showing that tight-fitting cotton creates an unreasonable risk of 
a fire which would lead to death or injury. The incidents which led to 
the creation of the Children's Sleepwear Standards involved looser 
fitting garments (typically nightgowns and robes) and those garments 
must still meet the flammability test.
    I understand the heart-felt motives that have caused some people to 
try to overturn the Commission's decision. However, the U.S. Consumer 
Product Safety Commission would not, and has not, made changes to the 
Sleepwear Standards that put children at an unreasonable risk.

    Mr. Tauzin. Thank you, Mr. Moore.
    The Chair will recognize himself and other members in order 
for 5 minutes.
    Let me first turn to the question of the children's 
sleepwear issue. Ms. Gall and Ms. Brown, obviously you have 
different opinions on it. My understanding is that since 1996, 
Congress has asked the CPSC to review this issue and that you 
have twice done so and twice sustained the exemption. My 
understanding also has a lot to do with the problem, at least I 
would like you to comment on it, that consumers, mothers wanted 
to have cotton on their children. That they were buying loosely 
fitting T-shirts instead and that those posed a greater danger 
than the tight fitting cotton standard that you permitted.
    Mr. Moore, also I would like you to comment too, sir. Were 
you in agreement to educate and advise consumers with any 
labeling and some educational effort to make consumers aware of 
this exemption and why it is in place? Could any one of the 
three of you comment. Mr. Moore.
    Mr. Moore. In terms of the information education campaign, 
that industry is to undertake, industry was immediately ready 
to move forward in that particular area. We, however, have re-
examined the problem to make sure of its safety, and we made 
some design changes that have taken some time. And over that 
time period, industry has been waiting to go forward with this 
campaign.
    Mr. Tauzin. But it is the construction of the tight fitting 
garments.
    Mr. Moore. Precisely. The construction of the garment 
itself. I think this is an example of the tight fitting 
garment, as you see. And I might say that that has not been on 
the market very long, but already it is somewhere between 30 
and 35 percent of the market.
    Mr. Tauzin. Am I correct that the concern that drove the 
commission to this exemption is that parents were choosing 
loose fitting T-shirts as opposed to tight fitting garments?
    Mr. Moore. Loose fitting cotton garments which are very 
very susceptible to small open flames. Now, keep in mind--and 
this is very important--we are not talking about a house fire. 
We are talking about the initiation of a small open flame.
    Mr. Tauzin. A cigarette lighter or a candle.
    Mr. Moore. That is right. That is what we are talking 
about. We are talking about that it must meet a standard 
wherein it goes out in a matter of seconds if it has contact 
with one of these small open flames.
    Mr. Tauzin. So the commission at least twice now already 
and continues to take the view that moving with standards on 
the construction of these tight fitting cotton garments and an 
educational campaign to go along with it yields a better safety 
result than not having the exemption and parents choosing loose 
fitting cotton garments that are not regulated by the 
commission.
    Mr. Moore. That is right.
    Mr. Tauzin. Is that the essence of the argument?
    Mr. Moore. That is the essence of the argument.
    Mr. Tauzin. Madam Chair, you disagree with that. Would you 
give us your point of disagreement.
    Ms. Brown. I thought, and continue to think, Mr. Chairman, 
that the regulation was working very well as it was. And I am a 
proponent of ``if it ain't broke, don't fix it.'' And I just 
wanted to say that one of the primary reasons that the staff 
brought these changes up to the Commission was that they felt 
that they had a lot of problems with enforcement. And 
unfortunately those problems with enforcement do still exist. I 
will say, however, Mr. Chairman, that there is going to be no 
movement on this at the Commission. The data has been examined. 
I do think that it is time to move on from this so we can 
address other very serious safety problems.
    Mr. Tauzin. Quickly, because I have a limited time. Ms. 
Gall.
    Ms. Gall. If I may just add, the reason we selected the 
tight-fitting cotton alternative was because of market data 
that showed us that parents are looking to loose fitting cotton 
sleepwear for children and adult T-shirts. People were putting 
children in adult T-shirts. We wanted to provide a safety 
cotton alternative. The tight fitting reduces the likelihood of 
ignition. There is a lack of air to feed the fire and so on. We 
look at overseas data; we looked at Canadian data. They had a 
similar, although less stringent, standard and they have not 
had a series of injuries or deaths with their proposal, as we 
have not since this went into effect.
    Mr. Tauzin. We have a difference of opinion on the Rogan 
bill as well on electric bicycles that I want to air real 
quickly. Madam Chair, you recommend a proposal that would 
exempt the commission from a whole series of normal regular 
procedures such as the Consumer Products Safety Act, the 
Federal Hazardous Substance Act, chapter 6 of the U.S. code of 
Environmental Policy Act and Small Business Regulatory 
Enforcement Fairness Act.
    Why is it that you disagree with the other commissioners 
and Mr. Rogan, who believe that if you assume jurisdiction over 
electric bikes that are you to follow the procedures and adhere 
to all these acts? Why do you want to exempt all these acts?
    Ms. Brown. Let me have Michael Solender, our general 
counsel, explain this to you.
    Mr. Solender. We have an existing standard for bicycles 
now. Congress would be asking us to take over jurisdiction of 
electric bicycles. Now to the extent that they are the same 
product, the rule would apply. To the extent that these are 
different--and I know note that they have engines in them so 
they will have to be different--we will have to be doing some 
additional modification changes supplementation of the rule. If 
Congress wants us to pursue this and make this a safe--regulate 
the safety in the way we have done with bicycles, it will be 
necessary in order to do that to be able to do it efficiently 
and effectively. Our current statute will require us to make a 
series of findings that it would probably, would be unable to 
make or be very difficult, doubtful we could do them in order 
to do the regulation we need.
    Mr. Tauzin. My time is up, but my understanding is if the 
other commissioners have a different view or a----
    Ms. Gall. I do.
    Mr. Tauzin. Mr. Moore, do you have a different view as 
well? If you assume jurisdiction over electric bicycles, do you 
think you ought to exempt the commission from all of these laws 
that the chairwoman would like you to exempt the commission 
from?
    Mr. Moore. At this point I have not taken a position to 
that extent. No.
    Mr. Tauzin. All right. Ms. Gall you have.
    Ms. Gall. I disagree because I do not think that we should 
remove three-stage rulemaking from CPSA and FHSA, and that 
would include deferral to voluntary standards. The Congress has 
given us a clear direction over the history of our agency that 
we are to look to voluntary standards first. Then, of course, 
there is getting rid of the Small Business Regulatory 
Enforcement Fairness Act. It seems to me that that should be 
retained and there are a number of other issues as well.
    Mr. Tauzin. We will debate that. My time is up. Before I 
yield to Mr. Markey, I do want to explain that I do have some 
questions that if they are not asked by other members on the 
issue of the amusement rides, I would like to get into that 
with you and Ms. Millman. On the question of testing of the 
child seat, the staff has raised some questions that I would 
like answered regarding how the testing proceeds and whether or 
not a star rating system might not help consumers understand 
which are the better systems. But we will get into that, I 
think, as we move along. The Chair will yield 5 minutes to the 
ranking minority member, Mr. Markey, for a round of questions.
    Mr. Markey. Thank you, Mr. Chairman. Chairman Brown, you 
and your fellow commissioners are appropriately concerned about 
the level of funding that would be made available for you to be 
able to discharge your responsibilities under my legislation 
for you to be able to regulate, monitor the roller coaster 
industry in the United States. Let's put aside just for a 
second the question of how much money it might take for you to 
discharge those responsibilities. Up until 1981, the Consumer 
Product Safety Commission had jurisdiction over the roller 
coaster industry. Do you think it was inappropriate for the 
CPSC to have jurisdiction over the roller coaster industry up 
to 1981?
    Ms. Brown. I think Congress in its wisdom gave us 
jurisdiction over it, and I think it was entirely appropriate.
    Mr. Markey. Do you think it would be appropriate for you to 
regain authority over the roller coaster industry?
    Ms. Brown. I think it would be appropriate, particularly 
considering the lives and injuries and deaths and the patchwork 
of Federal and State regulation. I think Congress was right 
originally to give it to us, and I hope it can be restored.
    Mr. Markey. Let me ask the other two commissioners the same 
question. Either of you may respond.
    Ms. Gall. I would just say this----
    Mr. Markey. Was it appropriate for the commission to have 
jurisdiction up to 1981?
    Ms. Gall. Well, apparently the Congress thought so. I was 
not at the commission at that time so I am not aware of all the 
history that was involved at that time. However, I will say 
this, if we are tasked with this, I think before we even make a 
decision like that there are a number of factors we do have to 
look at. We have to look at whether or not the increase in the 
incidence of injuries and deaths in the past year or 2 is a 
result of increased attendance, increased use of the rides at 
the park, or if it is an increase in the hazard of the rides 
because they are different kinds or whatever. I don't know that 
we have the exposure data at this point--I believe we do not--
to make any sound decision about that right now.
    Mr. Markey. You won't be able to get that exposure data 
until you get jurisdiction over the subject material.
    Ms. Gall. Well, to move on to my other point, I think we 
also have to take a look at what the State regulations provide, 
what ASTM is looking at now and what they provide through 
voluntary standards and what the insurance company requirements 
are for these particular rides. I am not saying this is a good 
idea or a bad idea. I am saying we have work to do before we--
all of us have work to do----
    Mr. Markey. So you are saying, Commissioner, that despite 
the huge increase in the number of deaths and injuries on 
fixed-site roller coasters across the country, despite your own 
knowledge that we have moved from the model-T era of roller 
coasters that used to go 50 miles an hour when most of us in 
this room were children to an era now where they are going 70, 
80, 90, 100 miles an hour and you have reservations in your 
mind that the Consumer Product Safety Commission should have 
jurisdiction, ensuring that there is some national 
communication of this information so that an accident in one 
State would not in fact injure a child in another State with 
the very same flaw, the very same defect in the roller coaster. 
But because of the lack of jurisdiction which you have that 
information would never be shared, you don't think you should 
have that jurisdiction. You have reservations about that?
    Ms. Gall. Congressman Markey, none of us in this room want 
to see a child or an adult injured or, God forbid, die.
    Mr. Markey. Do you want jurisdiction over this?
    Ms. Gall. May I finish? Thank you.
    Mr. Markey. The question I want answered is do you want 
jurisdiction over this, Commissioner. Yes or no.
    Ms. Gall. I cannot tell you that yet because I have not 
looked at----
    Mr. Markey. Fine.
    Ms. Gall. I think that is a fair response.
    Mr. Markey. It is not a fair response. This is an issue 
that is so clear in terms of the fatalities, the serious 
injuries to children across this country. It is a consumer 
product safety issue which you should have a great deal of 
concern for right now, Commissioner. And I am very disappointed 
in your answer. Mr. Moore, what is your answer.
    I don't think it is a laughing matter, Commissioner. And I 
don't think----
    Ms. Gall. I would appreciate the opportunity to speak 
further, but I have been cutoff several times.
    Mr. Markey. You have not been cutoff. Commissioner Moore.
    Mr. Moore. The jurisdiction question does not bother me at 
all. I think we ought to have jurisdiction. It is a matter of, 
if we have jurisdiction, we would need appropriate resources 
because we don't have the sufficient manpower under $500,000 in 
order to accomplish it in the number of States that would have 
these fixed-site rides. But in terms of the jurisdiction, sure. 
I have no problem with this.
    Mr. Markey. You have no problem with----
    Mr. Moore. I have no problem with jurisdiction at all.
    Mr. Markey. My feeling about the amount of money in my 
bill--I authorize 500,000. Again, it is a number which is 
equivalent to the amount of money which you have to look at the 
mobile roller coasters; and if you feel that number is 
inadequate, you should tell the committee at this time as well. 
But my feeling is that with $500,000 if you were able to go in 
and at least in a way that ensured that you understand what 
happened in each one of these sites and you were able to use 
that money to share it with the other 49 States all of the 
other amusement park operators in the rest of the country if we 
saved just one child's life this coming summer, and I think we 
would save many more, not only from death but from serious 
injury--we are now talking thousands who are being injured on 
these roller coasters--I think it would be a $500,000 
expenditure that would be well spent.
    Ms. Brown. Let me just add at this point we currently spend 
about $100,000 doing what we do to enforce safety on mobile 
rides. That means that we investigate the most serious 
accidents and seek remedial action where appropriate. We serve 
as a clearing house to State governments and amusement ride 
operators and owners who are sharing information on mobile 
amusement rides on safety. And we assist the States in 
investigating specific defects. That minimal amount, which is 
what we could begin to do, could be done for $500,000. We are 
the best buy in government. We turn on a dime and work very 
well. Certainly more money could be used to do a much more 
dramatic effort. But as you say, to begin the very act of 
working with the States, of having a Federal presence, of 
investigating the most serious incidents and as serving as a 
clearing house with information is absolutely critical. We 
could begin the effort with $500,000.
    Mr. Markey. You would think that it would be appropriate 
for the CPSC to have that jurisdiction.
    Ms. Brown.  Absolutely.
    Mr. Moore. I agree with that. I am concerned as I said 
before about the sufficiency of our manpower.
    Mr. Markey. I appreciate that. Thank you, Mr. Chairman.
    Mr. Tauzin. Thank the gentleman. The Chair wishes to note 
that there is a 15-minute vote on the floor at this time. Mr. 
Shimkus has gone to vote and is hopefully going to return 
briefly. In the meantime, the Chair recognizes the gentleman 
from Ohio.
    Mr. Sawyer. I am not sure I can get there that fast. Just 
go and vote and come back.
    Mr. Tauzin. You can do that. The gentleman will go ahead 
and vote. I will continue to sit in the Chair until Mr. Shimkus 
arrives. Let me recognize myself in the meantime. Let me ask 
some questions about the question of regulations of amusement 
rides while I have the chance. It is my understanding that most 
of the fixed amusement rides are relatively unique rides in 
each one of the States. Is that correct or wrong?
    Ms. Brown. We have Alan Schoem here, who is very succinct, 
but is an expert in it.
    Mr. Tauzin. Would you identify yourself for the record.
    Mr. Schoem. I am Alan Schoem, director of the Office of 
Compliance at the Commission.
    Mr. Tauzin. Let me see if you can answer that question. It 
is my understanding that the fixed amusement sites around the 
country each have relatively unique rides, roller coaster 
rides, what have you. Is that accurate or is that wrong?
    Mr. Schoem. I don't know precisely. They have rides that I 
assume are unique, but there are rides that are both mobile and 
fixed that are used at fixed site parks as fixed rides and at 
carnivals as mobile rides.
    Mr. Tauzin. Is it true that mobile rides generally tend to 
look more alike?
    Mr. Schoem. They tend to?
    Mr. Tauzin. Tend to be more alike.
    Mr. Schoem. I wouldn't characterize them as more alike. 
There are so many different mobile rides; there are hundreds of 
different mobile rides just like there are fixed-site rides.
    Mr. Tauzin. Let me ask this question then in regards to the 
current administration of State regulations of the fixed 
sights. Since the law was changed to give the States authority 
in that area, has any State not accepted that authority where 
there were fixed amusement sites in the country?
    Mr. Schoem. I believe there are a number of States that do 
not have regulations for amusement sites.
    Mr. Tauzin. Even though there are fixed sites in those 
States?
    Mr. Schoem. Even though there are fixed sites.
    Mr. Tauzin. Could you identify those?
    Mr. Schoem. Okay. We can provide that for the record.
    Mr. Tauzin. I would suggest that you do so. If there are 
States that where there are fixed amusement parks and rides 
where the States have not accepted the responsibility, I think 
it is an important part of the record. I will ask that it be 
submitted by your office for the record.
    Ms. Brown. Let me clarify that in 1981 when the 
jurisdiction was removed, it was not given to the States. It 
was just simply that the jurisdiction was removed from the CPSC 
to have authority over fixed-site amusement rides.
    Mr. Tauzin. My information now is that there are now only 
eight States without such a law, and that Alabama is currently 
addressing the issue. In five other States, there are a total 
of seven parks with rides. The remaining two have no parks. So 
we are talking basically about a universe of five States with a 
total of seven parks with rides. Is that close to being 
accurate?
    Mr. Schoem. It sounds close to being accurate. I think our 
numbers are slightly different, but we compiled our list at the 
end of last year. But there are also different types of 
regulations within those States. Some may just require an 
insurance inspection. There are no State regulators that go in 
and actually inspect the rides.
    Mr. Tauzin. In regard to that point, Mr. Markey asked the 
question to some of you about whether or not a defect was 
covered in one State on a ride that is common to another ride 
in another State which somehow goes unnoticed in the other 
State. Would any of you like to comment on that or is there in 
an exchange of that information today, do the insurance 
companies do that, do the States do that? What is the current 
status of exchanging information on regulations and discovery 
of defects?
    Mr. Schoem. For example, we recently were involved in a 
ride in Texas where we identified a defect and worked with the 
manufacturer and operators of those rides to fix all of the 
mobile rides that were used all throughout the United States. 
Secondary restraint systems were added and additional 
inspection procedures were added.
    Mr. Tauzin. How would that occur right now with the fixed 
sites in terms of a defect occurring? Is there any procedure 
right now?
    Ms. Brown. There is no requirement to report.
    Mr. Tauzin. No requirement. Does it happen, however, Ms. 
Gall?
    Ms. Gall. There is a private sector organization that is 
composed of fixed-site amusement park owners and providers, and 
they do review routinely any accident information.
    Mr. Tauzin. Mr. Shimkus is in the Chair.
    Mr. Shimkus [presiding]. Thank you. Let me begin my line; 
and, Ms. Millman, do the tests used by NHTSA to test child 
restraints accomplish any of the following things: one, do they 
examine the durability of child restraints for children under 
50 pounds in front-impact crashes in bucket-type seats or 
smaller or modern cars?
    Ms. Millman. If I could, I would like to introduce one of 
the NHTSA staff, Steve Kratzke. He is the head of our 
rulemaking office, and he can provide more technical 
information about that.
    Mr. Shimkus. As much as a yes or no as we can. I understand 
the bureaucracy.
    Mr. Kratzke. Yes.
    Mr. Shimkus. Well, okay. How does child restraints perform 
in rear impact, rollover, side impact, or skidding accidents? 
Do the bench seats test for roll-overs, rear impacts, and 
sliding?
    Mr. Kratzke. It does not current----
    Mr. Shimkus. Thank you. That is commensurate with the first 
answer. Sir, if your first answer was yes, obviously the second 
answer is no.
    Mr. Kratzke. No.
    Mr. Shimkus. Does the bench test how well restraints 
perform in compact cars?
    Mr. Kratzke. Yes.
    Mr. Shimkus. Do they test the effect of loose seatbelts or 
inadequate seat bottom stiffness?
    Mr. Kratzke. Does it test inadequate--it tightens the seat 
belt. So, no, it does not test that and the second part was?
    Mr. Shimkus.  Inadequate seat bottom stiffness. Obviously, 
a manufactured seat with the child seat is not cushion enough. 
Does the bench seat test for the adequate softness of the 
bottom of the seat?
    Mr. Kratzke. The bench seat that we use now is an older 
design. It is a more severe test than would be a current seat. 
So yes, I would say that it tests more than would an updated 
seat in adequate softness or angle or contour or any of those 
attributes.
    Mr. Shimkus. I would venture to guess for--obviously, for 
folks here the issue that we are addressing is the testing--of 
one of the issues is the testing of car safety seats. Under the 
current standards, we use a bench seat from a 1973 Chevrolet 
Impala down a ramp. So my response would have been the ramp 
signifies the front-end crash, and really is testing how well 
that seat adheres to the bench seat of the 1973 Impala. And 
that is about the only thing you are able to test. I think you 
correctly stated that you cannot test the side crashes, the 
roll-overs under that method. Now, I applauded NHTSA in the 
opening comments and appreciation for some of the lapse areas 
that we feel that need to be tested, and based upon some of 
the, unfortunately, real-world cases; but I also applaud the 
work that we have done before.
    Ms. Millman. If I could add a little more information about 
the testing. One of the things that we try to do is separate 
the performance of the child seat from the performance of the 
vehicle. In a test of the child seat, we want to find out how 
that particular seat performs and then we can see if it exceeds 
our minimum standards. But that is only part of the protection 
that we provide for children in motor vehicles. Things like air 
bags and bumpers and how the energy flows through the car are 
also very important determinants of whether that child is going 
to be injured or not in a crash. So that bench test that you 
are concerned about is only one part of how we look at 
protecting children.
    Mr. Shimkus. As we discussed in our meeting last week, the 
debate is how do we move to an all inclusive testing in which 
real life vehicles that are being crashed every day, how do we 
make an inclusion of the child safety seat aspects. And the 
real debate over whether we should--while we are testing 
vehicles today, should we place in various sizes of children 
dummies in various seats and simultaneously test them as we are 
doing the other test. And I think some of the provisions that 
you are going to announce today and move forward with start 
addressing some of those questions. So we are happy to see 
movement in that direction.
    And you also addressed changing some of the sizes, adding 
new dummies to, in essence, the lineup. How many currently--how 
many child test dummies do we have for children under the age 
of 6?
    Mr. Kratzke. We have a newborn, a 9-month-old, a 12-month-
old, a 3-year-old and a 6-year-old.
    Mr. Shimkus. And how many do the Europeans have?
    Mr. Kratzke. The Europeans that they use in their standard 
or that they have?
    Mr. Shimkus. That they use in testing.
    Mr. Kratzke. They use in testing a 3-year-old; they are 
developing an 18-month-old. They have a 12-month-old and a 
newborn. They don't have a 9-month-old.
    Mr. Shimkus. Okay. Will NHTSA have a dummy representing 
children between newborn and 12 months? I guess you have talked 
about that in the--the question is what is the gap between 
newborn and 12 months? How many test dummies are you actively 
using to test today?
    Mr. Kratzke. A newborn is about 7 pounds. Our 12-month 
dummy is 22 pounds. We have a 9-month-old dummy.
    Mr. Shimkus. We don't have one of those here, do we?
    Mr. Kratzke. Yes. Down on the floor.
    Ms. Millman. This is the 12-month.
    Mr. Kratzke. This is the new 12-month-old dummy that we use 
and we just announced in March to assess risk of injury from 
air bags.
    Mr. Shimkus. So that is the 12-month. Then there is a 
smaller size.
    Mr. Kratzke. There is a 9-month and newborn.
    Mr. Shimkus. Thank you very much. And just to end on this 
line of questioning and since I am between votes I will be able 
to continue until other colleagues show up, I applaud the 
fact--or I wanted to ask one question this is following our 
discussion again on Friday. And this legislation is very 
similar to Senator Fitzgerald, my senator from Illinois, who 
dropped the bill on that side of the legislative branch months 
ago, maybe a month prior to the dropping of our legislation 
here. He also has attempted to address to meet with you and 
address some of the issues. Can you tell me of your response in 
working with Senator Fitzgerald on this issue?
    Ms. Millman. His staff has indicated, as you did, that the 
goals are what he is trying to achieve and he is willing to 
look at the specific language to make sure that we are 
achieving these goals.
    Mr. Shimkus. Have you actually met with members of his 
staff?
    Ms. Millman. Members of the NHTSA staff have met with 
members of his staff.
    Mr. Shimkus. One question, one last question and I will 
move to the safety, the sleepwear, child safety sleepwear 
standards. The Shriners Hospital presented one case to the 
Consumer Product Safety Commission in which an 8-month-old 
child was severely burned while wearing the Winnie the Pooh 
bunny suit. The Consumer Product Safety Commission rejected 
this case because using a microscope the label says daywear, 
not sleepwear. Should technicalities be allowed to leave 
children like this defenseless against fire? I would actually 
like Ms. Gall and Mr. Moore to respond to that.
    Ms. Gall. All right. Thank you. One of the problems that we 
have had, and why we came up with these amendments to the 
standard was the difference between some aspects of daywear and 
some sleepwear. And the confusion that arises out of long 
underwear and some daywear that can be used as nightwear and so 
on and so forth. What we have tried to do is provide a safe 
cotton alternative and----
    Mr. Shimkus. Keep going.
    Ms. Gall. I was hoping you might hold up the child. Oh, how 
wonderful.
    Mr. Shimkus. Exhibit A. I told you he was coming.
    Ms. Gall. Is he going to bang the gavel?
    Mr. Shimkus. He might.
    Ms. Gall. Well, clearly there is a great deal of confusion 
between daywear and sleepwear because sometimes it is decorated 
quite the same and has the same type of materials.
    Mr. Shimkus. Let me cut to the chase. Really, my son Daniel 
is here to testify on behalf of all 7-month-olds. And the 
reality is there is no--there is really no difference for 7-
month-old children for daywear and sleepwear. The reality is 7-
month-old children sleep. And they sleep at night, hopefully; 
and they sleep during the day, hopefully. And the question is, 
you know, does he sleep in this daywear? Well, he is a 7-month-
old, the answer is hopefully and hopefully yes, he does. 
Children can't run from fires. Children cannot learn to drop 
and roll. Infants I guess is the proper term. So why should we 
have a separate standard and why should we even be having the 
debate of sleepwear versus daywear? I mean, if we can't even 
address that in the sleepwear definition, how do we ever get to 
daywear, which for infants is sleepwear?
    Mr. Moore. I think it depends on mobility--the age of the 
child and the child's mobility.
    Mr. Shimkus. Well, he is 7 months old; and he is not 
crawling yet.
    Mr. Moore. He is exempt from coverage under our standards 
because the likelihood of his coming in contact with a small 
open flame or bringing himself, for instance, out to use a 
cigarette lighter or.
    Mr. Shimkus. It is not----
    Mr. Moore. Or matches.
    Mr. Shimkus. With all due respect, Mr. Moore, infants 
aren't going to be playing. We know that these fires come into 
contact with children because of negligent parents, candles, 
cigarettes, having children around some small flame. The 
question is if young children 7 month olds cannot escape the 
race of the flame, how can we not have this debate for 
sleepwear when even in daywear they are wearing daywear to 
sleep in?
    Ms. Gall. If I may just say this, we made those amendments 
based on the data we had available to us. The General 
Accounting Office looked at that data; and while they would 
have liked to see additional data, they did not disagree with 
the conclusion we made. They looked at the years of enforcement 
relaxation that we had while we were considering this. They 
looked to the timeframe from when the amendments went into 
effect until now, and they found that there was no support for 
amending the amendment that we undertook. And again, our 
standard is for small open-flame single-point ignition such as 
matches and cigarette lighters. And obviously caregivers and 
parents are the first defense for children. And we recognize 
that is important. But there is no clothing alternative that we 
can design that would be fireproof under all circumstances, 
including house fires.
    Mr. Shimkus. And I will let Ms. Brown finish, and then I 
will do a quick summation and give it back to the chairman. Ms. 
Brown.
    Ms. Brown. Congressman Shimkus, I was going to offer a 
slightly different subjects that we would offer to you at the 
Consumer Product Safety Commission that we come through and 
help you and your family babyproof your home for that adorable 
child.
    Mr. Shimkus. This is my third, so I think----
    Ms. Brown. And things have changed and developed so we 
offer that to you and we hope we can work with your staff on 
that.
    Mr. Shimkus. Thank you very much. Let me just say again 
that Daniel, representing all 7-month-olds, wants to make sure 
that they are safe in their cars from side impacts, roll-overs, 
rear collisions and they want to be as safe as possible when 
sleeping. And we appreciate your work actually in protecting 
our children. But I think we can move forward in trying to 
protect all 7-month-olds in the future. With that, I will yield 
back to the chairman of the committee. Thank you.
    Mr. Tauzin. I think John represents the best and safest. 
Thanks for bringing him, John. The Chair is now pleased today 
to welcome the gentleman from Ohio for 5 minutes.
    Mr. Sawyer. Thank you, Mr. Chairman. My first question--and 
I don't want it to sound facetious because I don't mean it that 
way but it goes directly to a point that I have--I don't know 
whether it has been asked since I left, but how do you know 
whether sleepwear on any given child is going to be loose 
fitting or tight fitting? How do you know when you put it out 
there that someone is not going to buy it in a manner that for 
one child would have been tight fitting and another would have 
been loose fitting?
    Mr. Moore. Well, we certainly can't predict that. We can 
make a recommendation based on the expected age and size of the 
child, and make recommendations in terms of what tight fitting 
or snug fitting ought to be. The product itself has a hang tag 
on it. It is going to have that on it when we are finished with 
it. It has a label in it that says it needs to be snug fitting. 
It tells you what snug fitting is.
    Mr. Sawyer. It seems to me that relying on that is kind of 
an illusion and that simply making sure that the fabric is 
appropriately treated, whether or not the child is of a size 
that would make it tight fitting seems to me to be the more 
prudent way of going about assuring that the protection that 
you seek is actually provided.
    Ms. Gall. If I could just add one point here. Even if you 
buy an extra size up, a larger size of the snug fitting, you 
still have the cuffs here and here which reduce the flow of 
air.
    Mr. Sawyer. I do appreciate that.
    Ms. Gall. It conforms to the body, and so it still provides 
that measure of protection.
    Mr. Sawyer. I understand that.
    Mr. Moore. And my people are telling me that we tested one 
size up and the product was still snug fitting.
    Mr. Sawyer. Let me turn to the question of the amusement 
park rides. I mentioned the potential at least initially to 
empower the States perhaps with a mutual recognition standard 
so that those inspectors who are closest and insufficient in 
number to inspect amusement park rides would continue to be 
empowered to act on behalf of the commission. Does that make 
sense to you?
    Ms. Brown. I think that would be one approach. Having the 
Federal presence there would of course encourage the States and 
States inspections to be much more effective. We can work with 
the States to have a central clearing house, to share data. 
This would be an enhancement as I would see it to encourage the 
States and enhance their own protective power. What we need are 
people on the ground who are keeping these up to date and who 
know what is going on. So I think what you are talking about 
is, in the end, State partnership in its best sense with this 
legislation.
    Mr. Sawyer. On another topic, can you tell us a little bit 
about how low-speed motorized bicycles differ from electric 
bicycles? Is there a substantial difference?
    Ms. Brown.  Mike, could you do this. I have a resident 
expert on this.
    Mr. Sawyer. NHTSA has proposed that you take over the whole 
field.
    Ms. Brown.  It is a good question.
    Mr. Tauzin. Would you identify yourself.
    Mr. Solender. My name is Michael Solender. Could you just 
state the question one more time to make sure I heard.
    Mr. Sawyer. I am running out of time. NHTSA has suggested 
that you all assume the full range of bicycle responsibility 
and that would include motorized low-power motorized bicycles 
as well as electric bikes. Could you tell us how these differ 
and----
    Mr. Solender. There are some technical issues as to what is 
an electric bike, and you can see in the drafts there is 2-
wheel, there is 3-wheel, and there is a speed issue. That was 
something that was new to us that we saw from NHTSA. We will 
have to look at that and see what other models are involved. At 
this point we can't say who would or should or can't take 
jurisdiction over it. It may well be appropriate. But it is 
something that we haven't had a chance to consider.
    Mr. Sawyer. Director.
    Ms. Millman. If we are looking at the safety of the 
vehicle, then I think the distinguishing factor is the speed 
and not necessarily the source of the energy.
    Mr. Sawyer. Let me turn then finally to the child 
restraints question. Where would you put child safety seats in 
terms of the overall spectrum of NHTSA safety programs?
    Ms. Millman. Are you asking in terms of our priorities?
    Mr. Sawyer. Priorities, yes. Effectiveness and cost.
    Ms. Millman. We think that the seats themselves perform 
well. Where we can make the biggest improvements is getting 
people to use them for every trip and making sure that they are 
installed properly. And not to be out done by my colleague, I 
would like to offer each of you the opportunity to have a 
certified child safety seat technician inspect your child seats 
to make sure they are installed properly.
    Mr. Sawyer. Let me ask you about the dynamics of child seat 
testing and the many dimensions including the size of the 
child, the direction and speed of the impact and so forth. As 
you undertake this program, would the legislation that is 
before us limit you or in any way misdirect you in terms of the 
arenas of research that you undertake?
    Ms. Millman. The legislation has very specific 
requirements. We have our planning effort underway right now 
that we expect to complete by the end of the summer. I would 
prefer that we complete that effort, which will identify the 
most promising areas for us to pursue. Some of those may be the 
things that the legislation calls for.
    The other concern is that the legislation specifies 
timeframes. Given the state of the research and the test 
devices that we have available, we have some concerns about 
being able to meet those timeframes.
    Mr. Sawyer. Let me just say in conclusion, Mr. Chairman, I 
appreciate your flexibility. I very much support the 
legislation, but I really want to make sure that you all are in 
the position to do the best technical job that you can do so we 
get the kind of outcome we want. Thank you.
    Mr. Tauzin. I thank the gentleman. The Chair recognizes the 
gentleman, Mr. Ganske, for a round of questions.
    Mr. Ganske. Thank you, Mr. Chairman. I think I will direct 
most of the questions to Ms. Brown. We are going to hear 
testimony a little later today from the Shriners Hospital for 
Children that treat over 20 percent of major pediatric burn 
injuries in the United States. And they have experienced over 
150 percent increase in sleepwear-related burn injuries since 
the commission lowered the safety standards.
    In fact, when they compared the years 1995 through 1996 
with 1998 and 1999 they had 157 percent increase. In another 
category the number of children suffering clothing-related burn 
injuries increased from 70 to 147 in their institutions, 110 
percent increase. 1995, 1996 Shriners Hospital for Children 
treated three children with sleepwear-related burn injuries 
under 9 months of age. But in 1998, 1999 the total number of 
infants with injuries rose to eight, 167 percent.
    I am hearing from other burn surgeons who are friends of 
mine around the country the same story, not just from the 
Shriners hospitals. And so I was struck by your testimony, 
which was that you took the position that if it isn't broken 
why fix it in terms of the rules that CPSC had before. I am 
interested, what was the push? Who made the push to change the 
regulations?
    Ms. Brown. I think this originally came from the staff that 
had problems, two problems that they felt were important. One 
was there was an enforcement problem, which Congressman Shimkus 
has given us right away, trying to figure out what is sleepwear 
and what is daywear. That was one thing. Enforcement was quite 
difficult. And the other----
    Mr. Ganske. Was there lobbying from the Cotton Council?
    Ms. Brown. This originated without lobbying from the Cotton 
Council. That has been a misconception. You know I, voted 
against the change in the regulations originally. There has 
been plenty of lobbying from the Cotton Council now. But 
originally from the staff that thought they could help with 
enforcement.
    Mr. Ganske. So the Cotton Council is weighing in heavily 
now.
    Ms. Brown. Certainly weighing in now but not before.
    Mr. Ganske. How much does it treat with flame retardant a 
child's sleepwear?
    Ms. Brown. Alan, can you tell me that. Several dollars is 
the answer. Several dollars.
    Mr. Ganske. Several dollars per item.
    Ms. Brown. Come on up. This is Ron Medford, who can give 
you some of the technical information.
    Mr. Medford. I am Ron Medford. I am the assistant executive 
director for hazard identification and reduction at the 
commission. Our best estimate it is about $2 a garment at 
wholesale level.
    Mr. Ganske. Is there cotton cloth now available that has 
fibers woven into it that is flame retardant, and is that 
significantly less expensive?
    Mr. Medford. There are a number of different fire retardant 
treatments that are available for cotton sleepwear. That is one 
type. And it is in about the same cost range that I just 
mentioned. There are a number of types of applications for the 
fire retardant chemicals.
    Mr. Ganske. Ms. Brown, we have heard from members of the 
committee that there is sort of an artificial distinction 
between sleepwear and not because I think that the commission 
itself has recognized the fact that a lot of kids are sleeping 
in T-shirts, things like that. Why wouldn't we just move 
instead of this sort of artificial distinction of tight 
fighting, loose clothing, why not just move to a clear labeling 
for consumers that says this item of children's clothing is 
flame retardant or is not flame retardant?
    Mr. Medford. Flame retardant may not be the best 
phraseology. The current labeling that is going to be required 
at the end of June regarding the snug fitting garments is to 
ensure the parents know these garments have not been treated, 
but they are relying on the snug fit of the garment to provide 
the protection to the consumer.
    Ms. Brown. It is a very confusing issue. It is confusing 
for the people who are selling it in the stores. It is 
confusing for consumers. That is why originally I didn't want 
it to change at all. I just wanted it to be straightforward. 
But we had enough trouble identifying what sleepwear is, 
because manufacturers wanted to try and make everything 
daywear, so that we had a big enforcement problem, which by the 
way, we still have under the changed regulations. But what it 
should be is very straightforward, that everything, all the 
sleepwear that is provided to a family would be fire resistant.
    Mr. Ganske. Anything that is marketed as sleepwear should 
be fire retardant.
    Ms. Brown. Exactly.
    Mr. Ganske. But also, is it correct to say that your 
position would be that for all children's clothing, that it 
should be labeled either fire retardant or not?
    Ms. Brown. No. Now children's clothing you are into a 
larger situation, all children's clothing.
    Mr. Ganske. How about T-shirts?
    Ms. Brown. All of that is a general wearing apparel 
standard for children's clothing which is not as stringent as 
it should be. Then the Congress might be talking about an 
enlarged regulation. But we are just talking right here about 
sleepwear. Sleepwear is the only one that has this more 
stringent regulation, either before or after general wearing 
apparel takes care of all children's clothing.
    Mr. Ganske. Let me just ask a final question, that is, in 
light of this data that is being provided for us around the 
country from the institutions that are treating children, the 
only thing that is significantly changed is the ruling from the 
commission.
    Ms. Brown. I want to clarify one thing about the data. 
Because the CPSC has an excellent data system. As you know, I 
supported the original regulation. But the Shriners who are the 
most excellent group and we all respect them enormously, are 
still counting all full house fires. This regulation was only 
supposed to, even in its original intent, apply to small open 
flames. In a full house fire, the pajamas really did not 
protect the infant. It would only--it would only protect it if 
an infant brushed up--and it has nothing to do with cigarettes 
by the way, there's been a misconception here. If they brushed 
up against a candle or a lighter or a match, then the sleepwear 
was supposed to protect the child and, in fact, it did. We saw 
the injuries go down. In a full house fire, tragically, there 
is nothing in a full house fire that will protect a child short 
of an asbestos suit.
    Mr. Ganske. I think you hit upon it, an asbestos suit. But 
as a physician who has treated a lot of kids with burns, I find 
that that distinction is rather artificial too. I think we are 
going to hear some testimony from the Shriners and that makes, 
that allows you then to play with your statistics. So when I 
look at the data, okay, if I am looking at total children 
burned, 1995, 1996, as to today and I see that we are dealing 
with 150 percent increase and the most notable thing that has 
changed in the meantime has been that we have moved to a weaker 
standard, in my opinion, for fire retardant children's 
sleepwear, I think that we need to look seriously at doing 
something about that. And your point, though, was that in your 
opinion as chairman, the position of your colleagues is set in 
stone.
    Ms. Brown. Absolutely.
    Mr. Ganske. And that no amount of additional requests from 
Congress for the commission to look at this is going to change 
anybody's opinion.
    Ms. Brown. That is absolutely correct. But the Congress in 
its wisdom could and this I see as the only out that you could 
get to have your point of view would be to have the Commission 
to go back to the old standard. But I see no movement on the 
Commission whatsoever in doing more work, spending more 
resources, trying to talk among ourselves. We are a very 
friendly group on this issue. I think it is rather set in 
stone.
    Mr. Ganske. I thank you. Thank you, Mr. Chairman.
    Mr. Tauzin. I thank the gentleman. At the request of 
Congressman Shimkus, the Chair would ask unanimous consent to 
include in the record a document from the Consumers Union dated 
May 15, 2000 responding to his request for counsel on the child 
restraint issue. Without objection that document is offered 
into the record.
    [The information referred to follows:]

                                            Consumers Union
                                                       May 15, 2000

Honorable John Shimkus
House Subcommittee on Telecommunications, Trade and Consumer Protection
    Dear Congressman Shimkus: Consumers Union (CU) \1\ commends you for 
your efforts to improve the safety testing of child restraints and for 
introducing in the House H.R. 4145, the Child Passenger Protection Act 
of 2000. CU, the publisher of Consumr Reports magazine, has been 
testing child restraints for over 25 years. We believe we can offer 
constructive suggestions to improve the effectiveness of testing 
procedures and recommend effective methods for sharing that information 
with consumers.
---------------------------------------------------------------------------
    \1\ Consumers Union is a nonprofit membership organization 
chartered in 1936 under the laws of the State of New York to provide 
consumers with information, education and counsel about good, services, 
health, and personal finance; and to initiate and cooperate with 
individual and group efforts to maintain and enhance the quality of 
life for consumers. Consumers Union's income is solely derived from the 
sale of Consumer Reports, its other publications and from noncommercial 
contributions, grants and fees. In addition to reports on Consumers 
Union's own product testing, Consumer Reports with approximately 4.5 
million paid circulation, regularly, carries articles on health, 
product safety, marketplace economics and legislative, judicial and 
regulatory actions which affect consumer welfare. Consumers Union's 
publications carry no advertising and receive no commercial support.
---------------------------------------------------------------------------
    Perhaps more than any other safety concern, consumers worry about 
the safety and well being of their children. Recognizing this concern, 
state legislators have enacted laws In all 50 states requiring children 
to be in child restraints, and many of those laws have been 
strengthened in recent years. The National Highway Traffic Safety 
Administration's (NHTSA) estimates that child restraints have saved 
over 1500 young lives over the past five years. We believe that 
consumers are more aware now than ever of the need to install child 
restraint systems properly and to keep children in a restraint well 
beyond their use of infant seats.

Child Restraint Testing Requirements
    CU doesn't believe that a manufacturer ought to be permitted to 
advertise that a restraint is safe for a child at a specific weight 
unless the restraint has been tested with a dummy at that weight. In 
August of 1995, CU petitioned NHTSA, asking that it revise its rules to 
insure that statements on child restraint product labels and packaging 
indicating maximum ``designed for use'' weights not recommend a weight 
greater than that of the test dummy used in compliance tests. We also 
asked NHTSA to require restraint manufacturers to test at the 30-mph 
speed message as specified in the standard, with only minimum variation 
permitted.
    The impetus for this petition resulted from CU's testing, in which 
three child safety seats failed Consumer Reports (CR) crash tests.\2\ 
CU noted in the September 1995 CR article, ``In our past reports on 
child safety seats, we took statements of compliance with the Federal 
standard as assurance of their safety. This time, we crash-tested the 
seats ourselves to find out how well they perform in trials that were 
similar to, but in some cases slightly tougher than, the ones the 
Government specifies.''
---------------------------------------------------------------------------
    \2\ See Consumer Reports, September 1995. 22 of the tested models 
performed well. The three models that failed were the Century 590, the 
Evenflo On My Way 206 infant seats, and the Kolcraft Traveler 700 
convertible seat for infants and small children. NHTSA recalled the 
Kolcraft and Evenflo independently issued a recall of its own seat. 
Century continued to deny there were safety problems with the seat.
---------------------------------------------------------------------------
    Three seats received a ``Not Acceptable'' rating. Two popular 
infant seats, certified by the manufacturers as safe based on tests 
with smaller, lighter dummies, but labeled for use by children up to 20 
pounds, performed poorly when tested with the 20-pound dummy. A third 
convertible seat failed in a forward facing position with a 33 pound 
dummy--the same sized dummy used by manufacturers to meet current 
government standards.\3\
---------------------------------------------------------------------------
    \3\ CR found that the Century 590 used with its base failed in a 
test with a ``9 month-old'' 20 pound dummy, the force of the crash 
causing the carrier to break away from the base. The seat performed 
well without its base. The Evenflo On My Way 206 failed in tests 
without its base, the force of the crash breaking the shell near one of 
the hook-ups for the vehicle safety belt, leaving one side of the 
carrier with the dummy strapped inside unsecured from the bench seat. 
The seat performed well in tests with the ``9 month old'' dummy when 
used with its detachable base. The Kolcraft Traveler 700's buckle 
failed in the forward-facing position with the 33 pound dummy, 
releasing the harness and allowing the dummy to strike the overhead 
shield. The shield then broke away and, in one test, the dummy was 
ejected from the seat. In another test, the dummy was left hanging from 
the seat's harness straps. When tested in the rear facing position, the 
seat performed safely. The three failing car seats were judged ``Not 
Acceptable'' by the magazine.
    Consumer Reports crash-tested the seats in a trial that was similar 
to--but slightly tougher than--the existing government tests. Consumer 
Reports tests closely parallel those used for government certification. 
Each safety seat is installed securely on an automobile seat attached 
to a test sled. A crash-test dummy is harnessed snugly into the seat, 
and the sled then simulates a 30-mph head-on crash into a fixed barrier 
while high-speed cameras track the movement of the dummy and seat. 
After the crash, the integrity of the safety seat is examined. We used, 
where possible, a dummy whose weight matched the manufacturer's claims 
on the seat.
---------------------------------------------------------------------------
    CU asked the agency to reconsider its amendments to Standard 213. 
``. . . [b]ased on our own testing we believe that the amendments are 
insufficient to assure the safety of many children who will be the 
users of seats certified and deemed safe in compliance tests conducted 
in accordance with the provisions of the amended standard. Our tests 
reported in the Consumer Reports rating of child safety seats will 
appear in the September issue. Three models in that report are rated 
Not Acceptable for safety reasons.''
    We asked that NHTSA's rules be revised to reflect the following 
principles:

<bullet> The statements on product labels and packaging indicated 
        maximum ``Designed for use'' weights should not recommend a 
        weight greater than that of the test dummy specified in 
        certification and compliance tests.
<bullet> Testing should match the 30-mph speed specified in the 
        standard, with only minimum variation permitted. Our review of 
        compliance reports in 1995 showed that though the existing 
        standard and the amended standard specified an impact of 30-
        mph, the tests were regularly being conducted at speeds in a 
        range from 27.6 to 28.7, and that testing at 27 instead of 30 
        mph generated only 81% as much energy going into the crash. In 
        the case of one car seat, our testimony at 30-30.3 mph showed 
        the product failing in a catastrophic manner. We recommended 
        testing be required at 29.7 to 30.3 mph.
<bullet> The standard should require safety for most infants who use 
        the product. In particular, NHTSA should revise the amended 
        standard to require that certification and compliance tests 
        specify a test dummy corresponding to the 95th-percentile size 
        when a maximum age user is recommended.
<bullet> Product labeling and recommendations for both height and 
        weight should be consistent with size of the dummy used in 
        certification and compliance tests.
    Within weeks after CU filed our petition with NHTSA in 1995, then-
NHTSA Administrator Dr. Ricardo Martinez issued a press release 
stating: ``Because of Consumers Union's announcement that it had rated 
three models of child seats as `not acceptable,' parents across the 
country understandably are confused and concerned that the safety seat 
they are using may not be safe. I want to set the record straight--
parents should have confidence in any safety seat that meets the 
federal safety standard. Their safety performance has been validated 
time and again in real world crashes. The agency has carefully 
monitored their test performance for more than a decade.''
    NHTSA rejected CU's 1995 petition and to our knowledge, it has not 
to date adopted any of the recommendations CU made in that petition. 
More recent testing confirms our belief that the concerns CU outlined 
in 1995 remain as valid today as they were five years ago.
    In Consumer Reports January 1999 issue, we published results from 
our most recent tests of 28 child seats. Five seats did not pass our 
tests, which initially were carried out at the 30mph speed specified by 
the standard and at the maximum dummy weight recommended by the 
manufacturers. With four convertible seats the head of the toddler 
dummy moved forward farther than the government standard allows. We 
downrated those seats and retested them at 28.5 mph. All but one passed 
the second test. We rated the seat that did not pass even the second 
test ``poor'' for use with a toddler. With another toddler-booster seat 
combination tested at 30 mph with a 40 pound dummy--the maximum child 
weight specified for use with its harness--the base cracked and the 
seatback tore away. We recommended against using the seat with its 
harness.
    Clearly the same problems exist today as did in 1995: in tests of 
child restraints conducted at the speed specified in the standard and 
with dummies that weighed the maximum weight specified by the 
manufacturer, some child restraints failed the tests.
    We therefore ask members of this Subcommittee on 
Telecommunications, Trade and Consumer Protection, in your very worthy 
efforts to improve safety standards for child restraints, to consider 
directing NHTSA to make the following changes in its testing 
requirements:

<bullet> Revise the standard to require that statements on products 
        labels and packaging, indicating maximum ``Designed for use'' 
        weights should not recommend a weight greater than that of the 
        test dummy specified in certification and compliance tests 
        unless weight has been added to the dummy to the level 
        recommended on the car seat. Parents and caregivers have the 
        right to expect such performance for children whose weight is 
        less than or equal to the package claims.
<bullet> Revise the certification and compliance programs to require a 
        sled speed specified in NHTSA's Laboratory Procedure for Child 
        Restraint System. Testing should match the 30-mph speed 
        specified in the standard, with only minimum variation.
<bullet> Revise the standard to require that certification and 
        compliance tests specify a test dummy corresponding to the 95th 
        percentile size when a maximum age user is recommended.
<bullet> Revise labeling requirements to assure that manufacturer-
        recommended heights and weights for usage of each restraint 
        system are consistent and match certification requirements for 
        that system.

Consumer Information Programs
    Section 2 of H.R. 4145, the Child Passenger Protection Act of 2000, 
calls for a safety rating program for child restraints. We believe that 
consumer information programs serve two functions: they give consumers 
reliable and accurate information about the product so they can make 
rational choices for their families, and they tend to serve as an 
inducement to manufacturers to improve their product. NHTSA's New Car 
Assessment Program (NCAP) is a good model of a successful consumer 
information program. Over a million consumers each year go to NHTSA's 
website to learn about side and frontal crashworthiness of vehicles 
they're considering leasing or buying and to compare vehicle crash 
scores. The NCAP program also rewards manufacturers by allowing them to 
achieve higher scores for safety improvements in their cars. Many 
safety experts credit the NCAP program with effectively inducing 
automakers to build more crashworthy cars. Despite the complaints of 
the auto industry, the crashworthiness of scores of U.S. cars have 
improved dramatically in the 20 years since the government started 
publicizing the test results. We would hope to see similar results for 
child restraints if NHTSA launches a consumer information program 
devoted to testing and rating them, and making the results available to 
consumers.
    To our knowledge, CU is the only organization that currently tests 
and rates child restraints and makes those results available to 
consumers. We support the establishment of a governmental consumer 
information program for child restraints, with the caveat that the 
changes in NHTSA's testing as highlighted above be made a mandatory 
part of any NHTSA consumer information program. If NHTSA is to test 
child restraints, the agency must do so at the speed specified in the 
regulations and using dummies whose weight is the maximum weight 
recommended by the manufacturer of the child restraint.
    We greatly appreciate the opportunity to share Consumers Union's 
with members of this Subcommittee and commend you for your work on this 
issue of critical importance to child safety. We look forward to 
working with you.
            Sincerely,
                                            Sally Greenberg
                                      Senior Product Safety Counsel

    Mr. Tauzin. I would also like to, for the record, inform 
the committee that young Daniel was accompanying our friend Mr. 
Shimkus today because his wife is attending the first lady's 
luncheon today. So this is his child duty day. The Chair is now 
pleased to welcome and recognize for 5 minutes the gentleman 
from Florida, Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman. I want to thank you 
again for holding this hearing. I think I'd like to address 
most of my questions to H.R. 3032. Ms. Gall, if you could 
answer this question: Since permanent fixed-based amusement 
sites are unlike carnivals or fairs and never leave the 
boundaries of their State, would ride safety be better left to 
those individual States to regulate or the Federal Government?
    Ms. Gall. Well, it seems to me most of the States are 
addressing those issues right now. We would have to look at the 
other materials. As I have stated before, we have to look at 
the increased incidents and see whether there is an increased 
hazard that perhaps is not addressed by the States. There are a 
host of other factors as well. But certainly from my philosophy 
and because I haven't seen anything to change my mind about 
that at this point, it would seem to me that the States would 
be adequately addressing it.
    When you look at the numbers of injuries and deaths on 
fixed-site amusement rides and compare it with other 
recreational activities that come under the jurisdiction of 
CPSC, the incidence of death and injury is much lower on fixed-
site amusement rides than it is with other issues that come 
before the commission with other regulated consumer products.
    Mr. Stearns. Maybe a logical question would be which States 
are doing a good job of overseeing and regulating fixed 
amusement and which States are not maybe.
    Ms. Gall. And I don't know that we know that at this point. 
I certainly don't. And I don't think we have sufficient data 
before the commission to make that determination.
    Mr. Stearns. Ms. Brown, do you have any information to 
identify which States are?
    Ms. Brown. Yes, I do.
    Mr. Stearns. Do you have that?
    Ms. Brown. We will provide that for you, Mr. Stearns. There 
is a patchwork of regulations, not only do some States not 
regulate, but they are different in what they do. I think what 
we are talking about here is, in effect, a Federal-State 
partnership. This regulation would provide for people to more 
thoroughly and better help regulation in their own State. We 
would be enhancing what the States would do by having a central 
data source so that they would know about different issues and 
also know about different kinds of problems and have more 
standardized kinds of tests that they could perform. It isn't 
that we are trying to take anything away from the States, and I 
may say that in 1981 when the jurisdiction was taken away from 
us, it was not given to the States. It just meant that there 
was no Federal regulation at all on fixed-site rides.
    [The following was received for the record:]


------------------------------------------------------------------------
                                              States with NO Fixed-Site
States with NO Fixed-site Ride Regulations     Rides Operating in the
               or Statutes*                           States**
------------------------------------------------------------------------
District of Columbia                        District of Columbia
Montana                                     Montana
North Dakota                                North Dakota
South Dakota                                South Dakota
Utah                                        Utah
Kansas
Missouri
Mississippi
Arizona
Alabama
------------------------------------------------------------------------
NOTE:
*Per Oct 1999 USCPSC Directory of State Amusement Ride Safety Officials
**Per IAAPA Membership Directory


    Mr. Stearns. I think your idea about data collection is 
good. I think what some of us are concerned about is a new 
budget, a new bureaucracy set up. I think the industry itself, 
they are self-regulation, in many ways might exceed what the 
Federal Government would provide. And I think this was touched 
on earlier about the legislation's proposing to spend 500,000 
annually. Yet it has been reported by the Consumer Product 
Safety Commission that it would cost a minimum of $5 million.
    Additionally, the State of California alone currently 
appropriates $24 million for ride safety review. So the bill 
when it says it is only going to be $500,000 and the State of 
California is spending $24 million, what we are all worried 
about is that you would set up not only a data collecting 
commission but a huge bureaucracy with inspectors, and this 
would go on and on.
    Ms. Gall pointed out that a lot of the States are pointed 
doing a great job. So if we identify just those few States that 
are not doing a good job, why don't we talk to those people and 
let them put in the industry self-regulation, which has been 
very successful in all these other States without a huge new 
appropriations of money and also bureaucracy.
    Here's another question here. Does the Consumer Product 
Safety Commission along with ride manufacturers sit on the 
appropriate American Society for Testing and Materials 
committee? I guess, Ms., Gall would you say would that possibly 
be a better review board than the Consumer Product Safety 
Commission?
    Ms. Gall. Certainly the ASTM does have voluntary standards 
that does address some aspects of fixed-site amusement rides. 
And they are looking at some additional issues, as I mentioned 
earlier, the G force issue, the number of Gs that someone would 
experience and the length of time that they would experience 
that G force. Congress has told us repeatedly over the years 
this commission has been in business to look to voluntary 
standards first whenever possible and then to manditory 
standards when voluntary standards fail.
    Ms. Brown. We are prevented from sitting on that task 
force, of the ASTM task force, if it has anything to do with 
fixed-site amusement rides. We are particularly prohibited by 
Congress from expending any resources on fixed-site amusement 
rides.
    Mr. Stearns. Let's say you have 300 to 400 million people 
riding fixed-base amusement rides. So that is anywhere from a 
billion rides or more every year. I mean, considering what has 
occurred in these fixed amusements and that huge numbers and 
that repetition it seems to me that individual States are doing 
a remarkably good job. And I think we have got to be careful to 
go out and propose a whole new appropriation and whole new 
bureaucracy and regulation when it appears that most of the 
States are doing it.
    So, Mr. Chairman, I urge this committee not look at H.R. 
3032 as a panacea here, but I think the chairlady, Ms. Brown, 
has touched upon possibly something which is a compromise 
language which would be a data collection that might be 
helpful. But possibly the States themselves that do not have 
the State regulation could go ahead and do it. I yield back the 
balance of my time.
    Mr. Tauzin. I thank the gentleman. Chair is now pleased to 
recognize the gentlelady, Ms. Cubin, for 5 minutes.
    Mrs. Cubin. Thank you, Mr. Chairman. I just have a couple 
questions. One for--actually both for Ms. Millman. It is 
estimated that 80 to 90 percent of children are not properly 
restrained. Isn't that an area where NHTSA could be more 
active? Education and those kind of things?
    Ms. Millman. Yes, that is the number that we typically use. 
About 80 percent of the car seats are installed improperly. 
Now, that can be minor things or it could be major things.
    Mrs. Cubin. What have you done to date to address that 
problem?
    Ms. Millman. Probably the most important thing is that we 
have developed with partners a standardized curriculum for a 
certification in child protection. Over 5,000 people have taken 
that course and achieved the certification. These are people 
that conduct safety seat checks. They will inspect the seat, 
make sure it is not a seat that has been recalled, and check 
the installation of it and also how the parents are putting the 
child in the seat.
    Mrs. Cubin. Five thousand doesn't seem like very many, 
since the statistic has been out there for quite a long time, 
it seems to me. So I would hope that would continue and maybe 
expand that, maybe do even more.
    Ms. Millman. If I could add, that is just one part. The 
other part of our effort in that area is the uniform attachment 
system that will be fully implemented by September 1, 2002. 
This system means that every seat will connect to every car in 
the same way. That will help eliminate part of the installation 
problem.
    Mrs. Cubin. In your testimony, you stated that NHTSA tested 
every new seat and model in the year that it is introduced. So 
doesn't that mean that for up to 12 months before you even--
that the seats could be used for up to 12 months before they 
have even been tested? Is that right?
    Ms. Millman. The general framework that we use in our 
standards is that the manufacturer certifies to us that their 
product meets or exceeds all of the minimums that are laid out 
in our standards.
    Mrs. Cubin. Would you--I am sorry. Would you repeat that.
    Ms. Millman. The framework that we use in general in our 
regulations is the manufacturer certifies to us that their 
product meets or exceeds the minimum standards in the 
regulation.
    Mrs. Cubin. I think it has been widely documented that a 
significant number of child safety seats fail compliance tests 
and have to be recalled after they have already appeared in 
retail stores. So if there is no need for legislative action in 
this area, how do you explain--I mean, to me it seems like 
waiting 12 months is waiting too long even though the 
manufacturer certifies it. Then if your own tests show a 
significant number to be recalled, it seems like you ought to 
be more ahead of this problem rather than behind it.
    Ms. Millman. Not to quibble but the test is within the year 
that it is introduced, so 12 months would be the maximum. But 
we agree that we want to make the program as strong as it can 
possibly be. That is why we look forward to working with the 
committee.
    Mrs. Cubin. Ms. Gall, you were referring to G force and the 
possible injuries or situations resulting from G force. Do you 
think anywhere near the adequate amount of study has been done 
on that to be passing regulations that result in----
    Ms. Gall. Well, as I said before, it seems to me that not 
only do we need to look at the number of Gs but also the amount 
of time that an individual is exposed to that number of Gs.
    Mrs. Cubin. Has that been done?
    Ms. Gall. I don't know that that has been explored in any 
detail as of yet by the ASTM committee. I know they have 
received data on it and they are taking a look at it. Beyond 
that I can't really comment.
    Ms. Brown. There is a new study just issued by the National 
Institute of Neurological Disorders and Strokes, which 
documented numerous cases of brain injury suffered by riders 
during normal operation of roller coasters and similar 
amusement rides. The study reported cases 15 cases, 14 of which 
occurred in the 1990's where routine roller coaster incidents 
resulted in brain trauma, internal bleeding, and neurological 
change.
    Mrs. Cubin. Is that the only study?
    Ms. Brown. That is the only study I know of to date. There 
may be others.
    Mrs. Cubin. So it wouldn't be unreasonable to say maybe it 
is too early to make a decision of the effect of G force.
    Ms. Gall. I think there are a number of things we have to 
look at and that is one of them.
    Mrs. Cubin. Would you agree with that, Mr. Moore?
    Mr. Moore. Yes, indeed.
    Mrs. Cubin. Thank you, Mr. Chairman.
    Mr. Tauzin. There are no other members so the Chair 
recognizes himself quickly for a separate round, then I will 
recognize any of the members in order. Ms. Millman, I mentioned 
to you earlier that I wanted to ask you a couple of questions 
about the child safety restraints.
    First, let me thank you as I know other members have for 
introducing the next generation of the crash test dummies to 
the scene, because obviously that is a major step forward. We 
thank you for that. In regard to the testing, however, how do 
you account for the fact that child safety seats performed 
differently in various models in motor vehicles? Why does that 
occur and why--how is that information being, you know, given 
to consumers, or is it?
    Ms. Millman. I would like to have Steve Kratzke answer that 
for you.
    Mr. Tauzin. Identify yourself for the record, sir.
    Mr. Kratzke. I am Steve Kratzke; I am in charge of our 
safety standards.
    Mr. Tauzin. If you can, first of all obviously there are 
different performances by the safety seats in different model 
vehicles. And I was asking why is that? Can you tell us why 
that is true, and, second, is that information given to 
consumers?
    Mr. Kratzke. The first part of it is the safety seat 
performs in a complex environment. It has the vehicle 
attributes--if you are in a pickup or sport utility, you will 
experience different forces in a crash than if you are in a 
small car. There are parts of the interior that you may or may 
not contact during that. The seat itself if it is exposed to 
the same forces will do the same things. That is what we do in 
our testing. However, it performs differently in different 
vehicles because the vehicles perform differently. One of the 
things we are looking at right now in response to the 
comprehensive plan is if we can develop a way to give 
information about performance in particular vehicles. So it is 
not something that we know right now exactly how would you do 
that.
    Mr. Tauzin. You know there are differences, but you are not 
yet prepared to advise consumers as to what seat performs 
better in each vehicle. You want to get there?
    Mr. Kratzke. Yes, we do want to get there.
    Mr. Tauzin. I would suggest that would be a critical 
important bit of information for consumers. If John Shimkus is 
buying a car seat for his child, Daniel, and he drives a 
particular vehicle, it would be incredibly good for him to know 
that the seat purchased performs best in that vehicle and that 
perhaps the seat that otherwise is rated well, may not perform 
as well in that vehicle.
    Mr. Kratzke. One of the things we are really trying to 
understand is how much of it is just the vehicle performance. 
What is different about child seats? If we can tell you that 
this vehicle is exceptional protection in a side impact and 
average impact in a frontal impact, and it does the same thing 
where the child seat in there, we are trying to see if we can 
do that. But the question I thought you were driving at is 
beyond the vehicle performance differences, and that part we 
don't know, how to get to, but we are trying to.
    Mr. Tauzin. Regardless of what the causes are for a safety 
restraint to perform better in one vehicle or another, it just 
seems to me that is a critical piece of information for 
consumers not only when they are purchasing a vehicle, but when 
they are making a decision on which one of the car seats they 
are going to purchase for their children.
    Ms. Millman. We agree. I just want to emphasize that our 
standards are the minimums. And a seat that is on the market 
meets or exceeds the minimum standards. So what we are looking 
at is providing information about by how much a particular seat 
would exceed the minimum standards.
    Mr. Tauzin. I am sure you know parents probably--given a 
choice for a seat that protects beyond the minimum--might want 
to do that. And given information that the car they are driving 
or the truck they are driving the seat performs better there 
than somewhere else might be very valuable. We are going to 
hear testimony from Mr. Baloga later on that roll-overs by 
their very nature are very difficult to replicate in a 
scientific action. Is that the reason why you don't have a 
separate roll-over end cap rating?
    Ms. Millman. I am very glad that you asked that because we 
are about to unveil a proposal that would do just that. We 
believe that we have come up with a way that we can rate 
vehicles based on their propensity to roll over and we hope to 
provide that information along with the star ratings that we 
provide on our crash tests.
    I would also like to draw your attention to the pamphlet in 
the information packet that we provided, which is called Buying 
a Safer Car for Child Passengers. This includes the discussion 
of safety features that parents and caregivers can look for 
when they are comparing vehicles and includes our crash test 
ratings.
    Mr. Tauzin. If somebody wants that pamphlet, how do they 
get it?
    Ms. Millman. The information is on our Web site at 
www.nhtsa.dot.gov and also we have a hotline. They can call, 
and we will mail the pamphlet to them.
    Mr. Tauzin. That hotline is?
    Ms. Millman. 1-800-DASH2DOT.
    Mr. Tauzin. Thank you. Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much. I am going 
to return again to this issue of roller coasters. And I am 
going to introduce some startling statistics in terms----
    Ms. Brown. What kinds of statistics?
    Mr. Markey. Startling.
    Mr. Tauzin. It is Boston for ``startling.''
    Mr. Markey. You all sound funny to me. When President 
Kennedy sounded like this, everybody thought it was charming. 
When it comes out of my mouth, it doesn't sound quite so.
    Mr. Tauzin. Confusing is the word.
    Mr. Markey. So the numbers that have been gathered actually 
by the Consumer Product Safety Commission on the number of 
injuries requiring emergency room treatment over the last 5 
years, gives us all great reason to be concerned about what is 
happening. In your own survey, looking at mobile sites, mobile 
roller coasters, over which you do have jurisdiction, the 
number of emergency room visits related to roller coaster 
accidents at those sights has risen since 1994 to 1998 from 
2000 to 2100. Not that large of an increase.
    However, on the fixed-site roller coasters, over which you 
have no jurisdiction, the number of emergency room visits has 
risen from 2,400 to 4,500 in just those 5 years. A near 
doubling of emergency room visits by those who have been 
injured on these roller coasters. Now, here is the next 
interesting fact about it. Who is injured on roller coasters 
and other amusement park rides? This is the interesting 
statistic. Children are injured on roller coasters. Children 
who are 1----
    Ms. Brown. Can you move the water.
    Mr. Markey. Children who are 1 or under have very few 
injuries. But beginning at age 2, there is a huge spike. That 
continues all the way through approximately age 13 or so, 
related, I think, to a certain extent to more reckless 
behavior, if there is an absence of already industry provided 
safety protection and the additional vulnerability that those 
younger children might have to neurological injury because they 
are not yet fully developed. So these statistics are a 
blistering, scalding indictment of the roller coaster industry.
    A doubling of the injuries, almost all of them concentrated 
among children ages 2 to 13, an objection to any coordinated 
national effort to ensure that information about the flaws 
about the defects in a roller coaster in one State being shared 
with all of the other roller coaster operators across the rest 
of the country. An actual opposition to any Federal role in 
ensuring that there are proper inspections when an accident has 
already occurred so that that information can be shared the way 
we do with buses and trains and planes and other vehicles.
    I find this to be something as we head into this vacation 
summer, very very troubling. We are going to wind up in a 
situation in which parents again put their kids in a station 
wagon, head toward States which I am afraid they are going to 
assume have safety standards in place, but not knowing that an 
accident that may have occurred in one State has not in fact 
now been communicated to another State and no requirement that 
they provide for the safety protections that could prevent a 
young girl or a young boy from suffering the same injury.
    Now, people can say, well, this isn't like handgun control 
or some other issue or 30,000 people may be harmed in the 
course of a year. But for every family with every child who is 
seriously injured it changes the fate, the destiny of that 
family. It has a profound impact. And we are now talking about 
4,500 children for the most part per year. And this just is a 
survey of 100 hospitals by the Consumer Product Safety 
Commission. I think it vastly understates the number of 
children who are visiting hospitals after taking these roller 
coaster rides. Remember, this is after the amusement park 
operators have done everything that they can to treat the child 
onsite with their own nurses, with their own doctors so the 
family wouldn't have to take the child to an emergency room.
    So my hope is that this committee and ultimately the 
Consumer Product Safety Commission will do what is right for 
those families as they get in their station wagons or SUVs this 
summer so that we don't see a continued increase in the number 
of injuries, which I am afraid we are going to and the number 
of deaths which are also skyrocketing from numbers of 20 and 30 
years ago when we rode on this relatively slow 50-mile-an-hour 
roller coasters.
    So this is, I think, a great opportunity for the Congress. 
I would be honest with you that I think it is a big mistake for 
Congress to give up jurisdiction over this subject and to just 
trust the States because this is one subject in which the 
States are letting ordinary families down. Thousands of 
children are being injured every year as the States turn a 
blind eye and the Federal Government turns a blind eye to the 
safety risks for those families across this country. Thank you, 
Mr. Chairman.
    Mr. Tauzin. The Chair recognizes the gentleman from Mr. 
Mississippi, Mr. Pickering for 5 minutes.
    Mr. Pickering. Thank you, Mr. Chairman. It is always 
difficult to compete with my good friend, Mr. Shimkus from 
Illinois, with his one baby. I started to bring my five today 
but was concerned it would be too disruptive. It is good to 
have Commissioner Moore here and the other commissioners, and I 
appreciate their testimony.
    Let me ask Commissioner Moore, having read your statement 
on the proposed revocation of the children's sleepwear 
amendments, a few questions. And I realize our time is brief 
because of votes. I was struck that you stated that there is no 
data or any baseline figures upon which to base whether there 
has been a reduction in risk or burns or injuries after the 
adoption of the original standard. Is that correct?
    Mr. Moore. That is correct because we did not have the 
system, the emergency room data collection system, in place at 
that time.
    Mr. Pickering. Are there any other--were there Shriners or 
consumer groups or outside groups that have any data or 
information that they have submitted on the increased rate of 
injury or burn?
    Mr. Moore. They have submitted some data, but I think it is 
very important, it is critical to understand that many times--
and I will have our staff speak to this--that when we are 
talking about this data, the Shriners and ourselves are not 
talking in the same direction. They are talking about, in many 
cases, house fires and we are talking about 3-second small open 
flame contact by a child. That is what we are trying to protect 
a child against. Not from a house fire. There is no product out 
there that can protect a child from a conflagration fire in a 
home. And many times that is important to understand. It is 
critical to understand what we are talking about. And I'd like 
our staff people who have been looking at the data to respond 
to that question about the data.
    Mr. Tauzin. Again, identify yourself for the record, sir.
    Mr. Medford. Ron Medford, Consumer Product Safety 
Commission. At the time that the original sleepwear standard 
was promulgated in early 1970, actually by the Department of 
Commerce, there were no national statistics kept on fire 
incidents. There is a known statistic that exists for the total 
number of fires involving clothing of all types, not just 
sleepwear in 1970, and that was referenced earlier. That number 
was 60 at the time the sleepwear standards were issued. No one 
knew then and really not today the number of deaths that are 
caused or related to sleepwear. We do know that the number is 
about two or three deaths per year today related to all 
clothing. That is sleepwear and daywear, general wearing 
apparel. That is the total number that exists. The biggest 
confusion----
    Mr. Pickering. Of those two to three, you would not know if 
it was daywear or sleepwear.
    Mr. Medford. That is right, we don't. You do not know. The 
main confusion revolving around the sleepwear standard has to 
do with what the standard was initially intended to prevent and 
what it was not intended to prevent. It was only intended to 
prevent the application of a very small flame for 3 seconds 
directly on the sleepwear, which is called the first item 
ignited. That is the only kind of injury it was intended to 
prevent. The kinds of cases that have been referred to time and 
time again by the Shriners and investigated in every instance 
by the commission staff wherever we get permission from the 
parents to investigate has shown that those fires are not those 
that are intended to be addressed by the sleepwear standard. 
That is really where the confusion lies.
    Mr. Pickering. Let me ask if there is common ground upon 
which we can all agree. Are there educational initiatives or 
efforts? When will the labeling requirements take effect? Will 
that be something where all sides can agree and take part in 
efforts to reduce the two or three deaths that we are now 
seeing related whether it is to sleepwear or daywear? And I 
know with five children, many times my wife and I by the end of 
the day we just want the easiest thing possible to put our 
children in. If it is a big T-shirt or a T-shirt that we just 
throw them if that and put them in bed and thank God that the 
day is over. But what can we do from an educational initiative 
and effort and when will the labeling requirements and will 
that help parents as they try to protect their children, as I 
try to do that for my own children?
    Mr. Moore. Well, we expect an educational campaign. The 
industry is willing to participate in an information and 
education campaign. As I indicated, they are ready to go 
forward at any time with that. And we expect them to go forward 
with that at least by I think it is June, I believe, in this 
year. Yes, by June of this year. We have been making changes in 
the product. That is one reason why to date there has not been 
a national information and education campaign. But such a 
campaign will get under way in June.
    Mr. Pickering. Okay. Mr. Chairman, that is good to hear. I 
know that we are out of time. I have one question on the 
amusement park issue that I would like to submit to the record.
    Mr. Tauzin. Without objection the record will stay open for 
30 days and members can submit written questions. We hope the 
witnesses will respond in that time. I thank the gentleman. I 
am going to dismiss this panel as we go to this vote. But let 
me make one point by way of advertisement to our viewers, sort 
of a commercial announcement. When we come back, we will hear 
from a seven-member panel, one of whom, representing the 
International Association of Amusement Parks and Attractions, 
will say as he has said for the record that the Consumer 
Product Safety Commission staff indicated to them that the 
enormous increase in accidents reported by Mr. Markey was not 
the result of an actual increase in the number of accidents, 
but was a result of a change in methodology at the commission 
and that an independent analysis produced different results. 
Before I leave, would the commission like to speak to that 
allegation?
    Ms. Brown. Mr. Chairman, what happens is that we have 101 
hospitals in our system. That gives us statistically 
significant results.
    Mr. Tauzin. But you added 30 hospitals, didn't you?
    Ms. Brown. Which doesn't change, except in one way which I 
will explain. What happens is if there is a hospital that is 
near an amusement park, it may get the more injuries and others 
less. Therefore, under this system the number of injuries are 
underreported, they are not overreported.
    Mr. Tauzin. It is not the question of the number of 
injuries that the gentleman will complain about. It is the fact 
that statistically there may not have been a jump of 54 percent 
in the year 1995, 1996; that that increase may have been the 
result of simply a change in the methodology. At least that is 
what he is going to say. The staff of your own agency informed 
his association.
    Ms. Brown. I think he may have misunderstood.
    Mr. Medford. Every few years the commission redraws a new 
sample of hospitals to update the most current population of 
emergency room-based hospitals in the country. And when you do 
that, some hospitals that are in your system move out and some 
new ones come in.
    Mr. Tauzin. So you move 30 in in that period; and his claim 
is that by moving the hospitals around, it artificially changed 
the results. But the bottom line is I have to go vote.
    Ms. Brown. We disagree.
    Mr. Tauzin. It will be interesting to hear. So as a 
commercial announcement, please come back after we resume after 
this vote. We are voting on my military construction final 
passage. Let me thank this panel. Please respond in writing. 
You have 30 days to do so if you have additional comments, and 
the record will stay open for additional written comments. 
Thanks a great deal. You have added immeasurably to our store 
of knowledge. The committee stands in recess for 15 minutes.
    [Brief recess.]
    Mr. Tauzin. The subcommittee will please come back in 
order. Let me ask our guests to take seats and to cease 
conversations. I have a very important announcement to make and 
that is that I think we gave you the wrong phone number to get 
that wonderful pamphlet on how to find a safe car with the 
right safety features for your children. I wanted to give the 
correct number out.
    The correct number for the hotline to receive those nice 
pamphlets and help consumers make good decisions about child 
safety in the car is 1-888-347-4236. So it is 1-888-347-4236. 
And if you are on the Internet, and you want to contact the 
National Highway and Traffic Administration for this 
information, it is www.NHTSA.DOT.gov. Again, it is 
www.NHTSA.DOT.gov for that same information on the Internet.
    We are pleased to welcome now our second panel, which 
consists of seven folks, beginning with Ms. Judith Lee Stone, 
president of Advocates for Highway and Auto Safety; Tom Baloga, 
president of Britax Child Safety Incorporated; Dr. Malcolm 
Currie of Currie Technologies; Dr. David Herndon of the 
Shriners Burns Hospital in Galveston Texas; Dr. Phillip 
Wakelyn, the senior scientist, National Cotton Council; Mrs. 
Kathy Fackler of La Jolla California; and Mr. John Graff, 
president and CEO of International Association of Amusement 
Parks and Attractions, the gentleman I mentioned earlier.
    We will start with Ms. Judith Stone, president of Advocates 
for Highway and Auto Safety. Ladies and gentlemen, the rules of 
our committee are that your testimony has by unanimous consent 
been made a part of the record. So you needn't read it all to 
us. We would like you to use the 5 minutes allotted to you to 
highlight the chief points you want to make in your oral 
testimony for us today so as members rejoin us we can get into 
a good Q&A session with you. Ms. Stone.

    STATEMENTS OF JUDITH LEE STONE, PRESIDENT, ADVOCATES FOR 
 HIGHWAY AND AUTO SAFETY; TOM BALOGA, PRESIDENT, BRITAX CHILD 
  SAFETY, INC.; MALCOLM R. CURRIE, PRESIDENT AND CEO, CURRIE 
TECHNOLOGIES; DAVID N. HERNDON, CHIEF OF STAFF AND DIRECTOR OF 
  RESEARCH, SHRINERS BURNS HOSPITAL; PHILLIP J. WAKELYN, PHD, 
  SENIOR SCIENTIST, ENVIRONMENTAL HEALTH AND SAFETY, NATIONAL 
 COTTON COUNCIL; KATHY FACKLER; AND JOHN GRAFF, PRESIDENT AND 
     CEO, INTERNATIONAL ASSOCIATION OF AMUSEMENT PARKS AND 
                          ATTRACTIONS

    Ms. Stone. Thank you, Mr. Chairman. I am Judith Lee Stone, 
and president of Advocates for Highway and Auto Safety. We call 
our self Advocates, so you may hear that in the testimony. I am 
testifying today in support of the Child Passenger Protection 
Act of 2000 because it is an important first step in attempting 
to address areas that need to be improved.
    If enacted into law, H.R. 4145 would require NHTSA to 
consider the need for more comprehensive testing procedures 
including dynamic testing that simulates different crash modes 
and the need to use additional child test dummies. The bill 
would require the resulting regulations to minimize child head 
injuries, inside impact and in roll-over crashes and to require 
in vehicle testing as part of a the New Car Assessment Program. 
We support most of these proposals. Child restraint performance 
is tested on a laboratory sled, not in a full vehicle crash 
test. Add-on child restraints, the most prevalent restraints 
purchased in the U.S. Are secured to old- style 1950's standard 
bench seats and for built in-child restraints the seat is 
placed in a partial vehicle shell. Both are mounted on the sled 
for testing.
    Although this is referred to as dynamic testing, sled 
testing merely simulates crash forces when the sled is suddenly 
decelerated. Since it does not involve a full vehicle in an 
actual crash, the sled test does not provide information on the 
interaction between the child, the child restraint and the 
vehicle interior under real-world crash conditions. Such 
testing should include consideration of an array of crash modes 
as provided in the bill geared toward minimizing head injuries 
to children, especially side impact crashes. Current sled 
testing only simulates head-on full frontal crashes. Head and 
neck injuries also occur in side impact crashes and roll-overs.
    The side impact aspect is particularly important as child 
restraints have no current injury requirement for side impact 
protection. This is a problem because child restraints that are 
now secured with vehicle seat belts are frequently placed in 
the rear outboard seating positions in order to take advantage 
of the 3-point lap shoulder belts which are typically provided 
in the outboard but not the center seating position. In the 
future, child restraints will be secured in the rear outboard 
seating positions because NHTSA recently adopted a uniform 
anchorage system for child restraints which goes into effect in 
the year 2001. The NHTSA rule requires two sets of lower 
anchorages in the rear set which will most likely only permit 
child restraints to be secured in the outboard seating 
positions.
    Advocates also supports the need to update and improve the 
child test dummies currently available for child restraint 
testing. Each type of child restraint should be tested with 
instrumented dummies at the high and low end of each size and 
weight range recommended by the manufacturer. NHTSA is adopting 
a new set of more advanced test dummies, the hybrid 3 for use 
in evaluating performance requirements in connection with seat 
belts and air bags under the occupant protection standard. This 
set of better-instrumented, more advanced test devices should 
quickly be made part of the testing requirements under the 
child restraint standard.
    The agency should as part of the rulemaking revise standard 
213, the child restraint standard, to comport with the injury 
criteria adopted for child dummy testing for air bags and 
consider the need to add a neck injury criterion similar to 
that adopted in the standard 208.
    While Advocates supports real-world dynamic testing in 
vehicles to ensure safety, we are not sure what approach is 
best to achieve this purpose. Using vehicles crash tested as 
part of NCAP is appealing because NHTSA already conducts both 
frontal and side impact crash testing in this program. However, 
we perceive several pitfalls with using NCAP. Only about 40 or 
so crash tests are conducted under NCAP in a given year, 
limiting the number of child restraints that could be tested in 
this manner. NCAP is a consumer information program which 
conducts crash testing at 35 miles per hour, higher than the 
current 30-mile-per-hour maximum test speed. This would not be 
appropriate for compliance testing conducted to determine 
whether child restraints meet performance requirements in 
safety standard 213.
    Finally, NCAP testing is conducted with no seat in the back 
of the vehicle which is where the instrumentation to report the 
crash is placed, posing both logistical and financial problems 
for NHTSA. Alternatively, child restraint manufacturers could 
contract either with private crash test centers or with the 
vehicle manufacturers to place child restraints in the rear 
seats of vehicles that are going to be crash tested.
    At a minimum a limited testing program to validate child 
restraint performance in the sled test should be conducted. 
NHTSA should evaluate which option promotes child restraint 
safety.
    I want to move to booster seats. Advocates wholeheartedly 
supports the language in this bill that would require 
consideration of protection for children who weigh more than 50 
pounds. Children roughly between the ages of 4 and 8 years and 
older are disenfranchised under both State restraint laws and 
Federal occupant protection requirements. I see the red light. 
I will try to move as quickly as I can.
    As regards consumer information, which is a very important 
area, we think that labels for child restraints should be 
written in a language that is readily understandable. We also 
believe that the ratings system, a child restraint rating 
system, is another important step in the bill that Advocates 
does support. There are several elements about that that we 
could discuss perhaps later on. I would like to close by just 
saying that it is important for child restraint manufacturers 
to inform the public about which vehicle models are not 
compatible with their child restraints. Each child restraint 
package should be clearly labeled with this information so the 
consumers do not mistakenly purchase restraints that are 
incompatible with their vehicle. I really believe also that 
child restraint manufacturers could share that information with 
NHTSA, who in turn could publish it for consumers. Thank you.
    [The prepared statement of Judith Lee Stone follows:]

   Prepared Statement of Judith Lee Stone, President, Advocates for 
                        Highway and Auto Safety

                              INTRODUCTION

    Good morning Mr. Chairman and members of the Subcommittee on 
Telecommunications, Trade and Consumer Protection. My name is Judith 
Lee Stone, I am President of Advocates for Highway and Auto Safety 
(Advocates), a coalition of consumer, health and safety groups and 
insurance organizations working together to reduce motor vehicle deaths 
and injuries.
    Since its inception in 1989, Advocates has been involved in all 
aspects of child safety and protection issues in motor vehicles. 
Advocates has conducted campaigns to promote child safety and child 
restraint use including the ``Children At Risk'' campaign in 1993 and 
the ``Kids, Cars and Crashes'' campaign launched in 1996. Advocates has 
been in the forefront of efforts to enact state laws to improve child 
safety in motor vehicles including amendments to close the gaps in 
existing state child restraint laws. Despite many efforts, there 
remains a long list of states whose occupant protection laws do not 
cover all ages of children in every seating position. (See attached 
chart). We have filed regulatory comments with the National highway 
Traffic Safety Administration (NHTSA) on a wide variety of important 
child safety rules issued by that agency. Advocates has also worked to 
include child safety protection provisions in federal legislation such 
as the Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA) 
and the Transportation Efficiency Act for the 21st Century (TEA-21). 
Most recently, I personally participated as a member of the Department 
of Transportation's Blue Ribbon Panel--Protecting Our Older Child 
Passengers--which issued a set of recommendations one year ago. I also 
serve as a member of the Advisory Board of ``Partners for Child 
Passenger Safety,'' a ground breaking research project at Children's 
Hospital of Philadelphia supported by State Farm Insurance.
    Advocates is well aware of the need for child safety and we have 
documented that this concern is shared by the American public. In a 
1999 poll commissioned by Advocates, the eminent pollster Lou Harris 
found that 93% of the American public overwhelmingly supports the 
federal government in their quest to set highway and auto safety 
standards, including standards for child safety. A 1998 Lou Harris poll 
showed that 90% of the public want better enforcement of child safety 
seat laws.

                            PAST IS PRELUDE

    In the last 20 years there has been extraordinary progress in motor 
vehicle child safety, with improved child safety seat protection and 
adoption of state laws requiring their use. But the more we know, the 
more we are compelled to act in order to ensure maximum protection for 
all children of all ages, on every ride in a motor vehicle. NHTSA has 
been in the lead on improving child safety in a number of ways. For 
example, several years ago, the agency required child restraint 
manufacturers to determine the recommended use of their restraints in 
ranges of height and weight based on testing with different sizes of 
child dummies. More recently, NHTSA issued a rule to require a new 
system of child restraint anchorages in order to reduce the chances of 
incorrect installation of child restraints. New vehicles are already 
being produced with ready-to-use upper tether anchorages that will 
secure the top of the child restraint to the vehicle chasis. By 2002, 
all new vehicles will be required to have the new set of lower 
anchorages that will allow child restraints to be installed without the 
use of the adult lap belt or lap/shoulder belt.
    While the record of NHTSA is commendable in certain respects, and 
Advocates has supported them, there are areas of child safety in which 
the agency has not taken action. First, the testing of child restraints 
should be upgraded. Second, little has been done to provide protection 
for the so-called ``forgotten child,'' between approximately 4 and 8 
years old, who is too old or large for child restraints and too young 
or small for adult seat belts. In this respect, Section 2503 of ISTEA, 
which Advocates lobbied Congress to adopt, required that the agency 
address in regulation the ``safety of child booster seats used in 
passenger cars and other appropriate motor vehicles.'' In response, 
NHTSA made a change in the rules to permit the use of belt-adjusting 
booster seats without an overhead tether, but has taken no other 
regulatory action to address the need for booster seat performance and 
use. Finally, the agency has not adequately addressed the need for 
consumer information on child restraints and child safety. I would 
point out that the lack of adequate resources to pursue safety in all 
areas is one of the major reasons for this deficiency.
    Advocates addressed several aspects of the child restraint issue in 
our 1999 safety report entitled ``Stuck In Neutral--Recommendations For 
Shifting The Highway And Auto Safety Agenda Into High Gear,'' which I 
would like to submit for the record. I have provided the committee with 
several copies of the report. With respect to child restraints the 
report concluded that NHTSA should take action on the following four 
recommendations:

1) expand the scope of the child restraint standard to children who 
        weigh 80 pounds;
2) establish minimum requirements for child booster seats and belt-
        adjusting devices;
3) develop a child test dummy that is representative of a 10-year-old 
        child; and,
4) require that child restraints be dynamically [crash] tested.
Provisions in H.R. 4145 would require NHTSA to address these 
recommendations.

           CHILD PASSENGER PROTECTION ACT OF 2000--H.R. 4145

    I am testifying before you today in support of the Child Passenger 
Protection Act of 2000, H.R. 4145, because it is an important first 
step in attempting to address the three areas mentioned above that need 
to be improved. The bill would direct NHTSA to conduct rulemaking to 
improve child restraint testing and performance, address the protection 
of children who weigh more than the 50 pound limit in the current child 
restraint safety standard, and require understandable labels and safety 
ratings for child restraints. Advocates supports the effort to put 
these issues on the front burner of the agency's rulemaking agenda.

                          TESTING REQUIREMENTS

    If enacted into law, H.R. 4145 would require the NHTSA to consider 
the need for more comprehensive testing procedures including dynamic 
testing that simulates different crash modes and the need to use 
additional child test dummies. The bill would require the resulting 
regulations to minimize child head injuries in side-impact and in 
rollover crashes and to require in-vehicle testing as part of the New 
Car Assessment Program (NCAP). We support most of these proposals.
    There is no doubt that there is room for improvement when it comes 
to the current methods of child restraint testing. Child restraint 
performance is tested on a laboratory sled, not in a full vehicle crash 
test. Add-on (after-market) child restraints, the most prevalent 
restraints purchased in the U.S. are secured to old style, 1950s 
standard bench seats, and for built-in child restraints the seat is 
placed in a partial vehicle shell. Both are mounted on the sled for 
testing. Although this is referred to as dynamic testing, sled testing 
merely simulates crash forces when the sled is suddenly decelerated. 
Since it does not involve a full vehicle in an actual crash, the sled 
test does not provide information on the interaction between the child, 
the child restraint, and the vehicle interior under real-world crash 
conditions. Advocates supports the provision in H.R.4145 that requires 
consideration of the need to conduct more comprehensive and real-world 
dynamic testing of child restraints.
     Such testing should include consideration of an array of crash 
modes, as provided in the bill, geared toward minimizing head injuries 
to children, especially in side-impact crashes. The current sled 
testing only simulates head-on, full frontal crashes. Head and neck 
injuries also occur in side-impact crashes and rollovers. The side-
impact aspect is particularly important as child restraints have no 
current injury requirement for side impact protection. This is a 
problem because child restraints that are now secured with vehicle seat 
belts are frequently placed in the rear outboard seating positions in 
order to take advantage of the three-point, lap/shoulder belts which 
are typically provided in the outboard, but not the center, seating 
positions. In the future, child restraints will be secured in the rear 
outboard seating positions because NHTSA recently adopted a uniform 
anchorage system for child restraints, which goes into effect in 2001. 
The NHTSA rule requires two sets of lower anchorages in the rear seat 
which will most likely only permit child restraints to be secured in 
the outboard seating positions.
    Dynamic side-impact testing is also necessary to ensure that 
interactions between side-impact air bags, now being introduced in the 
market, and children placed in outboard seating positions, are safe and 
compatible for children secured in child restraints, in seat belts, as 
well as for unrestrained child passengers.
    Advocates also supports the need to update and improve the child 
test dummies currently available for child restraint testing. Each type 
of child restraint--rear facing infant, adjustable, forward facing 
toddler and booster seats--should be tested with instrumented dummies 
at the high and low end of each size and weight range recommended by 
the manufacturer. In general, NHTSA is adopting a new set of more 
advanced test dummies, the Hybrid-III test dummies, for use in 
evaluating performance requirements in connection with seat belts and 
air bags under the Occupant Protection Standard (Safety Standard 208). 
This set of better instrumented, more advanced test devices should 
quickly be made part of the testing requirements under the Child 
Restraint Standard (Safety Standard 213). In addition, the existing 9-
month-old child test dummy should only be used for testing infant 
restraints, but it is not large enough to be used to test forward 
facing child restraints. A slightly larger 12-month-old test dummy 
should be used for testing forward facing child restraints. The Child 
Restraint Air Bag Interaction, or CRABI-12 test dummy representing a 
one-year-old child was recently added to the test dummies listed in 
Part 572, Anthropomorphic Test Dummies, of Title 49 Code of Federal 
Regulations. NHTSA should evaluate the use of the CRABI-12 for testing 
rear facing infant restraints or, possibly, forward facing toddler 
seats. The need to add at least one other test dummy, representing 
children over six years of age and 50 pounds, is discussed below in the 
section on booster seats.
    With respect to performance requirements for injury, NHTSA recently 
issued a final rule on advanced air bag systems that includes newly 
revised injury criteria performance levels for head, chest and neck 
injury. For example, the agency adopted a head injury criterion of 700 
HIC for the 6-year-old child test dummy and 530 HIC for the 3-year-old 
child dummy. The agency should, as part of the rulemaking, revise 
Standard 213 to comport with the injury criteria adopted for child 
dummy testing in Standard 208 and consider the need to add a neck 
injury criterion similar to that adopted in Standard 208.
    While Advocates supports real-world dynamic testing in vehicles to 
ensure safety, we are not sure what approach is best to achieve this 
purpose. Using vehicles crash-tested as part of the New Car Assessment 
Program (NCAP) is appealing because NHTSA already conducts both 
frontal- and side-impact crash testing in this program. However, we 
perceive several pitfalls with using NCAP. First, usually only about 40 
or so crash tests are conducted under the auspices of NCAP in a given 
year. This limits the number of child restraints that could be tested 
in this manner. Second, NCAP is a consumer information program which 
conducts crash testing at 35 miles-per-hour (mph), higher than the 
current 30 mph maximum test speed required for testing child 
restraints. This would not be appropriate for compliance testing 
conducted to determine whether child restraints meet performance 
requirements in Safety Standard 213. Finally, NCAP testing is conducted 
with no seat in the back of the vehicle, which is where the 
instrumentation to record the crash is placed. Thus, requiring child 
restraint tests in NCAP vehicle back seats would pose both logistical 
and financial problems for NHTSA. Alternatively, child restraint 
manufacturers could contract either with private crash test centers or 
with the vehicle manufacturers to place child restraints in the rear 
seats of vehicles that are going to be crash tested. At a minimum, a 
limited testing program to validate child restraint performance in the 
sled test should be conducted. NHTSA should evaluate which option best 
promotes child restraint safety.
    Advocates also believes that H.R. 4145 should direct that any 
rulemaking also specifically consider the need to update the design of 
the standard bench seat used in child restraint testing under Safety 
Standard 213. A more realistic seat, or array of seats, including 
possibly contoured, angled and bucket seat designs, should be used to 
appraise child restraint performance in current, real-world vehicle 
models.

                             BOOSTER SEATS

    Advocates whole heartedly supports the language in H.R. 4145 that 
would require consideration of protection for children who weigh more 
than 50 pounds. Advocates has on many occasions stated that children 
roughly between the ages of 4 and 8 years old and older are 
disenfranchised under both state restraint laws and federal occupant 
protection requirements. We firmly believe that the current 50 pound 
weight limit in Standard 213 should be raised to 80 pounds and that 
booster seat performance requirements should be regulated by NHTSA. It 
is essential that minimum performance requirements be established for 
booster seats in order to assure parents that their use is safe for 
older children who no longer fit comfortably in child restraints. NHTSA 
should also undertake an education and publicity campaign to 
disseminate information about the need for, and to promote the use of, 
child booster seats. Adult seat belts, either lap belt only or lap/
shoulder systems, do not afford adequate fit and protection to children 
who are too short or small to use them properly.
    In addition, the agency should develop and adopt a crash test dummy 
representative of a 10-year-old child that can be used in testing 
booster seats. This was among the recommendations of the Blue Ribbon 
Panel on Protecting Our Older Child Passengers, and Advocates fully 
endorses this recommendation. While we understand there may be an 
effort to develop such a test dummy already underway, efforts should be 
made to ensure that it is ready for use in the next two to four years.

                          CONSUMER INFORMATION

    Advocates agrees that labels for child restraints, as well as all 
other safety and warning labels, should be written in language that is 
readily understandable. NHTSA has already made efforts to revise air 
bag labels using clear and concise language and unambiguous depictions 
to communicate information and warnings. The same effort should be made 
to ensure that all child restraint labels are equally effective in 
communicating information and instructions to the public.
    A child restraint rating system is another important step included 
in H.R. 4145 that Advocates supports. The current information available 
to consumers, whether child restraints pass or fail the minimum federal 
requirements, is not sufficient to provide the public with accurate 
information about the comparative safety of child restraints. A rating 
system should be devised to provide information about how well child 
restraints perform above the federal requirements. Ratings could 
individually address several aspects of child restraint safety 
including structural integrity and durability, head, chest and possibly 
neck injury protection in both frontal- and side-impact crashes, the 
degree to which the restraint limits head and knee excursion, and the 
flammability (burn rate) of the material used in the seat covering. A 
child restraint rating system could be modeled on NCAP, in which crash 
tests are conducted above the minimum level for compliance, or 
restraints could be subjected to a test-to-failure approach in order to 
determine maximum performance levels. Regardless of the method chosen, 
a rating system should provide consumers with practical and readily 
understandable information that can be used as the basis for 
comparisons when shopping for child restraints. Advocates will work 
with NHTSA to develop a comprehensive rating system that will be 
informative and useful to consumers.
    As written, H.R. 4145 requires the substantive rulemaking to 
improve child restraint testing standards be completed in two years, at 
the same time the rule establishes the safety rating system. While the 
agency can work on both issues simultaneously, it would be logical to 
require that the improved testing requirements be implemented before 
the rating system takes effect, so that the rating system will reflect 
information on child restraints designed to the improved standards and 
requirements.
    In addition, it is important for child restraint manufacturers to 
inform the public about which vehicle models are not compatible with 
their child restraints. Each child restraint package should be clearly 
labeled with this information so that consumers do not mistakenly 
purchase restraints that are incompatible with their vehicle. This type 
of information is provided by vehicle equipment suppliers for items 
such as windshield wipers and headlamps. There is no reason why this 
could not be accomplished for child restraints, and it would eliminate 
a frustrating and potentially dangerous concern for many parents. Child 
restraint manufacturers could also be required to report this 
information to NHTSA who, in turn, could publish it for consumers.
    Thank you, Mr. Chairman, for the opportunity to address these 
important issues. Advocates is prepared to work with the committee in 
its evaluation of H.R. 4145, and I will answer any questions you and 
the committee may have.

       Children Not Covered By Safety Belt Or Child Restraint Laws
------------------------------------------------------------------------

------------------------------------------------------------------------
Alabama...................................  Younger than 6-yrs. In out-
                                             of-state vehicle, 6+ yrs.
                                             in rear seat
Alaska....................................  all children covered
Arizona...................................  all children covered
Arkansas..................................  5+ yrs. in rear seat
California................................  all children covered
Colorado..................................  all children covered
Connecticut...............................  all children covered
Delaware..................................  all children covered
District of Columbia......................  all children covered
Florida...................................  all children covered
Georgia...................................  all children covered
Hawaii....................................  4+ yrs. in rear seat
Idaho.....................................  4+ yrs. or 40+ lbs. in rear
                                             seat
Illinois..................................  6+ yrs. in rear seat if
                                             driver is 18+ yrs.; all
                                             children if driver is other
                                             than parent/guardian unless
                                             parent provides child
                                             restraint
Indiana...................................  younger than 4 yrs. in out-
                                             of-state vehicle; 12+ yrs.
                                             in rear seat
Iowa......................................  6+ yrs. in rear seat
Kansas....................................  14+ yrs. in rear seat
Kentucky..................................  all children covered
Louisiana.................................  younger than 13 yrs. in out-
                                             of-state vehicle; 13+ yrs.
                                             in rear seat
Maine.....................................  all children covered
Maryland..................................  all children covered
Massachusetts.............................  all children covered
Michigan..................................  all children covered
Minnesota.................................  11+ yrs. in rear seat
Mississippi...............................  8+ yrs. in rear seat
Missouri..................................  all children covered
Montana...................................  all children covered
Nebraska..................................  all children covered
Nevada....................................  all children covered
New Hampshire.............................  all children covered
New Jersey................................  5+ yrs. in rear seat or
                                             pickup truck
New Mexico................................  11+ yrs. in rear seat
New York..................................  10+ yrs. in rear seat
North Carolina............................  all children covered
North Dakota..............................  all children covered
Ohio......................................  4+ yrs. & more than 40 lbs.
                                             in rear seat
Oklahoma..................................  13+ yrs. in rear seat;
                                             younger than 13 yrs. if
                                             driver is nonresident of
                                             state
Oregon....................................  all children covered
Pennsylvania..............................  4+ yrs. in rear seat
Rhode Island..............................  all children covered
South Carolina............................  younger than 6 yrs. in out-
                                             of-state vehicle; 6+ yrs.
                                             in rear seat without
                                             shoulder belt
South Dakota..............................  5+ yrs. in rear seat
Tennessee.................................  13+ yrs. in rear seat
Texas.....................................  15+ yrs. in rear seat
Utah......................................  all children covered
Vermont...................................  all children covered
Virginia..................................  all children covered
Washington................................  all children covered
West Virginia.............................  all children covered
Wisconsin.................................  8+ yrs. in rear seat without
                                             shoulder belt
Wyoming...................................  all children covered
------------------------------------------------------------------------


    Mr. Tauzin. By the way, as a consumer who just bought a 
universal remote for his television set that doesn't work, and 
I called the manufacturer he said oh, yeah it won't work for 
your set. I said why do you call it universal? I understand 
your point. Thank you. Mr. Tom Baloga, president of Britax 
Child Safety Incorporated, on behalf of Juvenile Products 
Manufacturers Association. Mr. Baloga.

                     STATEMENT OF TOM BALOGA

    Mr. Baloga. Thank you, Mr. Chairman. I am Tom Baloga. 
President of Britax Child Safety. I was formerly with Mercedes 
Benz of North America, manager of safety engineering; and I am 
the proud father of four children, and I am pleased to provide 
comments here today on behalf the Juvenile Product 
Manufacturers Association. The JPMA is a not-for-profit trade 
association whose 200 members manufacture and produce a variety 
of children's products. Our membership includes all of the 
domestic manufacturers of child restraint systems.
    Clearly, children are unsafe at any speed if not in a car 
seat. The need for child seats is clear. It is essential to 
understand the important function that these seats perform. It 
is clear that unrestrained small children are unsafe at any 
speed. It is extremely dangerous for children to ride without 
proper protection in a motor vehicle at any time under any 
circumstances.
    Children have been killed or seriously injured on what 
parents may perceive as routine trips. Unrestrained children 
are more likely to be killed or to suffer severe injuries if 
they are being held in the arms of an adult or if they are 
ejected from the vehicle. Almost all fatal and serious unjuries 
to unrestrained children result from head or spinal injuries, 
which are particularly debilitating. Unrestrained children 
being held in the arms of an adult are crushed or released and 
ejected from the vehicle. An unrestrained child is also in 
danger of being injured in certain common every day driving 
incidents even if the crash is not severe. Additionally, 
unrestrained children cause accidents which endanger not only 
the children but every other person on the road.
    Child car seats are specifically designed to decelerate 
children in a controlled manner and restrain them to prevent as 
much as possible their striking the vehicle interior during a 
collision. They are designed to provide more protection for 
small children than a standard vehicle safety belt in a vehicle 
which is designed for adults. They work by using a safety 
harness or shield to distribute crash forces over a large area 
of the child's fragile body and very importantly they link the 
child to the vehicle's crumple zone. The vehicle plays a very 
important role in this process.
    Manufacturers are required to certify compliance before 
they market these seats. Every child seat must bear the 
manufacturer's certification by way of a label that they are 
certified and the testing, sufficient testing has been done 
prior to say sale on the market. Manufacturers conduct these 
tests with their own laboratory test sleds or by using the same 
laboratory sleds used by the NHTSA.
    Child car seats are probably the single most effective 
safety device ever developed for use in motor vehicles. When 
correctly used, the car seat reduces a child's risk of death or 
serious injury in a crash by 70 percent. With 100 percent 
correct usage, even greater reductions could be achieved. In 
comparison, adult lap and shoulder belts are 40 to 50 percent 
effective in preventing fatalities and 45 to 55 percent 
effective in preventing seriour injuries. This is impressive 
real-world experience and an indication of the effectiveness of 
child car seats. That is even more impressive when one 
considers that this is being achieved in a truly violent 
environment. Given this violent environment, there is no doubt 
that fatalities do occur. Unfortunately, children continue to 
die in automobile accidents. Most of the deaths involve 
unrestrained children. In fact, in 1998 half the fatalities 
were unrestrained children.
    It would be nice to think that every life could be saved, 
but the answer to the question is clearly no. Vehicle crashes 
involve force that can be catastrophic. Lap and shoulder belts, 
child care seats, and even air bags provide a certain degree of 
protection but cannot provide absolute protection. Misuse is a 
significant problem that, while showing signs for improvement, 
has not been truly abated. We believe that misuse must be 
addressed very aggressively.
    The good news is that in the real world even partially 
misused child seats continue to provide good crash protection.
    And in closing, I would just like to say that we believe 
that we have gone a long way with the NHTSA working together 
toward coming up with the LATCH system, which is lower anchors 
and tethers for children that was an initiative between 
industry and government; and we think that the results are very 
impressive and we will continue to improve as time goes on with 
the system. Thank you very much.
    [The prepared statement of Tom Bologa follows:]

 Prepared Statement of Tom Baloga, President, Britax Child Safety, on 
         Behalf of Juvenile Products Manufacturers Association

    The Juvenile Product Manufacturers Association is a not-for-profit 
trade association whose 200 members manufacture and produce a variety 
of children's products. These products range from cribs, high chairs, 
strollers, playpens, bedding, decorations, to an immensely diverse 
range of products designed to help parents care for their children. Our 
membership includes all of the domestic manufacturers of child 
restraint systems. Currently, there are seven major manufacturers or 
distributors of child restraint systems who account for more than 95% 
of the market.

         CHILDREN ARE UNSAFE AT ANY SPEED IF NOT IN A CAR SEAT

    The need for child car seats is clear. I am here today to report on 
our industry's view of the State of the Union with regard to the use 
and effectiveness of child car seats. First, it is essential to 
understand the important function that these seats perform. It is clear 
that unrestrained small children are unsafe at any speed. Too many 
accident investigations conducted by the National Transportation Safety 
Board (NTSB) show that it is extremely dangerous for children to ride 
without proper protection in a motor vehicle at any time, under any 
circumstances. Children have been killed or seriously injured on what 
parents may perceive as routine trips; within yards of the family home 
or while going to or returning from shopping, a baby-sitter, a 
relative, a local restaurant or a family trip to the ice cream store. 
Unrestrained children are more likely to be killed or to suffer severe 
injuries if they are being held in the arms of an adult or if they are 
ejected from the vehicle. Almost all fatal and serious injuries to 
unrestrained children result from head or spinal injuries when they are 
propelled into the instrument panel, windshield or other interior 
surfaces, or from the vehicle or into other restrained articles or 
persons in the vehicle. Unrestrained children being held in the arms of 
an adult are often crushed into the instrument panel or other interior 
surfaces by the weight and acceleration of the adult holding them or 
ejected from the vehicle and crushed when they collide with exterior 
surfaces such as another vehicle or the pavement. An unrestrained child 
is also in danger of being injured in certain common everyday driving 
incidents, even if the vehicle is not involved in a crash, such as 
sudden stops, swerves, turns and falling out of the vehicle. 
Additionally, unrestrained children can cause accidents which endanger 
not only the children involved, but every other passenger in that 
vehicle.

                        HOW CHILD CAR SEATS WORK

    Child car seats are specially designed to decelerate children in a 
controlled manner and restrain them to prevent, as much as possible, 
their striking the vehicle interior during a head-on collision or 
sudden stop. They are designed to provide more protection for small 
children than a standard vehicle safety belt. They work by using a 
safety harness or protection shield, or both, to distribute the crash 
forces over a larger area of the child's fragile body.
    These seats are required to comply with the Federal Motor Vehicle 
Safety Standard 213, Child Restraints, which require the seats to be 
configured to certain dimensions, to be labeled and provide important 
instructions on correct usage, to be fire-resistant, and to conform to 
certain dynamic performance criteria to ensure proper force 
distribution and restraint of the child. Compliance with FMVSS 213 is 
administered by the National Highway Traffic Safety Administration 
(NHTSA), whose test programs extensively check for compliance by 
conducting large scale compliance testing of actual child car seats 
produced and available in the marketplace. This represents testing of 
hundreds of various car seat models annually. Manufacturers are 
required to certify compliance before they market these seats. 
Manufacturers conduct pre-market dynamic tests with the same 
independent laboratories used by the National Highway Traffic Safety 
Administration in its compliance program.

 CHILD CAR SEATS ARE A RELATIVELY SAFE HARBOR IN A VIOLENT ENVIRONMENT

    Child car seats are probably the single most effective safety 
device ever developed for use with a motor vehicle. When correctly 
used, a car seat reduces a child's risk of death or serious injury in a 
crash by 70%. With 100% correct usage, even greater reductions in risk 
of death could be achieved. In comparison, adult lap and shoulder belts 
are 40-50% effective in preventing fatalities and 45-55% effective in 
preventing serious injuries for the population as a whole. This is an 
impressive, real world indication of the effectiveness of child car 
seats. It is even more impressive when one considers that this is being 
achieved in a truly violent environment.

                          NON-USE IS A PROBLEM

    Given this violent environment, there is no doubt that fatalities 
do occur. Unfortunately, children continue to die in automobile 
accidents. Most of the deaths involved unrestrained children.
    As might be expected, the number of fatalities among restrained 
children has risen as child car seat and adult belt usage increases. 
Our analysis indicates that the incidence of fatalities involving child 
car seats in use is extremely low and shows relatively little deviation 
from year to year.
    It would be nice to think that every life could be saved but the 
answer to the question--Can all lives be saved?--is clearly no. 
Automobile crashes involve forces that are beyond our ability to cope 
with. Lap and shoulder belts, child car seats and even air bags can 
only provide a certain degree of protection. Fatalities and injuries do 
occur.
    Consider that the use of child car seats increased significantly 
over the last two decades, when it was estimated that child car seat 
use was only about 15%. These figures indicate significant and 
substantial progress in getting parents to use child car seats during 
the last two decades. This increase in usage, in large part, can be 
attributed to intensive efforts by child passenger groups and the 
enactment in all fifty states and Washington, D.C. of child passenger 
protection laws, which in varying degrees require use of a child 
restraint system in vehicles.

                          MISUSE IS A PROBLEM

    Misuse is another significant problem that, while showing signs of 
improvement, has not been truly abated. We believe that misuse by 
almost a quarter of the users of child car seats is still not 
satisfactory. Failure to properly anchor the child car seat to the 
vehicle with the adult seat belt, improper seat belt routing and 
failure to use the child's harness and/or shield properly are the major 
types of misuse that is prevalent. User apathy plays the largest part 
of this misuse. It is not enough for a parent to own a car seat. It is 
not enough for a parent to place that car seat in their car if it is 
not properly belted and used. Unfortunately, studies have shown that 
users often are not attentive enough, or worse yet, realize they are 
not properly using a car seat (i.e., facing the child in the wrong 
direction or not using the harness properly).
    The good news is that in the real world it is apparent that even 
partially misused child car seats continue to provide some crash 
protection in real-life crash situations. However, grossly misused car 
seats provide little or no protection.
    Child restraint system manufacturers have attempted to combat 
misuse by making their designs easier to use and more resistant to 
misuse. For instance, child safety seat models are now made to easily 
tether to the vehicle anchorage points which all vehicles produced 
since September 1999 are required to have installed. We believe the 
Lower Anchor Tethers for Children (``LATCH'') system requirements will 
prove very effective in combating misuse. All cars and seats now 
contain the easier to use LATCH system. Some models of seats contain 
automatic locking straps, similar to the types used on adult safety 
belts. We applaud recent collaborative efforts aimed at promoting 
proper use of car seats, however, in the final analysis, only the 
user--the parent of the child--can make sure that the seat is used and 
securely attached in their vehicle.

                    COMMENTS ON S. 2070 AND HR 4145

    The proposed legislation suggests that NHTSA should refine and add 
testing requirements to existing standards for child car seats. While 
we agree that test conditions employed to test the FMVSS 213 should 
reflect ``real world'' conditions, we have to be careful to avoid an 
overly simplistic approach. We certainly support standardized labeling 
where possible. As to the other provisions of the proposed bills, 
please note the following:
    (1) Side impact and rollover testing does not add to the benefits 
provided by car seats. Because rollovers are generally considered non-
repeatable events, it would be extremely difficult, if not impossible, 
to establish a test protocol which is, by definition, repeatable. 
Moreover, rollover testing is destructive in nature, as such, the tests 
costs could be prohibitively expensive and would likely price some 
consumers out of the market. There is no protocol for side-impact 
testing, and we are unsure what, if anything, side impact testing would 
teach us.
    Child restraints are currently designed to minimize these types of 
injuries. It is our position that NHTSA needs to address this issue 
carefully because in many instances providing additional protection for 
potential head strikes could have an overall negative effect on the 
performance of the car seat. For example, in many situations head 
excursion may be reduced but the result is also a significant increase 
in neck loads which may result in very serious injury to the occupant. 
As for side-impact protection, most restraints manufactured by the 
industry today do provide side-impact protection. Although we would 
examine this issue with NHTSA, it is well accepted that the vehicle 
itself provides the greatest protection in side-impact collisions. 
However, we are willing to work with NHTSA to discuss whether rollover 
or side impact testing standards could be useful.
    (2) NHTSA should consider the use of test hardware that reflects 
the designs of passenger motor vehicles. JPMA members have encouraged 
NHTSA for some time to update the sled test bench to a more 
contemporary design. Test equipment which reflects an artificial 
laboratory environment should be modified. We believe that the current 
sled bench used may actually result in a more severe simulated crash 
environment than is actually present in the real world.
    (3) JPMA would support use of a greater variety of anthropometric 
dummies for testing, provided they are available for testing by 
industry and the cost of such testing does not increase the cost of 
products to consumers. Most of our member companies would consider 
testing with additional anthropometric dummies. However, the dummies 
will need to first be specified by NHTSA, and then will need to be 
built by dummy manufacturers. These products would then have to be 
widely available at the same cost as current dummy testing.
    (4) JPMA would support NHTSA's regulation of restraints (boosters) 
for children above fifty pounds. We agree with this recommendation. Per 
the NTSB's recommendation, boosters should be regulated to 80 pounds.
    (5) A rating system is only valuable if everyone understands what 
is being rated. Child restraints provide proven benefits to children 
involved in crashes. Child restraint manufacturers acknowledge and 
understand that some people may want a rating system for child 
restraints. However, due to the complexity and variety of real-world 
crashes, the wide variety of vehicle configurations, and differences 
among child occupants, a simple rating system based on the current 
Standard 213 and without an up-to-date real-world analysis of crashes 
would be premature and flawed. A flawed rating system is far worse than 
no rating system because consumers would be deceived.
    Based on years of experience, child restraints have proven to do an 
excellent job in real-world crashes, but no child restraint can do its 
job when it is not used, when misused, when involved in a catastrophic 
crash and/or when excessive vehicle structural intrusion occurs. How 
would you rate these possibilities?
    The issue of proper installation is already substantially addressed 
with the new LATCH system. Before a rating system is initiated, it is 
critically important for NHTSA to evaluate real-world crashes involving 
children restrained in child restraints and determine what aspects of 
lab test performance are actually relevant to a rating system.

           CHILD PASSENGER SAFETY IS A CONTINUING OBLIGATION

    As an association dedicated to children, we also believe that it is 
important not to overlook the importance of continued public education 
about the importance of seatbelt use among children past the toddler 
stage, that is to say, over four years of age. Parents who have a child 
who has graduated from a child car seat or booster seat should be urged 
to use the vehicle's lap and shoulder belts.
    Belts should never be shared, and the common misuse of placing the 
shoulder strap behind the child's back should be avoided. Two children 
sharing the same seatbelt in a collision can result in a tremendous 
increase in the injury severity to both children as they collide 
violently into one another. The heads and shoulders of the children can 
strike one another. Failing to use the shoulder belt places the child 
in a lap-only belt situation. A lap belt can cause serious spinal, head 
or abdominal injuries to a child. A recent review of fatality data by 
the Children's Hospital of Philadelphia found that car seats are 
currently 95+% effective, even when misused. Lap shoulder belts should 
be used correctly, just as a child safety car seat must be used 
correctly to receive full crash protection. Keep in mind that 
physiology and anatomy of children is not the same as adults. There is 
a greater need to distribute the force of a crash impact more evenly 
over a child's body. This is aided by the use of both the lap and 
shoulder belts. Obviously, when using the shoulder belts, parents 
should make sure the child is old and large enough so that the shoulder 
belt fits correctly. The good news is that it seems that children are 
much more attuned to wearing lap and shoulder belts than were their 
parents. This rise in usage continues.
    The JPMA recommends, however, that children be kept in child 
restraint systems as long as possible. A restraint especially designed 
for a child's body is always to be preferred over a seat belt which is 
designed for an adult's body.

                      RECOMMENDATIONS AND COMMENTS

    The most serious problem continues to be the non-use and misuse of 
child car seats. Significant strides have been made to improve the use 
and minimize the misuse of child car seats over the last seven years. 
There is much to be done. It is still not satisfactory when millions of 
children are not receiving the benefits of child car seats, despite 
child passenger protection laws in all fifty states. The industry has 
made significant improvements in designing child car seats that are 
easier to use and which afford significant protection to children in 
the violent world of vehicle collisions and accidents.
    The greatest enemy in this battle for wider proper usage of child 
car seats (and it is a battle) is apathy. The primary goal of all of us 
should be to increase use of child car seats. They are effective in 
saving children's lives and preventing serious injury to children. It 
is important that the public be reminded of their usage as often and 
through as many means as possible. Even when partially misused, child 
car seats offer significant protection to children in vehicles. If the 
premises of the proponents of this Act is that properly used child 
restraints are not working, then I would suggest they are mistaken. 
While we should always strive for improved standards, we should 
acknowledge how extraordinarily effective currently produced child 
restraints are in saving lives and preventing serious injury.
    The media must and can play an important role in educating the 
public. Reporters have themselves conceded that it is unfortunate that 
all too often the media only understands the value of a story if is it 
sensationalized. Nothing is more tragic than the scene of an accident 
where a child has been killed needlessly because that child was not 
placed in a child car seat; it would help tremendously if the next time 
a reporter reports on a traffic accident (whether it be by television, 
radio or newspaper), he or she indicated whether the occupants of the 
vehicles involved in that accident were wearing seatbelts or whether 
children were placed properly in a child car seat or not. If made a 
general practice, something as simple as that could have a profound 
long-term beneficial effect with the public.
    The existence of child passenger protection laws in all fifty 
states was a significant step forward in increasing use rates for child 
car seats. But a law in and of itself does not save lives. In order for 
such laws to continue to have an effect, they must be vigorously 
enforced with the active support of local law enforcement officials. 
Loopholes and exemptions which exist in a variety of state laws must be 
eliminated. It is not sufficient for a law to allow an infant or small 
child to be removed from that seat for the purpose of changing its 
diaper or feeding when the car is in motion. Local police officers 
should be rewarded for issuing citations. Next time you have a few 
minutes at home, call you local police department and ask them how many 
citations they have issued in the past year to drivers who have failed 
to place small children in their cars in child car seats. Also, fines 
should be increased for failure to abide by these laws.
    To the public, I say the next time you see someone in a car with a 
small child who is not in a car seat, don't be embarrassed--say 
something. It is important to constantly publicize and provide funding 
for the education of the public on this important issue. I know 
industry will work with consumers and government in trying to get the 
message out and remind users of child car seats to use them 
consistently. When you get in that car with your child it should be 
second nature to you to buckle your child up and then to buckle 
yourself up and make a point of telling the child that it is important. 
Take a few minutes out periodically just to check and make sure the 
child car seat is securely anchored to your vehicle and make sure the 
harness or shield is used properly and don't cave in to the crying and 
wiggling of a child who wants to get out of their seat. The momentary 
inconvenience to you and your child might one day mean the difference 
between life and death.

    Mr. Tauzin. Thank you, Mr. Baloga.
    Now, Dr. Malcolm Currie, president, CEO, Currie 
Technologies of Agoura Hills, California. Mr. Currie.

                 STATEMENT OF MALCOLM R. CURRIE

    Mr. Currie. Thank you, Mr. Chairman. I am president and CEO 
of Currie Technologies. My name is Malcolm Currie. I am going 
to submit a statement which outlines the gratitude we have for 
James Rogan for sponsoring the bill, Lois Capps on the other 
side. It is a noncontroversial but yet extremely important bill 
and also the many staff members who worked with us.
    Let me tell you a little bit about our industry. The 
electric bicycle industry is comprised of a growing number of 
companies, both domestic and overseas, who have made great 
strides in the last few years to develop affordable and 
accessible electric-powered vehicles for mass distribution. 
Electric bicycles comprise a new product category of the 
products we make, such as the bicycle you see in front of you 
here today. And the pictures on the poster are, in essence, 
regular bicycles with small electric motors attached and 
batteries to drive them. The purpose of the motors is to 
provide a clean nonpolluting power-assist to the rider. This 
allows more people to use more bikes in more situations.
    Mr. Tauzin. Dr. Currie for the sake of our audience, what 
is the difference between that bike and a moped.
    Mr. Currie. A moped is generally higher. These are fairly 
lightweight, regular bicycles. Moped you will see much heavier 
plastic around it. It is more like a light-motor cycle. A 
typical moped is gasoline operated. And you use the pedal only 
to get it started, then it just runs on the gasoline engine. 
The gasoline engine has many times the power of these little 
electric motors.
    Mr. Tauzin. So the basic difference is that this is a 
regular bike with a battery-powered assist motor.
    Mr. Currie. Yes, sir.
    Mr. Tauzin. As the moped, which is generally a much larger, 
heavier unit with a gasoline or some other powered engine 
attached.
    Mr. Currie. That is correct. These bicycles, their top 
speed is 16 to 18 miles an hour. That is the fastest they can 
go, even if you are pedaling with them. A typical moped and 
within the NHTSA regulations that can go up to 30 miles an hour 
for extended periods.
    Mr. Tauzin. Thank you, sir.
    Mr. Currie. The customers include older riders and those 
with disabilities, who may be otherwise unable to travel by 
bicycles. They include law enforcement agencies. Well over 200 
of them are using them regularly on patrol today; and numerous 
other constituencies nationwide will find that electric 
bicycles increase the practicality of bicycles. And in fact, 
many and a growing population are using them for commuting when 
they cannot afford automobile transportation.
    The electric bikes all have something in common. They are 
essentially regular bicycles, as I mentioned, using typical 
bicycle frames and bicycle components. The motors are very low 
powered, low speed. The top speed of all of our products is 16 
to 18 miles an hour. They all produce zero air pollution.
    To put the electric bicycle in further perspective, it is 
easy for us all to visualize an average person can produce 
roughly 140 or 150 watts of power for perhaps 1\1/2\ or 2 hours 
before they get exhausted. A top athlete like Lance Johnson, of 
course, and it is in one of those upper corners on the poster, 
can maintain a speed of 25 miles an hour for many hours using a 
very lightweight racing bike. By contrast, a typical electric 
bike without pedaling can go at 12 miles an hour or so for 90 
minutes at which time the battery will need recharging. The 
simultaneous pedaling while using the motor as an assist it can 
go longer at low speed because battery power is thereby 
conserved.
    Mr. Tauzin. About how much longer?
    Mr. Currie. It depends upon how much energy the rider wants 
to put in. Typically a bicycle like that without pedaling for 
an average weight will go 15 to 20 miles. You can extend it to 
30 miles on the level if you put in just a little bit of 
energy; and it really doesn't require your pulse rate to go up 
very much.
    By comparison, and this gets back to your question of the 
moped, in even the smallest gasoline-powered moped has at least 
5 horsepower compared to 1 or less here and can sustain a speed 
of 30 miles an hour or more for several hours without 
refueling. The electric bike, therefore, maintains what we call 
human equivalency. And the purpose of the motor is mainly to 
help climb hills at very low speeds. And for night operation, 
there is a plethora of small after-market bicycle lights that 
can handle night riding.
    Now, why is H.R. 2592 necessary? The purpose of the bill is 
very simple. It is to provide a uniform national definition of 
electric bikes and to ensure that the Consumer Product Safety 
Commission regulates these products as they do all other 
bicycles. The legislative remedy is necessary because NHTSA 
currently interprets the statutory definition of motor vehicle 
as applying to bicycles with low-power motors that cannot 
operate independently of pedaling, thereby subjecting them to 
motor vehicle requirements.
    This means the addition of a large array of costly and 
unnecessary equipment, brake lights, turn signals, automotive-
grade headlights, fairly large headlights, powerful headlights, 
et cetera. This increases the cost tremendously, and the 
additional cost and waste and power drain of these devices 
would effectively kill the growing market for electric bikes.
    NHTSA has taken this position only because it is the only 
position they could take within the current law. And the 
electric bike, as I mentioned, is defined in this proposed 
legislation as a new product category. I would like to make it 
absolutely clear at this point that our industry is firmly in 
favor of safety standards. In fact, we believe very strongly 
that safety standards are essential to the long-term success of 
our industry. And we introduce new improvements all the time 
adding to safety.
    Our point is merely that these vehicles should be subject 
to bicycle safety standards, since they are indeed bicycles, 
and should not be subjected to motorcycle-type safety standards 
since they are clearly not even light motorcycles or mopeds. 
H.R. 2592 would ensure that this would be the case. Not only is 
this legislation noncontroversial and much needed, but it is 
also pro Americans with disabilities, pro elderly, pro safety, 
and pro environment. A lot of good stuff there.
    Many disabled riders are able to employ electric bicycles 
to provide them freedom of mobility without the cost or stigma 
of an electric wheelchair. Because of electric bicycles, older 
Americans are now reaping the benefits of increased exercise 
and life-style flexibility enjoyment of the outdoors. Electric 
bicycles provide effective low-cost transportation and 
particularly for those who cannot afford automobiles. Law 
enforcement operators, a large and crucial segment of our 
market, are finding electric bikes extremely practical in 
patrolling neighborhoods and downtowns. Electric bicycles 
preserve our environment, reduce air pollution, reduce 
congestion, conserve energy, and enhance the quality of life 
for all Americans.
    Mr. Chairman, this bill enjoys widespread support in our 
industry, and in this statement is a list of a number of the 
companies involved. One again, I thank the subcommittee for its 
time and urge favorable consideration of this bill. And a 
couple of my colleagues are in the audience, we are available 
to answer any questions that you may have.
    [The prepared statement of Malcom R. Currie follows:]

  Prepared Statement of Malcolm R. Currie, President and CEO, Currie 
                           Technologies, Inc.

    Mr. Chairman, Members of the Subcommittee, my name is Dr. Malcolm 
Currie. I am President and CEO of Currie Technologies, Inc., and am 
here today on behalf of the entire domestic electric bicycle industry. 
With me are representatives from two of the other largest companies in 
the U.S. electric bicycle industry: Mr. Warren Dennis of the Electric 
Transportation Company, and Mr. Doron Amiran of ZAPWORLD.COM.
    Mr. Chairman, I would like to begin by thanking you not only for 
holding this hearing, but also for the interest you have shown in this 
non-controversial, yet extremely important legislation. I would also 
like to thank Full Committee Chairman Bliley and Ranking Minority 
Member Dingell for their bipartisan support of Committee action on this 
bill. Most importantly however, I want to pay special recognition to 
Congressman James Rogan who is not only the sponsor of this 
legislation, but whose dedication, perseverance, and commitment made 
today possible. And, as a further affirmation of the bipartisan support 
for their bill, a word of appreciation for Congresswoman Lois Capps who 
has also worked tirelessly on behalf of our cause.
Industry Overview
    Mr. Chairman, before explaining the details of the bill you have 
before you, and the reasons why it is so crucial to our young industry, 
I would like to take just a few moments to outline who we are.
    The electric bicycle industry is comprised of a growing number of 
companies--both domestic and overseas--who have made great strides in 
the past few years to develop affordable and accessible electric 
powered vehicles for mass distribution. Electric bicycles comprise a 
new product category. The products we make, such as the bicycle you see 
before you here today, are bicycles, with small, low-powered motors 
attached. The purpose of the motors is to provide a clean, non-
polluting power-assist to the rider. This allows more people to use 
bikes in more situations.
    To date over 40,000 electric bikes have been sold in the U.S. 
alone, and we believe this represents just the tip of the iceberg. 
Customers include older riders, and those with disabilities who may be 
otherwise unable to travel by bicycle; law enforcement agencies--well 
over 200 of whom are using electric bikes on patrol--who use electric 
bikes in their community policing programs; and numerous other 
constituencies nationwide who find that electric bicycles increase the 
practicality of a bicycle. Many are now being used for commuting to 
work, often by people who cannot afford automobile transportation.
    Although electric bikes come in many styles and designs, they all 
share a few common features:

<bullet> They are essentially bikes, using typical bicycle frames and 
        components.
<bullet> The motors are low speed--the top speed of all our products is 
        16-18 mph.
<bullet> They all produce zero air pollution.
    To put the electric bicycle in further perspective that is easy for 
us to visualize, an average person can produce roughly 150 watts of 
power for perhaps a couple of hours before exhaustion. This is 
sufficient to pedal a regular bicycle at a speed of about 15 mph for 
perhaps 90 minutes. (Of course, a top athlete like Lance Armstrong 
could maintain a speed of 25 mph for many hours.) By contrast, a 
typical electric bicycle without pedaling can go at 12 mph for about 90 
minutes at which time the battery will need recharging. With 
simultaneous pedaling while using the motor as an assist, it can go 
longer because battery power is thereby conserved.
    By comparison, even the smallest gasoline-powered moped has at 
least 5 horsepower and can sustain a speed of 30 mph or more for 
several hours without refueling.
    The electric bike therefore maintains what we call ``human 
equivalency'' and the purpose of the motor is mainly to help climb 
hills at very low speeds. For night operation, a number of powerful 
after-market lights are adequate (same as for a regular bicycle).
HR 2592
    What is HR 2592 and why is it necessary?
    HR 2592's purpose is simple: to provide a uniform national 
definition of electric bikes, and to ensure that the Consumer Product 
Safety Commission regulates these products, as they do all other 
bicycles.
    A legislative remedy is necessary because the National Highway 
Traffic Safety Administration currently interprets the statutory 
definition of ``motor vehicle'' as applying to bicycles with low 
powered motors that can operate independently of pedaling, thereby 
subjecting them to motor vehicle requirements. Subjecting electric 
bicycles to motor vehicle requirements would mean the addition of a 
large array of costly and unnecessary equipment--brake lights, turn 
signals, automotive grade headlights, rear view mirrors, and more. 
These additions would raise the cost of an electric bicycle by hundreds 
of dollars, in many cases doubling the cost of the bike. This would 
effectively kill the growing market for electric bikes.
    NHTSA has never indicated that they have taken this position 
because it is good policy. Rather they have claimed that existing law 
requires them to do so.
    I would like to make it clear at this point that our industry is 
firmly in favor of safety standards. In fact, we believe very strongly 
that safety standards are essential to the long-term success of our 
industry. Our point is merely that these vehicles should be subjected 
to bicycle safety standards, since they are indeed bicycles, and should 
not be subjected to motorcycle safety standards, since they are clearly 
not even light motorcycles or mopeds. HR 2592 would ensure that this 
would be the case.
    Not only is this legislation non-controversial and much needed, but 
it is also pro-Americans with disabilities, pro-elderly, pro-safety, 
and pro-environment.

<bullet> Many disabled riders are able to employ electric bicycles to 
        provide them freedom of mobility without the cost or stigma of 
        an electric wheelchair.
<bullet> Because of electric bicycles, older Americans are now reaping 
        the benefits of increased exercise and lifestyle flexibility.
<bullet> Electric bicycles provide effective low-cost transportation, 
        and particularly for those who cannot afford automobiles.
<bullet> Law enforcement officers, a large and crucial segment of our 
        market, are finding electric bikes extremely practical in 
        patrolling neighborhoods and downtowns in a manner consistent 
        with the highly successful emphasis on ``Community Policing'', 
        and,
<bullet> Electric bicycles preserve our environment, reduce air 
        pollution, reduce congestion, conserve energy, and enhance the 
        quality of life for all Americans.
    Mr. Chairman, this bill enjoys widespread support in our industry. 
The list of organizations supporting HR 2592 includes: Electric Cycle 
Association; Diamondback Bicycles; ZAPWORLD.COM; EV Global Motors; 
Electric Transportation Company; Total EV (subsidiary of CSW 
Utilities); Currie Technologies Incorporated; and Raleigh Cycle USA
    Once again, I thank the Subcommittee for its time and urge 
favorable consideration of this bill. My colleagues and I are available 
to answer any questions you may have.

    Mr. Tauzin. Thank you, Dr. Currie.
    We are now going to switch gears again and hear a little 
bit about burn safety, and we hear from Dr. David Herndon of 
the Shriners Burn Hospital in Galveston, Texas. On behalf of 
the American Burn Association and the Shriners Hospitals for 
Children, Dr. Herndon.

                  STATEMENT OF DAVID N. HERNDON

    Mr. Herndon. Thank you, Mr. Chairman. It is a great honor 
to be able to testify today. I have with me today the chairman 
of the board of the Shriners Hospital, John VerMaas; the 
chairman of the board emeritus, Mr. Gene Bracewell; and the 
chief of staff of the Shriners Burns Hospital in Boston, Ron 
Tompkins, who is also president of the American Burn 
Association. There are also members of the Safe Environment for 
Children Fire Coalition here today.
    What we would like to testify for is expansion of 
flammability standards for children, not restrictions. Since 
the Commission withdrew requirements for protection of children 
between the ages of 0 and 9 months of age and for close-fitting 
clothing in the year that began in 1997, we have compared the 
incidents of flame injury at the Shriners Hospitals, at our 
four different hospitals between the years 1995 and 1996 and 
the years after the regulations were decreased, 1998 to 1999. 
As is present after page 23 in the written testimony that I 
provided, the number of burn patients in which sleepwear of the 
first thing ignited in the accident increased from 14 pre-
reduction in regulation to 36, 157 percent increase between 
those 2 periods.
    We also saw 110 percent increase in clothing-related 
injuries and a 43 percent increase from 218 to 311 in burns 
that were caused by fire that we could not isolate the cause of 
burning injury precisely. Many of those probably did involve 
sleepwear. But we, as health care individuals, are not 
gathering labels in the emergency room. We are thinking more 
about saving the patients. The data that was used by the 
Commission to determine that there has been no increase in 
incidence of injury since the withdrawal of regulations draws 
upon a hundred sample of emergency rooms from around the 
country. Only four burn units are represented there in that 
sample, and three of those do not admit children. One is the 
Massachusetts General, run by Dr. Tompkins who is here with us 
today. Children are admitted directly to the Pediatric Burns 
Institute of the Shriners in Boston. Kings County in Brooklyn, 
pediatric burn patients are admitted to the New York Hospital 
in the city of New York. Kansas City Children's Hospital, 
patients in that district are admitted to the Galveston Burn 
Unit for treatment of burns.
    So a sampling error has been made in data collection that 
has allowed us to let go unrecognized the fact that children 
under 9 months of age who are no longer protected by having 
fire retardant placed in their sleepwear have had an increase 
of 167 percent in sleepwear-related injuries between the period 
when the protections were present and the current era when the 
protections are not present. Detailed data are available in my 
testimony that has been submitted, but I want to share with you 
a couple of examples.
    LT, a 5-month-old whose sleepwear was caught on fire, 
sustained an 18 percent total body surface burn. LT no longer 
has a foot.
    JD, a 9-month-old child who was sleeping in bed when one of 
his siblings came and lit his clothing on fire with a cigarette 
lighter, sustained a 45 percent total body surface burn. He is 
still rehabilitating.
    A child in her mother's arms is depicted. And then we go to 
tight-fitting clothing. JF, a 4-year-old who was wearing close-
fitting long underwear, a bunny suit, brushed against a candle 
in his family's dining room. He sustained a 15 percent total 
body surface burn, burning the surface of his back rather 
seriously.
    A 2-year-old child on whom a candle fell on top of his 
sleepwear. The sleepwear caught fire, and the flames went to 
his face. His face is now scarred for life.
    Another case of a 50 percent total body surface burn in 
tight-fitting clothing.
    I would like to describe another child, Dorian Morales, one 
that was briefly alluded to before, who is in a bunny suit such 
as this one which, if you use a microscope, the label says it 
is not intended for sleepwear. But mothers frequently use this 
kind of fabric for sleepwear. A halogen lamp fell upon that 
garment, the clothing lit on fire, then the bed subsequently 
lit on fire, and he sustained an 80 percent total body surface 
burn.
    We are led to believe that any burn that is greater than a 
small circumscribed burn is not contributed to by burning 
clothing. We are also led to believe that clothing itself does 
not protect. RO is a 2-year-old child who was wearing a flame-
resistant pajamas top and diaper when he ran through a house 
that was burning. He was totally unburned where the fire-
resistant clothing was present. He was burned everywhere else, 
his face, his legs his feet where the fire-resistant clothing 
was not present.
    We would submit, Mr. Chairman, that you should expand fire-
safe clothing laws not restrict them. We believe, since the 
restriction, the incidents of injury has truly gone up. We 
believe that the limited definition of what an injury is that 
is caused by flame that the CPSC is using is misleading. We 
believe new legislation is required so that there is no longer 
any misleading possible.
    We think that clearly labeled sleepwear that says it is 
fire resistant or not fire resistant, rather than this tight-
fitting fabric which currently says sleepwear should be flame 
resistant or snug fitting to meet U.S. Consumer Product Safety 
Commission sleepwear requirements. And then a little bit 
further down, if you bother to keep going, this garment should 
be worn snug fitting. Fire engine, rescue. Is that always going 
to be snug fitting? Thank you very much, Mr. Chairman.
    [The prepared statement of David N. Herndon follows:]

    Prepared Statement of David N. Herndon, Shriners Hospitals for 
     Children, American Burn Association, Task Force for Fire Safe 
                 Environments for Children <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ The Task Force for Fire Safe Environments for Children is 
comprised of the following organizations: American Burn Association, 
Burn Foundation, Coalition for American Trauma Care, Congressional Fire 
Services Institute, Fairfax County Fire & Rescue Department, National 
Fire Protection Association, National Volunteer Fire Council, Prince 
William County Fire & Rescue Department, Shriners Hospitals for 
Children, Trauma Foundation, and Washington Metropolitan Regional Fire 
& Rescue Departments/ Aluminum Cans for Burned Children.
---------------------------------------------------------------------------

                            I. INTRODUCTION

    Mr. Chairman and Members of the Subcommittee, thank you for holding 
this hearing today. A burn injury is one of the most devastating of the 
accidental injuries that can occur to an individual. Health care 
professionals consider burn injuries to be one of the most intensely 
painful injuries the body can sustain. If a child survives a burn 
injury, it often leaves a legacy of years of painful reconstructive 
surgery, permanent scarring, disfigurement and severe functional 
disabilities. These injuries, terrible for an adult, are particularly 
cruel for children, who rely on adults to protect them.
    We come here today representing organizations that have all too 
much experience with traumatic burn injuries, the Shriners Hospitals 
for Children, the American Burn Association and the Task Force for Fire 
Safe Environments for Children. I am the chief of staff of the Shriners 
Hospitals for Children Burns hospital in Galveston, Texas, a Professor 
of Surgery at the University of Texas and a past President of the 
American Burn Association. Accompanying me is Dr. Ron Tompkins, Chief 
of Staff of the Shriners Hospitals for Children Burns Hospital in 
Boston, Professor of Surgery at the Harvard Medical School and current 
President of the American Burn Association, the primary association of 
health care professionals working in burn care, prevention, research, 
rehabilitation and teaching in this country.
    I would also like to acknowledge the presence of Mr. John VerMaas, 
Chairman of the Board of Trustees of Shriners Hospitals for Children, 
and Mr. Gene Bracewell, Chairman Emeritus of the Shriners Hospitals 
Board of Trustees. It is through the support of Shriners such as John 
VerMaas and Gene Bracewell that Dr. Tompkins and I are able to carry on 
our work on behalf of the children who suffer these horrible burn 
injuries. Shriners Hospitals have been in existence for over seventy-
five years. The 20 Shriners Hospitals in the United States provide 100 
percent free care to hundreds of thousands of children, accepting 
neither government, insurance or parental reimbursement for the care 
provided.
    Dr. Tompkins and I everyday see terrible burn injuries that could 
have been prevented or minimized. Sadly, the government agency charged 
with protecting children from burn injuries, the Consumer Product 
Safety Commission (``Commission'' or ``CPSC'') has dropped the ball. An 
agency with many strengths, the Commission has a weak link when it 
comes to protecting infants and children from fire related injuries 
sustained while wearing sleepwear and certain types of daywear used as 
sleepwear.

II. SHRINERS HOSPITALS TREAT OVER TWENTY PERCENT OF ALL MAJOR PEDIATRIC 
 BURN INJURIES IN THE UNITED STATES. SINCE THE CONSUMER PRODUCT SAFETY 
 COMMISSION LOWERED THE SAFETY STANDARDS BEGINNING IN 1997, THE NUMBER 
 OF SLEEPWEAR-RELATED BURN INJURIES TO CHILDREN HAS INCREASED OVER 150 
                     PERCENT AT SHRINERS HOSPITALS.

    Originally, Shriners Hospitals focused on pediatric orthopaedic 
work, but in 1966 Shriners Hospitals decided to provide care for the 
thousands of children burned across the country every year and started 
the first of its four burn units in Galveston, Texas. Today, Shriners 
Hospitals operate four burn units in Galveston, Boston, Cincinnati and 
Sacramento, which together treat over 20 percent of all major pediatric 
burn injuries in the United States. As such, the experience at Shriners 
Hospitals provides a unique database for assessing the impact of the 
Consumer Product Safety Commission's actions on the safety of our 
nation's children.
    The CPSC's actions took effect in 1997. To determine whether these 
actions resulted in any increases in pediatric burn cases (U.S. 
citizens only), we compared 1995 and 1996 with 1998 and 1999. We did 
not include 1997 because it was a transition year. We knew, 
instinctively, that we were seeing more children with sleepwear and 
clothing-related burn injuries, but until we performed this analysis, 
we did not realize the magnitude of the increase. For 1995-1996, 
Shriners Hospitals treated 14 children for sleepwear-related burn 
injuries; the number of children suffering these sleepwear-related 
burns has increased to 36 for the 1998-1999 period, a 157 percent 
increase.
    We also looked at two other categories. Clothing-related burn 
injuries and undefined flame injuries. With respect to the clothing 
category, in some cases we were able to determine that clothes were 
involved, but not the exact type of clothing. In other situations, we 
knew that the clothing was not technically sleepwear, but the child may 
have been using the clothing to sleep in. In this category, the number 
of children suffering clothing-related burn injuries increased from 70 
to 147, a 110 percent increase.
    Finally, we have the undefined flame category. These are situations 
in which the we don't know anything about the clothing the children 
were wearing, except to say that it is likely that the children were 
wearing clothes because of the severity of the burn injuries. For 
example, the clothing might have been totally burned away. Without a 
doubt, some of these children were wearing sleepwear. In this category, 
the number of injuries went from 218 in 1995-1996 to 311 in 1998-1999, 
a 43 percent increase.
    If one totals all these categories, the number of burned children 
treated at Shriners Hospitals increased from 302 in 1995-1996 to 494 in 
1998-1999, a 64 percent increase.
    The data regarding infants age 0-9 months, the most defenseless of 
our citizens, whom the Commission stripped of all protection, is also 
revealing. In 1995-1996 Shriners Hospitals treated 3 children with 
sleepwear-related burn injuries under nine months of age. For 1998-1999 
the total number of infants suffering such injuries has risen to 8, a 
167 percent increase! For flame injuries, the figures go from 8 to 19, 
a 138 percent increase.
    There really is only one variable between these two time periods. 
In 1995-1996 the CPSC had not yet lowered the safety standards for 
children's sleepwear. In 1998-1999, the Commission's lowered standards 
were in full effect, and the results have been a major increase in the 
number of children suffering sleepwear-related burn injuries.
    We will hear a lot of discussion from the CPSC and others regarding 
whether these children that we care for really suffered ``sleepwear-
related'' burn injuries. All we as physicians who care for burned 
children can say to you is that we are seeing more burn injuries 
involving sleepwear and what should be categorized as sleepwear than 
ever before. The saying in Latin is ``Res Ipsa Loquitur,'' the thing 
speaks for itself.
    We are attaching an appendix, which includes several cases studies 
regarding these children who have suffered sleepwear-related burn 
injuries since the Commission changed the regulations. In some 
instances, these cases fit even the artificially narrow definition the 
Commission has adopted to justify its actions. In other instances, the 
cases will illustrate the benefits of flame resistant sleepwear can 
provide, even in larger household or bedding fires. Finally, these 
cases will show why Congress must seriously consider broadening the 
definition of sleepwear to cover those items of clothing that are 
commonly used by young children as sleepwear.

III. THE PRE-1997 CHILDREN'S SLEEPWEAR SAFETY STANDARDS PLAYED A MAJOR 
        ROLE IN REDUCING THE NUMBER OF CHILDREN'S BURN INJURIES.

    I have personally been involved in the surgical and medical care of 
burned children for over 25 years. I have seen first-hand the horrific 
reality of sleepwear and other burn injuries. Over this period, as a 
result of intensive research and state of the art clinical care, a 
burned child's chance of survival has now more than doubled. In the 
late 1960's, shortly after the Galveston Burn unit opened its doors, 
Shriners burn physicians realized that the most effective cure for burn 
injuries was prevention.
    Historically, Shrine doctors have been particularly concerned about 
the number of children being treated for burn injuries resulting from 
their sleepwear igniting. They found that many people warmed their 
homes with open gas fires, and that children, while warming themselves 
next to the fire, sustained burn injuries when their sleepwear ignited 
from the open flames. A lobbying effort commenced in Texas, and that 
state's legislature became the first in the country to pass a law 
requiring sleepwear to be flame resistant.
    As you all know, Congress followed suit, and in 1971 national 
flammability standards for children's sleepwear were adopted. These 
standards had a profound and positive impact for kids. The average 
number of clothing-related burn deaths for children under the age of 14 
dropped from 60 per year to 4.
    While these figures represent all clothing-related burn injuries, 
not just those involving sleepwear, we believe that the sleepwear 
standards were primarily responsible for this development. According to 
one classic epidemiological study regarding the decline in sleepwear-
related burn injuries following enactment of the national standards, 
the authors concluded that ``[I]t is probable that the single factor 
most important to the decline . . . is lower fabric flammability.'' 
Indeed, during the nine-year period between 1980 and 1988, only 7.9 
percent of all reported children's burn injuries resulted from the 
ignition of sleepwear that complied with the standards. The National 
Fire Protection Association has also estimated a tenfold decrease in 
the number of deaths associated with children's sleepwear since 
enactment of the standards.
    Estimates vary regarding the number of sleepwear-related burn 
injuries today. The CPSC has estimated that the annual average number 
of sleepwear-related burn cases is around 90, plus or minus 59 and the 
average number of clothing-related burn injuries 1,045, again plus or 
minus 256. What is commendable is that in the years following enactment 
of the standards in 1971 until 1996, kids slept more safely. Despite 
this progress, we find the CPSC's methodology for determining 
sleepwear-related burn injuries flawed and unsound, overlooking the 
continued danger, particularly for children who wear non-flame 
resistant clothing as sleepwear. We need to raise the overall standards 
for children's sleepwear and daywear to protect our most vulnerable 
citizens--our infants and children.

IV. THE CONSUMER PRODUCT SAFETY COMMISSION'S 1996 DECISION TO RELAX THE 
               SAFE SLEEPWEAR STANDARDS WAS ILL ADVISED.

    Notwithstanding the great success of children's safe sleepwear 
standards between 1971 and 1996, the Consumer Product Safety Commission 
voted in 1996 to make two critical modifications, which placed children 
at greater risk. The two changes were as follows: first, sleepwear for 
infants age 0-9 months no longer has to meet the flammability 
requirements; and, second, so-called ``snug'' or ``tight-fitting'' 
sleepwear for children of all ages was exempted from the safety 
standards.
    As we understand it, the Commission was concerned that the 
sleepwear regulations were being ignored, evaded or circumvented. 
Parents were using non-sleepwear garments such as long underwear or t-
shirts in lieu of sleepwear that met the safety requirements. Moreover, 
manufacturers were exploiting the subjective definition of sleepwear by 
labeling garments as ``daywear,'' thus avoiding the regulations.
    The Commission's regulations define sleepwear as clothing that is 
``intended to be worn primarily for sleeping or activities related to 
sleeping.'' The regulations state that whether wearing apparel is 
``intended to be worn primarily for sleeping'' depends on the facts and 
circumstances present in each case. Section 1615.649(c)(2) of the 
Commission's regulations defines relevant factors to include the nature 
of the product and its suitability for use by children for sleeping, 
the manner in which the product is distributed and promoted and the 
likelihood that the product will be used by children ``primarily for 
sleeping or activities related to sleeping in a substantial number of 
cases."
    Despite the facts and circumstances test permitted by the 
regulation, the use of an intent and primary use standard made it 
extremely difficult for the Commission to enforce the standards. The 
Commission does not seem to be following its own standards. For 
example, it admits that kids are sleeping more and more in t-shirts. If 
this is true, as the CPSC suggests, it should find that t-shirts are 
``sleepwear'' because they are being used by a substantial number of 
children for sleeping.
    It is not just t-shirts where the regulations are not working. I 
would like to show you some examples of exactly what I mean. I have 
with me a so-called ``Winnie the Poo'' bunny suit which was worn by one 
of my eight-month old patients when she was severely burned. The suit 
instantly ignited, and the child suffered 90 percent body burn. You may 
need a magnifying glass, but if you read the label, you will discover 
that these bunny pajamas are not sleepwear but daywear. You may also be 
interested to know that the CPSC rejected this case as outside the 
scope of its regulations because it involved daywear, not sleepwear.
    In any event, faced with these enforcement problems, the Commission 
made two key decisions, which actually made the situation significantly 
worse. H.R. 329 attempts to reverse these two exemptions created by the 
Commission. This is a step in the right direction, but it does not go 
far enough. Congress must direct the Commission to close the loopholes, 
which enable manufacturers to label Winnie the Poo or similar outfits 
as daywear. To protect our children, we need a functional definition of 
sleepwear.
    We also want to make policing by the CPSC easier and more 
effective. This means requiring clothing like all in one bunny suits 
with enclosed feet, togs, onesies, body suits with snaps at the bottom 
for easy access to a diaper, garments with cartoon characters or 
symbols that are particularly attractive to children, t-shirts and 
other garments to be fire resistant. If a child, particularly one under 
the age of reason, sleeps in these types of garments, they should have 
to meet the safety standards. The CPSC chose to go in another 
direction, one that put a greater number of children at risk.
    Since we all want kids to have the most fire safe environment 
possible, it will be up to Congress to act.

V. THE COMMISSION'S DECISION TO EXEMPT INFANT GARMENTS FROM THE SAFETY 
STANDARDS WAS BASED ON THE FAULTY ASSUMPTION THAT INFANTS ARE IMMOBILE 
                       AND THEREFORE NOT AT RISK.

    The first major change made by the Commission was to exempt 
garments for infants age 0-9 months from any sleepwear standards. 
According to the Commission, the risk of burn injury or death from all 
clothing, including sleepwear remains low. Of course, the reason for 
this was the standards that were put in place in 1971. In particular, 
the CPSC argued that infants are immobile and could not expose 
themselves to ignition sources as could older children and therefore 
would not be endangered by eliminating the protections for this most 
vulnerable group. The CPSC further claimed to have analyzed over 150 
burn injuries involving infants age 0 to 9 months from 1990 ``1999 and 
found ``insufficient information to conclude there is an increased risk 
of sleepwear-related burn injuries for pre-ambulatory infants.''
    This is a matter of pure common sense. Not only can infants below 
the age of nine months crawl to flame sources, the flame source can 
come to them. Children can be very mobile and are at a great safety 
risk as early as five months of age. At five months, infants may start 
crawling towards objects of interest. It is not possible to teach an 
infant safety, so it is our responsibility to provide a safe 
environment for them. Infants between 0-5 months are totally unable to 
protect themselves from injury or even to escape heat or flame by 
crawling or rolling away. If you have any doubt regarding whether 
infants are vulnerable to sleepwear-related burn injuries, you can talk 
to Dave Borowski, a coalition member here today, who was burned at age 
six weeks. Had Dave been wearing fire resistant sleepwear, his injuries 
would have been far less severe.
    Candles, which are used in many homes for decoration, lighting or 
aromatherapy, have caused many burn injuries to children. Space 
heaters, which are frequently used for heating homes, have been 
responsible for many burn injuries to children. Infants may be laid 
next to the heat source for warmth and either get radiant heat burns or 
the clothing may accidentally catch on fire.
    Infants 0-9 months are also at the greatest risk for morbidity and 
mortality. An infant's skin is thinner than an adult's, often resulting 
in a much deeper burn. Relatively immature organs such as kidneys make 
recovery more difficult for infants sustaining traumatic burn injuries. 
Functional and cosmetic disability affects infants much more than 
adults, and infants are at higher risk for loosing fingers, toes, 
hands, feet, ears and noses from burn injuries. Infants also scar more 
easily and these scars are permanent.
    We have observed many cases in which infants, the group that needs 
the most protection but receives the least from the CPSC have suffered 
horrible sleepwear-related burn injuries. For example, in one case the 
mother was holding the child in her arms when a candle tipped over and 
landed on the infant's sleeve. The sleeve caught fire and severely 
burned the infant's arm and hand before the parents could extinguish 
the flames. Far from being a benefit, immobility also traps a child who 
cannot move away from the flame source that comes to them.
    As discussed earlier, the number of infants suffering sleepwear-
related burn injuries at Shriners Hospitals have increased from 5 in 
1995-1996, the two years prior to the Commission's decision to exempt 
infant garments from the sleepwear standards, to 19 in 1998-1999, after 
the safety standards were lowered. A 280 percent increase cannot be 
ignored! Although we have not included 1997 in our comparisons because 
it was the first year the lowered standards were in effect, Shriners 
Hospitals experienced a 200 percent increased in the number of infants 
suffering sleepwear-related burn injuries in that year alone.
    Mr. Chairman and Members of the Subcommittee, we will discuss the 
types of injuries the standards were designed to guard against and the 
clinical evidence of injuries that we have assembled, but a major 
policy decision based on the faulty assumption that an infant's 
immobility protects him or her from exposure to fire should not be 
allowed to stand.

 VI. THE COMMISSION'S DECISION TO EXEMPT TIGHT-FITTING SLEEPWEAR FROM 
    THE SAFETY STANDARDS WAS BASED ON THE FAULTY AND SCIENTIFICALLY 
INCORRECT ASSUMPTION THAT TIGHT-FITTING SLEEPWEAR IS MORE DIFFICULT TO 
                                IGNITE.

    The second exemption put into place by the Commission relates to 
snug or tight-fitting sleepwear. First, I would like to observe that if 
the Commission were having trouble enforcing the standards because of 
the confusion between daywear and sleepwear, it certainly would have 
trouble determining what is or is not tight-fitting. Second, parents 
buy oversized garments for children, who then grow into them. With 
growing children, tight-fitting is an illusory concept. Third, the 
Commission believes that tight-fitting garments are not easily ignited 
because the body acts to absorb heat from the ignition source and thus 
slows the heating of the fabric to the point at which ignition can 
begin. And, if the sleepwear is ignited, it tends to burn slowly 
because only one side of the fabric receives sufficient oxygen to 
support combustion. Even if we assume that children will be wearing 
sleepwear that actually fits tightly, there is no scientific evidence 
to support the theory that tight-fitting sleepwear will not ignite. The 
Commission most likely relied on mannequin data in coming to such 
conclusions. Before endorsing such a significant policy change, the 
CPSC should have relied on studies utilizing patient data before 
acting. Like the assumption that governed the decision to exempt 
infants' sleepwear, the Commission's assumption that tight-fitting 
sleepwear will not ignite is horribly flawed.
    Again, Mr. Chairman and Members of the Subcommittee, we will review 
many cases that we have actually treated where tight-fitting clothing 
has ignited.

  VII. THE COMMISSION USED A HIGHLY FLAWED DATABASE TO DETERMINE THE 
                 EXTENT OF SLEEPWEAR-RELATED INJURIES.

    The Commission has refused to concede that the assumptions 
underlying its decisions are flawed. They ultimately resort to just 
denying the reality we see every day in our hospitals. According to 
their briefing documents the ``CPSC knows of no burn incidents 
involving the types of children's sleepwear that the amendments 
affected.'' In making this statement, the CPSC relied on data 
accumulated by the CPSC's National Electronic Injury Surveillance 
System (NEISS). According to the NEISS sample, only 13 cases involving 
sleepwear-related burn injuries were reported from 1990-1998, including 
a maximum of 4 in any one year. The CPSC extrapolates these figures to 
a national estimate of 90 sleepwear-related burn injuries, plus or 
minus 59.
    Our first reaction regarding this statistic is, ``how can this 
be?'' We treat many more children with sleepwear-related burn injuries 
in just our own hospitals.
    The first problem with the CPSC's reliance on NEISS is that its 
database is seriously flawed. NEISS samples 101 hospital emergency 
rooms around the country, including 4 burn centers, less than 4 percent 
of the 139 hospitals that are self-identified burn treatment centers. 
The four burn centers included in the NEISS sample are the 
Massachusetts General Hospital in Boston, Kings County Hospital in 
Brooklyn, Children's Mercy Hospital in Kansas City, Missouri and 
Children's Hospital in Columbus, Ohio.
    The CPSC's reliance on NEISS data, particularly emergency room 
data, creates severe reliability problems. The NEISS methodology does 
not provide for actual investigations of product injuries. Only if the 
doctor in the emergency room identifies a specific case as the cause of 
the injury is the product entered into the NEISS database. The doctor's 
notes must be legible and identify the product by name. Most of the 
time, doctors don't mention the product in their clinical treatment 
documentation. According one experienced NEISS data collector, the 
individuals collecting this data can't even read the doctor's notes 
over 40 percent of the time.
    Identification of the product is particularly problematic in the 
burn area. In the case of a burn injury, the first thing that the 
paramedics do is to remove whatever remnants of burned clothing might 
remain on the child to stop the burning process. Of course, often there 
is no clothing left to examine. And, the last thing one should be 
thinking of in an emergency room is ``what was the baby wearing?'' The 
priority is to save the child's life, not investigate the labels of the 
charred remains of the clothing.
    As the GAO stated, ``national data on burn injuries must be 
interpreted cautiously because these data necessarily provide only 
limited detail about the circumstances surrounding each individual 
case.'' NEISS also does not identify or separately report non-sleepwear 
garments that children commonly use for sleeping. The emergency room 
environment is simply not conducive to the accumulation of accurate 
data on sleepwear-related burn injuries. All this is to say that the 
NEISS methodology produces an inordinate number of false negatives, and 
therefore it was completely inappropriate for the CPSC to rely upon 
this flawed methodology when it decided to lower the children's 
sleepwear safety standards, presumably because of a lack of reported 
sleepwear injuries.
    Looking at the four burn centers included in the NEISS sample also 
reveals much about the CPSC's flawed approach towards this issue. Dr. 
Tompkins, who is with me today, heads up the Shriners Burns Hospital in 
Boston, which is directly adjacent to Massachusetts General Hospital. 
Dr. Tompkins also is in charge of burn treatment at MGH. He can tell 
you that MGH does not admit any pediatric burn patients. They are 
immediately sent to the Shriners Hospital right next door. Similarly, 
Kings Country Hospital in Brooklyn admits all pediatric burn patients 
to New York Hospital at Cornell Medical Center; Children's Mercy 
Hospital in Kansas City sends all major pediatric burn injuries to the 
Shriners Hospital in Galveston; and, Children's Hospital in Columbus 
has a limited referral network for pediatric burn injuries because of 
the Shriners Hospital in Cincinnati.
    I can't say it any more directly than this. The CPSC is basing its 
conclusions regarding the lack of sleepwear-related burn injuries on 
the experience of hospitals that do not treat pediatric burn injuries. 
These burned kids are sent to hospitals that the CPSC did not even 
bother to call. Interestingly, the Shriners Hospitals for Children, 
which treat over 20 percent of all major pediatric burn injuries in the 
United States, were never even contacted by the CPSC before deciding to 
relax the safety standards. And, when we contacted them, the Commission 
dismissed our clinical data out-of-hand because it did not support its 
conclusions.

   VIII. THE COMMISSION HAS ADOPTED AN OVERLY NARROW AND ARTIFICIAL 
  DEFINITION OF BURN INJURIES TO DISCREDIT THE HUNDREDS OF DOCUMENTED 
     CASES INVOLVING CHILDREN BURNED AS A RESULT OF THEIR ACTIONS.

    Realizing that the CPSC was utilizing a highly flawed database that 
underestimated the number of pediatric burn injuries, Shriners 
Hospitals provided several case studies of children treated at our own 
facilities for burn injuries involving sleepwear. The CPSC uniformly 
rejected every one of these cases. To do otherwise would have destroyed 
the rationale for their actions. We cannot let bureaucratic bungling 
win the day on this issue.
    The Commission stated as follows:
          ``The children's sleepwear standards were never intended to 
        address the risk of death and injury from exposure to a whole 
        house or bedding fire. The intent of the sleepwear standards is 
        to eliminate the risk of serious personal injury or death from 
        fire as a result of contact between the sleepwear garment and a 
        small ignition source such as a match or lighter flame.''
    The Commission has further explained that the standards are 
performance based, and that if the garment self-extinguishes after the 
administration of a one and one-half inch flame for three seconds, it 
passes the test. Simply put, the CPSC has confused the standard by 
which the sleepwear is tested with the intent of the regulations. The 
three-second test was the standard used to prevent ignition and did not 
purport to describe the types of burns involved. In so doing, the 
Commission has virtually defined sleepwear-related injuries out of 
existence. This gross oversimplification defeats the original intent of 
the legislation and eliminates more common injuries, which also involve 
ignition of other materials. This fact pattern occurs at least 100 
times more frequently than the CPSC's highly unusual scenario in which 
an open flame, match or lighter is placed on a small part of a child's 
clothing, which ignites and there is nothing else burning in the 
environment.
    We will show you cases in which precisely what the CPSC claims 
never to happen has in fact occurred. However, the sad truth is that 
the CPSC is ignoring real life fire scenarios in favor of most uncommon 
types of injuries, all in an effort to deny the harsh consequences of 
their actions.

 IX. FLAME RETARDANT SLEEPWEAR CAN PROTECT CHILDREN FROM MORE SERIOUS 
         INJURY OR DEATH IN LARGER HOUSEHOLD OR BEDDING FIRES.

    What is particularly unfortunate about the CPSC's semantics is that 
flame resistant sleepwear can be highly effective in reducing the 
extent and severity of burn injuries resulting from larger fires. The 
Cotton Council has argued that the sleepwear standards were never 
intended to protect children from anything other than brief contact 
with a small flame, and that ``in all cases on record involving fire 
accidents with pre-ambulatory children, the accidents would have 
occurred no matter what type of clothing the child was wearing.'' 
Similarly, the CPSC claims there are no substantial benefits associated 
with the standards beyond those represented by the test method.
    In 1972 the Department of Health, Education and Welfare (``HEW'') 
published a study, which reviewed over 1,500 sleepwear-related 
injuries. The study concluded that children in fires whose clothing 
ignited had a four to six-fold increase in mortality and associated 
morbidity and more than $70,000 in increased hospital costs compared to 
those whose clothing did not ignite. Preventing ignition of the 
clothing also decreases the extent and severity of the burn injury. For 
example, in a larger fire, if the clothing ignites, the total burn 
usually doubles and there is nearly six times the amount of full-
thickness injury.
    Let me posit just one scenario that makes this point quite clearly. 
A house is on fire and a parent picks up her infant and flees the 
burning house. Sparks are flying, but the infant's garments do not 
ignite because they are flame resistant. However, if the sleepwear is 
not flame resistant, the sparks catch the clothing, which virtually 
explodes into flames.
    The Commission and its supporters also ignore one other rather 
logical point. For example, the Commission ignores cases involving crib 
fires. The sheets, they say, caught fire first, and then the sleepwear. 
How do they know? We have cases where we believe the flame dropped 
first onto the sleepwear, and then the bedding ignited thereafter. If 
the infant had been wearing flame resistant sleepwear, the bedding fire 
would not have occurred. Perhaps what Congress should do if we really 
want to protect helpless infants is to not only eliminate the infant 
exemption for sleepwear but recognize that regardless of what infants 
are wearing, they sleep virtually all the time. We should also consider 
requiring crib sheets to be flame resistant as well.

X. THE COMMISSION'S STATEMENTS CLAIMING THAT THE SAFETY STANDARDS WERE 
  ONLY INTENDED TO COVER BURN INJURIES RESULTING FROM SMALL LOCALIZED 
       IGNITION SOURCES ARE WITHOUT ANY LEGAL OR LOGICAL SUPPORT.

    One last legal point. There is no basis in law for the Commission's 
assertion that the standards were not designed to protect children from 
just the uncommon type of injury we have been discussing. The 
Flammability Fabrics Act, 15 USC section 1193, et seq does not restrict 
the Commission to such a contorted definition of sleepwear-related 
injury, nor do the implementing regulations. Indeed, section 1193(a) of 
the Flammability Fabrics Act charges the Commission with developing 
standards that ``may be needed to protect the public against 
unreasonable risk of the occurrence of fire leading to death or 
personal injury . . .'' Congress gave the Commission latitude to 
determine exactly how children should be protected, not the discretion 
to so circumscribe the protections as to make them meaningless.

XI. CONGRESS NOT ONLY SHOULD REPEAL THE COMMISSION'S TWO EXEMPTIONS TO 
 THE SAFETY STANDARDS, BUT SHOULD BROADEN THE DEFINITION OF SLEEPWEAR 
 FOR CHILDREN BELOW THE AGE OF REASON WHOM OTHERWISE REMAIN AT SERIOUS 
                         RISK OF BURN INJURIES.

    A CPSC Memorandum regarding the Enforcement History of Children's 
Sleepwear Standards, dated May 12, 1999, did at least acknowledge some 
of the difficulties inherent in determining what is or is not a 
sleepwear-related injury:
          ``In-scope classification of sleepwear-related burn incidents 
        is complicated by inherent difficulties in defining sleepwear, 
        especially for infants, and in determining the size of the 
        flame intended to be addressed by the children's sleepwear 
        standard. Identifying sleepwear-related cases for infants is 
        difficult because infants sleep frequently and for long periods 
        of time and are likely to do so regardless of the clothing they 
        happen to be wearing at any given time. Identifying sleepwear-
        related cases for older children is also difficult because they 
        frequently use certain garments as both daywear and nightwear 
        (e.g., t-shirts, long underwear).''
    We agree with the Commission regarding the complicated nature of 
determining what is or is not a sleepwear-related injury and the 
attendant confusion over what is daywear and what is sleepwear. As the 
Commission noted, ``[A] primary problem in enforcing the children's 
sleepwear standards is that ``children's sleepwear'' is a moving 
target.'' Congress needs to make it clear that the sleepwear standards 
are not designed to deal just with the rare situation in which a small 
open flame ignites the sleepwear and nothing else. It also needs to 
adopt a more functional definition of what is sleepwear.
    Just recently, Australia broadened the definition of sleepwear to 
include some types of daywear that children use as sleepwear. If a 
child sleeps in a particular type of clothing, then it should be flame 
resistant. Congress should list certain types of garments, which 
function as sleepwear and require that they meet the flammability 
standards. These types of garments could include underwear, t-shirts, 
bunny suits, garments with cartoon characters particularly attractive 
to children and more.
    We recognize that it is not practical to recommend that all 
clothing be treated, but we believe that this broader, functional 
definition of sleepwear should apply to children age 0-7. The age of 
seven is sometimes referred to as the age of reason, a time when, 
hopefully, a child will appreciate the danger of fire. This age 
grouping also happens to account for well over half of sleepwear or 
clothing-related burn injuries. Congress might even consider simply 
requiring that all clothing for infants age 0-9 months be flame 
resistant, since infants sleep virtually all the time. In other words, 
Congress should go in 180 degrees the opposite direction as the 
Commission.

 XII. CONGRESS SHOULD STRENGTHEN AND BROADEN THE CHILDREN'S SLEEPWEAR 
    STANDARDS BECAUSE THE TECHNOLOGY NOW EXISTS TO MAKE COTTON FIRE 
                               RESISTANT.

    Finally, we are encouraged that the Congress may direct the 
Commission to take these steps to provide broader protection for our 
children without excluding cotton products from the marketplace. Many 
consumers prefer cotton products, but there have been concerns 
regarding the desirability and feasibility of making such cotton 
products flame resistant. We now know that the technology exists to 
make cotton safe for children, without sacrificing the product's other 
attributes. A new type of children's sleepwear called ``Skivvydoodles'' 
is on the market. Skivvydoodles are made with flame resistant cotton. 
You can get them at Target or other stores. The flame retardant doesn't 
wash out because it cannot be separated from the cotton fiber itself. 
There is no reason why those of us representing children at risk from 
serious burn injury cannot join with groups such as the Cotton Council 
to ensure that this new technology becomes the standard in the 
industry.

                            XIII. CONCLUSION

    Mr. Chairman, the Consumer Product Safety Commission made a very 
dubious assumption when they concluded that immobile infants were not 
at risk from fire. The Commission also made a very dubious scientific 
decision when it concluded that tight-fitting garments really wouldn't 
burn. The Commission then compounded these errors by relying on a 
highly flawed database, and then using semantic maneuvering to define a 
real world problem out of existence. Finally, the Commission ignored 
the medical data regarding the benefits of preventing clothing ignition 
in its attempt to further justify a discredited and dangerous 
interpretation of what is or is not a ``sleepwear-related burn 
injury.''
    The Commission's actions in 1996 cannot be justified, either 
logically or empirically. However, the Commission was right when it 
identified the difficulty in determining what is or is not sleepwear. 
Congress needs to broaden this definition to include the clothing that 
young children actually sleep in, no matter what it may be called by 
the manufacturer. In fact, the Commission should have moved long ago to 
broaden, not narrow the safety standards. When the agency charged with 
protecting our children takes steps that leave them vulnerable to 
horrible burn injuries, Congress should step in and fill the breach. 
Please think of the children whom we have discussed who have suffered 
through these horrible burn injuries and ensure that others like them 
do not have to go through the same thing.

[GRAPHIC] [TIFF OMITTED] T4762.001

[GRAPHIC] [TIFF OMITTED] T4762.002

    Mr. Tauzin. Thank you Dr. Herndon.
    Next, Dr. Phillip Wakelyn. Ph.D., senior scientist, 
Environmental Health and Safety of the National Cotton Council, 
Washington, DC. Dr. Wakelyn.

                STATEMENT OF PHILLIP J. WAKELYN

    Mr. Wakelyn. I am Phillip Wakelyn, senior scientist for the 
National Cotton Council. With me today is Bruce Navarro who is 
a former CPSC employee.
    Mr. Tauzin. Dr. Wakelyn, would you please take the mike 
sir.
    Mr. Wakelyn. With me today is Bruce Navarro, a former CPSC 
employee and consultant. I am also testifying today on behalf 
of Apparel and Retail Associations, the Apparel Manufacturers 
Association, and the National Retail Federation and the 
International Mass Retailers Association. All of these groups 
are very much concerned about children and have a long history 
of deep commitment to consumer safety and safety of children.
    As you mentioned earlier, you have my complete statement 
for the record, I will just raise a few points. The 1996 
amendments are not the cause of burn injuries seen in burn 
hospitals, and the amendments have nothing to do with the 
concern raised by the opposition. The children's sleepwear 
standards are doing what they were intended to do in 1971 when 
they were first issued, and what was considered then the 
unreasonable risk that they were set to address. This is not a 
weaker standard.
    While all burn injuries are troubling and the images they 
present very disturbing, nobody wants to see a burned child. 
CPSC doesn't, we don't, and we would not support anything that 
would lessen the standard. The fact remains that snug-fitting 
cotton and infant-sized sleepwear are safe. Since 1991, the 
Consumer Product Safety Commission has thoroughly and 
sufficiently reviewed and re-reviewed the children's sleepwear 
flammability standards. No further action is necessary on these 
standards at this time.
    There is no basis from all the burn incidents data since 
1965, and I have personally gone back and looked at everything 
in all the records, there is no source or other data that would 
say that these 1996 amendments diminish the safety of the 
standard. CPSC made the correct decisions for the correct 
reasons.
    Those opposed to the amendments believe the CPSC analysis 
was flawed, but they have never presented any substantive data 
that show that the data in the various data bases used by CPSC 
are incorrect. In fact, in their own comments in testimony to 
CPSC, these parties state that in the data they have given to 
CPSC they do not know whether the child was wearing sleepwear 
at the time of the incident or whether the sleepwear was or was 
not in compliance with the standards. They also do not know 
what the flame source was that ignited these garments or the 
whole fire scenario.
    All of their data were given to CPSC for investigation, but 
none of it showed that snug-fitting or infant sleepwear or any 
sleepwear was the first item to ignite or caused the incident. 
You realize that the CPSC has been under an extreme microscope 
because of all the pressure and because this is such an 
emotional issue, and they have looked at every piece of 
information that has been submitted to them by the Shriners, 
none of it supports that this standard has been diminished in 
any way.
    Surely if burn injuries were occurring with the garments 
affected by the amendments, data from the U.S., Canada, and 
other countries would show some incidences. The original 
standards were promulgated in 1971 and 1974. They were designed 
to protect against burn injury or death caused by small open-
flame ignitions, that is matches, lighters, and candles, to 
children when they were up moving around.
    This was the unreasonable risk that they were designed to 
prevent. Testing involved a 3-second ignition with a small open 
flame. This has been in effect since 1971. The amendments had 
nothing to do with changing that test method. The standards 
never were intended to protect against large flame sources such 
as burning mattresses or house fires. No apparel except perhaps 
heat-protective clothing worn by firefighters will do that.
    The standards are doing what they were intended to do. The 
standards, the original standards, were justified on data 
collected from 1965 to 1972 by Health, Education and Welfare. 
That is the F facts data base and the standard for zero to 6x 
sizes was for children 0 to 5 years. There were 580 cases in 
that data base, 37 of them involved sleepwear.
    None of the garments in the data used to justify the 
original standards were snug-fitting garments. In all cases on 
record involving a fire incident with preambulatory children, 
the accident would have occurred no matter what type of 
clothing the child was wearing. All data indicate that loose-
fitting garments are the types of garments involved with the 
burn instances.
    Mannequin studies and actual experience in the U.S., the 
UK, Canada, Australia, New Zealand the only countries who have 
such a standard and that have the same sort of amendments to 
their standard, and only our standard is more severe than any 
other standard in the world, continue to show that tight-
fitting garments and infant-size garments are not the type of 
garments that are involved in burn injures.
    The standards have been amended several times. In February 
1978, CPSC amended the standards because of Tris which was a 
fire-retardant agent that was used to make polyester flame 
resistant. Nothing is fire retardant. The term is flame 
resistant. The amendments removed residual flame time which is 
also referred to as melt drip from the standard so that meant 
that polyester and nylon would pass the test without any 
treatment.
    So since that time, 1978, virtually no garments in the 
marketplace have been treated with fire retardant chemicals to 
make them flame resistant. I also might add that cotton and 
polyester ignite at about the same temperature and both burn 
similarly in tests. I have actually published articles on this. 
I can provide much more information if you like.
    Human burns occur when skin temperature exceeds 110 degrees 
farenheit which may explain how a child can be burned on 
exposed skin and protected in areas covered by sleepwear or 
other garments, flame resistant or not. And these 1978 
amendments did not diminish the protection of the standard. We 
have not heard anybody raise that issue. We also feel that the 
1996 amendments to exclude snug-fitting and infant garments do 
not diminish the standard.
    I would also mention that Canada originally had our 
standard, but in 1987, adopted a standard based with fit 
characteristics and removed and exempted infant garments. The 
reason for amending their standards, they had extensive 
mannequin testing of garments, I had video tapes of it which 
produced a thick final report. There is a Canadian Medical 
Association paper which describes all of this. There are many 
papers in the literature that describe how a design affects 
flammability. Even the classical work in the 1970's called 
America Burning referred to the design having an effect on 
preventing burns.
    We also got a letter from the head of Health Canada which 
states that since the regulations have come into effect, injury 
due to the ignition of children's sleepwear are no longer a 
problem in Canada. The standards in Australia and New Zealand 
and UK are all also working.
    Mr. Tauzin. Would the gentleman please conclude.
    Mr. Wakelyn. There is no basis in documented fact to 
overturn the CPSC decision to amend the children's sleepwear 
standards. We urge the Congress to uphold the amendments to 
these standards and to refrain from further legislative action 
on these standards.
    In addition, groups concerned with fire safety and children 
should be encouraged to focus their resources and efforts with 
those of CPSC and the industry on an information educational 
campaign to inform American consumers about the current 
sleepwear standards and the importance of teaching fire safety 
to children.
    [The prepared statement of Phillip J. Wakelyn follows:]

   Prepared Statement of Phillip J. Wakelyn, National Cotton Council

    I am Phillip Wakelyn, Senior Scientist with the National Cotton 
Council. I have been involved with flammability issues since 1963. The 
National Cotton Council (NCC) is the central trade association of the 
American cotton industry. Our members include producers of over 75% of 
the US cotton and cotton processing industries.
    Today I am also testifying on behalf of several apparel and retail 
association, the American Apparel Manufacturers Association, the 
National Retail Federation and the International Mass Retailers 
Association who support this statement. NCC, the US cotton industry, 
and all of these associations have a long history of deep commitment to 
the safety of consumers.
    We appreciates the opportunity to testify at this hearing in 
support of the 1996 CPSC amendments to the Children's Sleepwear 
Flammability Standards (that exclude infant garments, sized 9 months of 
age or younger, and snug-fitting garments), because there is no 
indication from technical data (mannequin research, etc.), and burn 
injury and fatality incidence data, from all sources (the US, Canada, 
and other countries) that these garments present an unreasonable risk 
or that these amendments diminish the protection provided by the 
standards. An examination of the original data sources show there never 
have been data to support the coverage of these garments under the 
Children's Sleepwear Flammability Standards.

                            I. INTRODUCTION

    At the outset I would like to say that it is unfair and untrue for 
anyone to suggest that the Consumer Product Safety Commission (CPSC) 
would do anything that would cause children harm. Or that Canada and 
the three other countries in the world that have standards and that 
also do not cover infant sizes and snug-fitting garments are not 
concerned about children's safety. Or that the cotton, apparel, and 
retail industries would support anything that would harm children. 
Indeed, while all burn injuries are troubling, and the images they 
present disturbing, the fact remains that snug-fitting cotton and 
infant-sized sleepwear are safe.
    CPSC is a regulatory agency that is committed to the safety of 
children and all consumers. Those opposed to the amendments believe the 
CPSC analysis was flawed but they have never presented substantive data 
that show that the data in the various databases [Flammable Fabrics 
Accident Case and Testing System (FFACTS), National Electronic Injury 
Surveilance System (NEISS), In-Depth Investigations(IDIs), National 
Fire Incidence Reporting System (NFIRS), Institute for Textile 
Technology, Charolottesville, VA (ITT)] used by CPSC are incorrect. In 
fact, in their own comments (CF99-1-108) to CPSC these parties state 
that in the data they have given to CPSC they do not know whether the 
child was wearing sleepwear at the time of the incident or even 
``whether the sleepwear was or was not in compliance with flammability 
standards''. All of their data was given to CPSC for investigation but 
none of it show that snug-fitting or infant sleepwear or any sleepwear 
was the first item to ignite or the cause of the incident. CPSC 
sometimes finds that other wearing apparel (e.g., shirts, t-shirts) are 
involved. However, the burn injuries are usually the result of a house 
or other large flame fire in which the clothing is not the first item 
to ignite or even a contributing factor.
    For children under 15 years old (about 50 million children), there 
were 2 or 3 clothing-related thermal burn fatalities (for all clothing) 
each year in the US from 1993 through 1998. The portion of these cases 
involving sleepwear is unknown, because no data system in the US 
specifically identifies sleepwear. Estimated thermal burn injuries 
involving sleepwear and other clothing among children under 15 years 
old remained low and showed no statistically reliable annual trends 
from 1990 to 1998. (C.C. Morris, ``Sleepwear-Related Thermal Burns in 
Children under 15 Years Old,'' CPSC June 1999) Therefore, it is not 
really known if sleepwear of any kind or small open flame ignitions are 
involved in any of these incidents.
    The databases could always be improved, but they are much better 
today than when the standards were first promulgated in 1971 and 1974. 
Available data do not support the notion that the 1996 amendments have 
caused burn injuries to children. Surely, if burn injuries were 
occurring with the garments affected by the amendments, data from the 
US, Canada and other countries would show some incidences.

A. CPSC has Extensively Reviewed the Standards
    From Nov. 1991 to July 1996 and again in 1999, CPSC thoroughly and 
sufficiently reviewed and re-reviewed the Children's Sleepwear 
Flammability Standards. In the process, the CPSC twice conducted 
complete notice and comment rulemaking, received comments and testimony 
from thousands of witnesses, held hearings and exhaustively analyzed 
burn incidence and other data. The CPSC, in four separate extensive 
briefing packages, explained the rationale for all decisions at all 
steps and the Commissioners voted at each step. Over $7 million was 
spent on this effort, which continues to review all pertinent data. All 
data since 1965 indicate that CPSC made the correct decision for the 
correct reasons.

  II. THE STANDARDS WERE DESIGNED TO PREVENT BURN INJURIES FROM SMALL 
              OPEN FLAME IGNITION AND COVER ONLY SLEEPWEAR

    Some seem confused about the purpose of the sleepwear standards, 
including the burn scenario and unreasonable risk these standards were 
designed to prevent. Let me explain. The original standards promulgated 
in 1971 and 1974 were designed to provide protection against serious 
personal burn injury or death, caused by small open flame ignition 
sources (e.g., matches, lighters, and candles), to children in 
sleepwear when they were up moving around. (This was the unreasonable 
risk the standards were designed to prevent.) Testing involves a 3 
second ignition with a small open flame. The standards never were 
intended to protect against large flame sources, such as a burning 
mattress or house fire. No apparel except heat-protective clothing worn 
by firefighters (only protective clothing that resists burning, 
melting, or disintegration on exposure to high heat or flame) will do 
that.
    These standards were justified on data collected from 1965 to about 
1972 (FFACTS: 580 cases by Nov. 1971; 1964 cases by Dec. 1972; Cases 
were investigated in the Denver area, the Boston area, the state of 
Iowa and 99 from other areas by FDA.) All data since 1965 indicate that 
loose fitting garments, loose nightgowns, robes, nightshirts, loose 
pajamas, etc., are the garments involved in burn incidence cases. There 
were no data to justify including infant garments sized 9 months of age 
or younger and snug-fitting garments. None of the garments in the 
database used to justify the original standards were snug-fitting 
garments. In all cases on record involving fire accidents with pre-
ambulatory children, the accidents would have occurred no matter what 
type of clothing the child was wearing. There was a house fire, or a 
crib fire, or some other general conflagration in which the sleepwear 
garment was not the first to ignite, but instead became involved in a 
larger, external fire situation. The infant plays a passive role in the 
ignition sequence, according to NBS reports. Details on the 22 cases 
involving children under three are given in NBS Technical Note 815 by 
Elaine Tyrrell published in Feb. 1974.
    Mannequin studies and actual experience in the UK, Canada, 
Australia, New Zealand and the US (since 1993) continue to show that 
tight-fitting garments and infant sized garments are not the types of 
garments that are involved in burn injuries and fatalities.
    The philosophy of the DOC (CPSC took over in 1974) at the time when 
the original standards were promulgated was to cover everything--even 
those products that were not shown to be a risk. Therefore, in the 
original 0-6x standard (1971) and 7-14 standard (1974), all sleepwear 
products, including 100% polyester and nylon, had to be treated with 
fire retardant chemicals to make them flame resistant to meet the 
standard, because the standard applied to all products, even those that 
were not part of the problem the standards were designed to address.

A. 1978 Amendment to the Standards
    The standard has now been amended several times. In February 1978, 
CPSC amended the standard because ``tris'' (tris 2,3-dibromo propyl 
phosphate), a fire-retardant agent used on polyester and other 
synthetics to make those garments flame resistant, was shown to be a 
carcinogen. Tris was never used on cotton garments, only on polyester 
and nylon garments. This amendment removed the ``residual flame time'' 
(also referred as ``melt drip'') requirements from the test method of 
the standard. As a result, since 1978 essentially no sleepwear in the 
marketplace was treated with FR-agents to make them flame resistant, 
until the last 1-2 years. Consumers appeared to be more concerned about 
potential toxicity (real or imagined) of FR-treatments to their 
children, than the risk of burn injuries in sleepwear. The cotton FR-
treatments have been shown to be safe by the National Cancer Institute. 
Nevertheless, essentially every time FR-cotton sleepwear was put on the 
market until recently, it has not sold well and was removed from the 
market.
    Cotton (700-1560 F) and polyester (840-1290 F) ignite at about the 
same temperature and both burn. Polyester fibers generally begin to 
melt between 480 and 570 F. Human burns occur when the skin temperature 
exceeds 110 F, which may explain how a child can be burned on exposed 
skin and ``protected'' in areas covered by sleepwear or other garments, 
flame resistant or not. The 1978 amendments allow untreated polyesters 
and other synthetic fibers that melt and drip away from the flame to 
pass the test. Cotton, a char former, which does not melt and drip, 
will not pass the test [(which requires the tested material to be bone 
dry (0% moisture)] without a FR-treatment. Since the 1978 amendments, 
virtually no garments in the marketplace have been treated with fire 
retardant chemicals to make them flame resistant.
    The 1978 amendments appear not to have diminished the safety 
provided by the standards.

B. 1996 Amendments to the Standards
    In 1996, CPSC amended the standards again. This time, snug-fitting 
and infant garments (sized 9 months of age or younger) were removed 
from coverage, since these products were never part of the problem. 
Contrary to the impression conveyed by some, these amendments did not 
affect loose pajamas, nightgowns, and robes. These items still must 
meet the requirements of the Children's Sleepwear Flammability 
Standards and be flame resistant.
    In data from 1994 and before, CPSC has found virtually no injuries 
associated with snug-fitting garments or long underwear worn as 
sleepwear, or sleepwear worn by infants under one year. And along with 
data from Canada and other countries these data strongly support and 
reinforce the CPSC finding that the amendments do not diminish the 
safety provided by the Children's Sleepwear Flammability Standards. 
Burn injuries that have been reported are usually the result of a house 
fire or other large fire tragedy in which sleepwear is not the first 
item ignited or even a contributing factor.
    Therefore, the 1996 amendments to exclude snug-fitting and infant 
garments do not diminish the safety provided by the standards.

  III. SNUG-FITTING GARMENTS SHOULD REMAIN EXEMPT FROM THE CHILDREN'S 
        SLEEPWEAR FLAMMABILITY STANDARDS (16 CFR 1615 AND 1616).

    CPSC has very strong data indicating that the exemption of tight 
fitting garments does not diminish the protection provided by the 
standards. All currently available data strongly demonstrate that loose 
and flowing nightwear garments are the kind of nightwear involved in 
burn injuries and fatalities (59 FR 53620; Oct. 25, 1994, ref. 8, 10, 
11 and 61 FR 47634; Sep. 9, 1996); that tight-fitting garments are less 
likely to contact an ignition source and less likely to be ignited and 
if ignited burn less rapidly than loose fitting garments; and that 
tight-fitting sleepwear does not present an unreasonable risk of fire 
leading to burn injury or death to children.
    These amendments did not affect loose pajamas, nightgowns, and 
robes. Those items still must meet the requirements of the Children's 
Sleepwear Flammability Standards and be flame resistant. In addition, 
tight-fitting garments must comply with the Standard for the 
Flammability of Clothing Textiles, 16 CFR 1610.
    A. Snug fitting garments are one of the safest types of garments 
because: (1) they are not easily ignited because the body acts to 
absorb heat from the ignition source and thus helps to slow the heating 
of the fabric to the point at which ignition can start; (2) they make 
the wearer immediately aware of an ignition source, since the heat of a 
match or lighter flame is transferred through the fabric directly to 
the skin; and (3) if they are ignited, they tend to burn slowly, 
because only one side of the fabric receives sufficient oxygen to 
support combustion. Using mannequins and video-tape recordings, the 
safety of tight-fitting garments has been demonstrated and illustrates 
why those garments do not represent an unreasonable flammability 
hazard.
    B. Canada originally adopted the US Children's Sleepwear 
Flammability Standards but modified them in 1987. The major reasons for 
amending their standard were results from mannequin testing of garments 
that were described in a Final Report to the Consumer and Corporate 
Affairs Canada by E.M. Crown, U. of Alberta, July 1985 and a Canadian 
Medical Association paper (J.R.S. Stanwick, CMAJ 132, 1143, 1985).
    Since promulgation of the amended Canadian sleepwear standards in 
1987, no burn injuries or deaths associated with children's sleepwear 
have been reported in Canada (61 FR 47634; Sep. 9, 1996). A December 
18, 1995, letter from Therese Gagnon, Acting Chief, Mechanical and 
Electrical Hazards Division, Health Canada, Health Protection Branch, 
Product Safety Bureau, to NCC concerning the Children's Sleepwear 
Flammability Standards and the Canadian experience, states:
        ``Since the Regulations have come into effect, injuries due to 
        the ignition of children's sleepwear are no longer an issue in 
        Canada.''
    Australia and New Zealand also have standards that include fit 
characteristics that exempt tight-fitting garments. The burn injury and 
fatality data in these countries show that these standards are working 
(59 FR 52620; Oct. 25, 1994 and 61 FR 47634; Sep. 9, 1996).
    D. Other than the United Kingdom, no other European country has 
legislation or standards specifically to control the fire safety of 
children's sleepwear. The UK Nightwear (Safety) Regulations 1985 
(finalized December 20, 1985) came into effect March 1, 1987. Since 
1987 the UK has allowed children's nightwear that does not meet strict 
vertical flame test requirements in the marketplace (if it is labeled). 
The UK burn incidence data indicates that their standard is working.

 IV. INFANT GARMENTS, SIZED 9 MONTHS OF AGE OR YOUNGER, SHOULD REMAIN 
  EXEMPT FROM THE CHILDREN'S SLEEPWEAR FLAMMABILITY STANDARD SIZES 0 
                       THROUGH 6X (16 CFR 1615).

    Infant sleepwear should never have been covered in the original 
standard. The determined unreasonable risk that the Children's 
Sleepwear Flammability Standards are designed to protect the child 
against is when the child is up and ambulatory and can obtain matches, 
cigarette lighters, candles, or be exposed to other sources of flame, 
including stoves, fireplaces, and space heaters, not when the child is 
in bed. These exposures are not encountered by pre-ambulatory children.
    The Canadian and other countries' experiences for burn injuries and 
fatalities for infant sleepwear sizes are similar to the US as reviewed 
by CPSC--there are no cases under 15 months. These infant items are not 
included in the Canadian, Australian, and New Zealand Children's 
Sleepwear Flammability Standards, all of which are effectively 
protective standards (59 FR 52620 and 61 FR 47634).
    The rare or exceptional accidents for infants lying in their cribs 
still occur. In exposures to large flame source such as a burning 
mattress or crib or house fire, or if something burning is tossed on 
the bed and over the child, none of the products on the market, flame 
resistant or not under 16 CFR 1615 and 1616, will provide protection 
from injury. Complying flame resistant garments provide no protection 
from injury under these circumstances. No general wearing apparel will. 
If anything cotton sleepwear may be slightly more protective than 
untreated polyester garments (1977 memo/report from J. Krasny, NBS, to 
M. Neily, CPSC).

                                V. OTHER

    Some also argue that a more severe Children's Sleepwear 
Flammability Standard is required in the US because we have more 
residential fires than almost any other country. This argument is 
without merit since in the US the number of residential fires where 
``all wearing apparel worn'' was the form of material first ignited was 
less than 0.2% (CPSC Report, 1993 Residential Fire Loss Estimates, Nov. 
1995). Therefore, sleepwear is not a risk factor in residential fires.
    Changes in lifestyle in the US, as in other countries, e.g., in 
smoking habits, elimination or reduction in use of space heaters, and 
other socio-economic changes, also provide additional reasons that 
these amendments to the Children's Sleepwear Flammability Standards 
were the justifiably correct thing to do.

                            VI. CONCLUSIONS

    We agree that CPSC is correct in its determination that these 
amendments afford the consumer a wider selection of sleepwear garments 
without reducing the protection provided by the standards.
    There is no basis in documented fact to overturn the CPSC decision 
to amend the Children's Sleepwear Flammability Standards. All available 
burn injury and fatality incidence data from the US and all other 
countries, as well as technical studies with mannequins, support the 
CPSC conclusions that the amendments to the Standards for Flammability 
of Children's Sleepwear (sizes 0 through 6x and 7 through 14, 16 CFR 
1615 and 1616) which exclude tight-fitting sleepwear garments and 
garments sized for infants 9 months of age or younger do not diminish 
the protection to the public from unreasonable risk of fire provided by 
these standards. The CPSC's conclusions to amend and reaffirm the 
standards were arrived at after many years of intense and thorough 
study and two full notice and comment rulemakings, which included 
extensive briefing packages outlining the rationale for the staff 
recommendations.
    We appreciate the opportunity to testify at this hearing. We urge 
the Congress to uphold the amendments to the Children's Sleepwear 
Flammability Standards that exclude infant garments (sized 9 months of 
age or younger) and snug-fitting garments and refrain from further 
legislative actions on these standards. In addition, groups concerned 
with fire safety and children should be encouraged to focus their 
resources and efforts, with those of CPSC and industry, on educational 
campaigns to inform American consumers about the current sleepwear 
standards and the importance of teaching fire safety to children.

    Mr. Tauzin. Thank you is very much, sir.
    We will now switch to the issue of the amusement park bill, 
and we will hear from, first, Mrs. Kathy Fackler of La Jolla, 
California.

                   STATEMENT OF KATHY FACKLER

    Ms. Fackler. Thank you, Congressman Tauzin, and thank you, 
Congressman Markey, wherever you are for introducing this bill.
    Mr. Tauzin. If you will allow me, the problem we are 
experiencing today is that another subcommittee of our full 
committee is engaged in a very controversial markup. So Members 
are required to cast votes in that controversial markup; and, 
therefore, they are not with us and apologize for Mr. Markey 
and Mr. Rogan and others who are part of that markup.
    Ms. Fackler. I know you are busy. I am going to summarize 
what is in my statement then I would like to move actually and 
comment on what I have been hearing around here. On March 10, 
1998, my 5-year-old son David's foot was torn in half on a 
roller coaster ride at Disneyland. The accident occurred while 
he was sitting next to me with my arm around his shoulder and 
the safety bar in place across his lap.
    He became confused when the car made a temporary stop 
before the platform, thought it was time to get off and tried 
to get out of the car. And my arm and the bar kept his body in, 
but his foot came out the open side of the car. The operator 
wasn't able to see it in time, people yelled on the platform. 
But it was just crazy at that time, and his foot was pinned in 
between the car and platform as the ride came into the station.
    In the wake of that, what I was more surprised at, frankly, 
than the accident itself was the lack of any kind of outside 
oversight surrounding this accident. The fact that Disneyland 
did not have to report the accident to anybody. They didn't 
have to have anybody come in from outside the company to 
investigate the accident. The police weren't called in. The 
press never found out about it. Even though my son screamed for 
an hour in the middle of Frontierland during business hours no 
one knew about this accident for a year after it happened. It 
passed unnoticed, as do the vast majority of amusement-park 
accidents.
    So my concern with the industry actually has little to do 
with their technical capacity. I have nothing but admiration 
for the technical arm of the industry. But what bothers me, 
frankly, is that David's accident is typical of the 65 to 85 
percent of amusement-ride accidents that industry attributes to 
patron misconduct. And yet none of that data is out there where 
it needs to be.
    I find it doesn't make any sense to me that consumers are 
considered fully responsible for up to 85 percent of accidents, 
and yet those same accidents are considered none of our 
business. And so since David's accident, I have learned more 
and more about the problem and learned that it is a child-
safety issue. These preschoolers are at highest risk. I think 
that those issues need to be addressed. There are no mandatory 
Federal safety standards for these rides. The restraints can 
range from anything that can sell. Many kiddie rides have no 
restraints at all. Some have a piece of clothes line that is 
clamped off across.
    No one is looking at this stuff, and the data is not out 
there where it needs to be.
    So as I have listened here to the panel, the things that 
come up that surprise me the most, frankly, was the mistaken 
impression that we are looking to Federal regulation to set G-
force limits or to provide, you know, yearly inspections of 
these rides. And to my knowledge all I am looking for is more 
data, more public access to data, and to have some agency that 
can take a broader view of this. The State agencies do a 
marvelous job of looking at individual accidents. But they 
can't connect the dots between an accident that happens on a 
Tilt-a-Whirl in one State and another State. Only a Federal 
agency can do that. They also can't disseminate that data 
nationwide.
    I would like this added to the record if I could. It is a 
copy of a letter that I wrote to Senator Feinstein's office. It 
recounts a conversation that I had with Bob Johnson who is the 
executive director of the Outdoor Amusement Business 
Association. He is the counterpart to Mr. Graff in the 
traveling carnival world. He talked about how the CPSC 
oversight complements the State programs, and he felt actually 
that it was anything but intrusive and that their industry gets 
some benefit mostly having to do with the collection and 
dissemination of data.
    I have another letter that I would like to have introduced 
as well, it actually was an excerpt of a letter that I wrote to 
some of the California Park representatives outlining what it 
is like as a consumer to try to track down this injury data.
    I went through this exercise last fall. And again, I was 
appalled not only by how difficult it is, I mean that is all 
right, but the fact that this data just doesn't exist. The 
NEISS data from the Consumer Product Safety Commission is far 
and above the best data and it isn't technical at all. It comes 
from hospital room records. So there is nothing in there that 
oftentimes they don't even sight what ride it was on, and they 
certainly don't say what happened to cause the accident. So 
while it gives you a good overview of the age data which is 
important and a good overview of the kinds of physical problems 
that are caused or injuries that can are caused by these rides, 
it doesn't help to highlight where we need to go to solve the 
problem.
    I heard several people mention that one representative said 
that the 12 most tragic deaths happen at traveling carnivals, 
and I am not sure where they got that impression. First of all, 
every death is tragic to the parent. But second of all, last 
year all of the deaths happened at permanent parks. I agreed 
with Representative Eshoo about the need for more data. I mean 
it makes sense. You cannot possibly understand the problem 
without more data. I have heard that from the Consumer Products 
Safety Commission commissioners as well, even though they may 
differ on what the Consumer Products Safety Commission ought to 
do. They all say, well we just don't know because we don't have 
the data.
    What I would like to do here, and this is what I have been 
lobbying for in California as well, is to give the consumers 
the information that empowers them to keep their own families 
safe. And if most of these accidents are, in fact, caused by 
rider errors such as my son made, the only possible solution is 
public education. And the industry is not in the business of 
public education. They are great in technology and they are 
great in selling tickets, but the one thing that they don't do 
is put that information out where it needs to be.
    In my son's case, when Disneyland went through their 
investigation they didn't talk to me or either of my two 
children who were riding with me. They didn't interview any of 
the eye witnesses, that were not Disneyland employees. They 
conducted their whole investigation and the changes to the ride 
while we were still in the hospital. And the changes, they 
never did anything to keep a child's foot from coming out of 
the side of the ride. They never did anything to warn parents 
that they need to watch their children's feet. Again there are 
simple solutions to these problems, but not if you stop the 
free flow of data.
    I have heard their ride designers; I have heard from people 
in the industry, inspectors, they all want more data because it 
helps them do their job. A ride designer can't pull up a list 
of all of the accidents that have hurt children if he is 
designing restraints for a kiddie ride. Many of those 
restraints are the same restraints that they have used for, in 
the case of ferris wheels, for 100 years, and no one has looked 
at this to see whether possibly we could upgrade the standard.
    The newer roller coasters, the wild rides, actually the 
safety technology has improved along the same rate as the 
thrill technology. So, frankly, I am way less worried about, 
you know, a super coaster that uses an over-the-shoulder 
harness to retrain an adult than I am a kiddie train that uses 
a piece of clothesline to restrain a toddler. So I think again 
we need to look at the problem itself.
    There was a question asked about State programs, and I have 
looked. Again this is another subject I have researched 
extensively and while some States, Ohio for one, New Jersey for 
another, have excellent programs, some States don't necessarily 
have great programs. I will tell you there are some States like 
Florida that exempt the large parks. In that State, 20 percent 
of the amusement park business operates out of the Orlando area 
in the large theme parks. They are exempt from the State law.
    Those parks like Disney World, Universal Studios Florida, 
they don't have to report injuries or deaths even if a death 
happens. They need to report it to the coroner, but they are 
not allowed to have the safety regulators come in and take a 
look at that from a technical standpoint. There was, oh gosh, I 
know I am going through my time. I am so sorry. There has been 
bickering over the NEISS system and whether the data is valid 
or not valid. Why don't we come up with better data? Then if 
the data is inadequate, I think we ought to come up with better 
data.
    Just to say California, that was the first news I ever 
heard that California has allocated $24 million for ride safety 
review. The last figure I heard was 1.6 and it was being 
negotiated down by the industry.
    So to sum up, all the available data indicates that 
amusement ride accidents are a child-safety issue. The Consumer 
Products Safety Commission has an established track record in 
this area. It is foolish to exclude certain amusement rides 
from their jurisdiction simply because the rides aren't being 
regularly transported. Children aren't hurt because the rides 
are moved from place to place. Children are hurt because the 
rides are heavy machinery and because the injury data is hidden 
from the public.
    I have seen first hand the kind of damage that an amusement 
ride can do to a small child. My 5-year-old son's foot was torn 
in half while he was sitting next to me with my arm around his 
shoulder and the safety bar in place across his lap. When we 
boarded that ride, I assumed it was subject to the same 
oversight and protections that apply to all other children's 
products. I was wrong.
    My son will live the rest of his life paying the price for 
my misplaced trust. It is time for Congress to stop protecting 
theme parks and start protecting children who visit them. I 
urge the committee to move H.R. 3032 forward as soon as 
possible so that the safety lessons we learn through personal 
tragedies, like David's, can be shared nationwide.
    Mr. Tauzin. I believe you brought your sons with you. You 
want to introduce them to the audience.
    Ms. Fackler. This is my husband, Mark, over on the end. He 
is a conservative Republican, by the way. This is David.
    Mr. Tauzin. This is David.
    Ms. Fackler. I am so proud of David. He has been just the 
hero through all of this. He has really done a fine job. This 
is my older son, Steven, who has been a giant help as well.
    [The prepared statement of Kathy Fackler follows:]

                  Prepared Statement of Kathy Faclker

    On March 10, 1998, my five-year-old son's foot was torn in half on 
a roller coaster ride at Disneyland. The accident occurred while he was 
sitting next to me, with my arm around his shoulders and the safety bar 
locked in place across our laps. David mistook a temporary stop for the 
final stop, and tried to get off the ride. In doing so, his foot came 
out the open side of the car, and was crushed between the car's edge 
and the loading platform.
    David's accident is typical of the 65%-85% of amusement ride 
accidents which the park industry attributes to patron misconduct. 
Hospital emergency room data provided by the Consumer Product Safety 
Commission shows that \2/3\ of all ride-related accidents involve 
children. Preschoolers are at higher risk than any other age group.
    Yet there are no mandatory federal safety standards for amusement 
rides. Restraints on kiddie rides range from seatbelts and lap bars to 
pieces of clothesline or, in many cases, nothing at all. Permanent 
amusement rides are the only consumer product marketed to children that 
are specifically exempt from federal safety oversight. Although many 
states have some form of regulatory law governing some amusement rides, 
the largest theme parks are almost entirely self-regulated. Parks like 
Disney World and Universal Studios Florida are not required to report 
injuries to any outside agency, or allow ride safety officials to 
investigate serious accidents--not even if a rider dies.
    Disneyland is also self-regulated, and will be until California's 
new regulations have been finalized. The maiming of my child was not 
reported to anybody. The police weren't called in. No one from the 
press found out about the tragedy, despite the fact that David screamed 
for an hour in the middle of Frontierland during business hours. The 
incident passed without notice--as the vast majority of amusement ride 
accidents do.
    Disneyland conducted their own investigation and made changes to 
the ride while David was still in the hospital. No one from 
Disneyland's technical staff contacted me as part of that process. Nor 
did the company interview the three best eye-witnesses: a man riding 
directly behind us, and a couple waiting on the platform.
    Disneyland did not modify the ride to guard against young children 
sticking their feet out the open sides of the cars. Nor did they do 
anything to warn parents about the platform entrapment hazard. Instead 
they added the word ``feet'' to the warning sign that David was too 
young to read. And they built a ramp on the facing edge of the platform 
in the hopes that a child's foot would be more likely to ``bounce off'' 
a ramped approach, and not be caught in the one-inch gap that still 
exists between the cars and the platform.
    Thanks to self-regulation, the thousands of visitors who line up 
every day for a turn on Big Thunder have no way of knowing that they're 
loading their own children onto a ride that once tore a 5-year-old 
boy's foot in half.
    Congressman Markey's bill is a model of brevity. In four sentences, 
it returns consumer rights to a heavily protected industry. The 
Consumer Product Safety Commission has been regulating traveling 
carnival rides for more than 20 years. They are the only agency that 
has authority to ``connect the dots'' between related accidents in 
different states, and develop a plan of action to address product 
hazards. Sometimes this involves a modification to the design, 
operation, or maintenance of the ride, information which the CPSC 
disseminates to ride owners/operators across the country.
    Product safety also involves public education. The amusement park 
industry attributes the majority of accidents to rider error. Given 
that amusement parks are in the business of loading children onto heavy 
machinery, their claim makes perfect sense. Yet the industry, which 
claims safety as it's number one priority, does very little to 
constructively address what they readily admit is the primary cause of 
accidents. In a recent USA Today article ("Park Safety Rules Lax", 
April 7, 2000), John Graff of the International Association of 
Amusement Parks and Attractions (IAAPA) claimed that "that kind of 
thing is largely beyond our control."
    Unlike the IAAPA, the CPSC is both willing and able to raise public 
awareness about child safety issues. They're the people who issue 
safety bulletins about bike helmets and window cord strangulation and 
keeping kids away from rider mowers. Those bulletins are picked up and 
published by parenting and women's magazines, so that parents learn how 
to keep their children safer.
    The amusement park industry deserves high praise for their 
technical achievements. They put enormous effort into constructing, 
testing, and maintaining safe equipment. They are not, however, in the 
business of disseminating safety information to the public. Although 
they consider 65%-85% of accidents to be wholly the consumer's 
responsibility, they also consider those same accidents to be none of 
our business.
    In fact, the CPSC is the only source of nationwide injury data on 
amusement park accidents. The agency has been monitoring the safety of 
traveling carnival rides for more than 20 years. I see no logical 
reason why permanent rides should be exempt.
    It's important to understand that, with the exception of giant 
roller coasters and a handful of custom-built rides found at parks like 
Universal Studios, there is no difference between traveling carnival 
rides and amusement park rides. In fact, it's quite common for an 
amusement park to sell a used ride to a carnival, or vice versa. So a 
Ferris wheel or Tilt-a-Whirl can be subject to consumer protection 
regulation one day and exempt the next, following a change in 
ownership. The 1981 exemption didn't eliminate a product from CPSC 
oversight, it created a loophole by which a select class of business is 
allowed to operate without governmental oversight.

                               CONCLUSION

    All the available data indicates that amusement ride accidents are 
a child safety issue. The Consumer Product Safety Commission has an 
established track record in this area. It seems foolish to exclude 
certain amusement rides from their jurisdiction, simply because the 
rides aren't being regularly transported. Children aren't hurt because 
the rides are moved from place to place. They're hurt because the rides 
are heavy machinery, and because injury data is hidden from the public.
    I have seen, first hand, the kind of damage an amusement ride can 
do to a small child. My 5-year-old son's foot was torn in half while he 
was sitting next to me with my arm around his shoulders and the safety 
bar in place across his lap. When we boarded that ride, I assumed it 
was subject to the same oversight and protections that apply to all 
other children's products. I was wrong. My son will live the rest of 
his life paying the price for my misplaced trust.
    It's time for Congress to stop protecting theme parks, and start 
protecting the children who visit them. I urge the committee to move HR 
3032 forward as soon as possible, so that the safety lessons we learn 
through personal tragedies like David's can be shared nationwide.

[GRAPHIC] [TIFF OMITTED] T4762.003

    Mr. Tauzin. Glad to have you here. Thank you, Kathy.
    Now we will hear from John Graff, president and CEO of 
International Association of Amusement Parks and Attractions 
here in Alexandria, Virginia. Mr. Graff.

                   STATEMENT OF JOHN R. GRAFF

    Mr. Graff. Good afternoon. My name is John Graff. I am 
president and CEO of the International Association of Amusement 
Parks and Attractions. Our parks have as their No. 1 priority 
the safety of our guests. We have in place extensive training 
programs for our employees and systems to check and recheck the 
safety of our rides. We are safety oriented out of a concern 
for our guests, but we are also highly motivated to promote 
safety because any accident, certainly any large number of 
accidents, can threaten our business and put us out of 
business. We are in the amusement business, and we know that 
people expect their amusement and leisure-time activities to be 
as free as possible from potential harm. The full text of my 
remarks make three points that I believe should be central to 
your examination of this issue. These are: First, amusement 
rides are an exceptionally safe form of recreation and 
entertainment, probably the safest available.
    Second point, the industry is highly regulated and 
adequately regulated by various government and private entities 
at the present time.
    Third, the industry has demonstrated its capacity for 
effective self-regulation and constant adaptation to new 
technology that is improving the way we provide safe fun to our 
guests.
    The annual CPSC report that has been referred to often this 
morning have consistently shown for over 20 years that there 
are very few new activities or products of any kind that 
produce fewer injuries than our park rides. Three hundred nine 
million visitors annually visit our parks, and they take a 
conservatively estimated 900 million rides. The incidents of 
those of serious injuries, injuries serious enough to require 
hospitalization is 1 in 25 million rides. Fatalities have 
averaged 2 a year for some 20 years, and that is a rate of 
incidence of 1 in every 450 million rides.
    We regard 36 accidents which is the number of serious 
accidents last year and 2 fatalities or even one accident as 
too many. We recognize the human pain and grief that attend 
each of them. But the question you must confront is whether 
there is a realistic possibility that another layer of 
regulation will further reduce those incidents and whether the 
resources that would have to be spent trying should be diverted 
from other critical national needs.
    The media has reported that the incidents of ride injuries 
increased 54 percent between 1995 and 1996 and 24 percent over 
the past 4 years. These numbers appear to be inaccurate. When 
they first appeared in the agency report, we contacted CPSC to 
discuss these reports. And we are told on three different 
occasions that they were not an increase in the number of 
actual injuries but that the method of collecting and reporting 
data had been changed which was the reason for that jump in 
1955, 1956. Ms. Brown suggested there was a misunderstanding. I 
say again, we were told that on at least three occasions to 
three different people on my staff over a period of years. But 
to double-check the statement, we hired an independent expert, 
a former CPSC employee, the director of strategic planning for 
the agency to analyze the numbers. Using the data supplied by 
the CPSC and the CPSC's own analytical methods, this expert 
found that the figures on which these claims are based are not 
accurate. In fact, he found there was a substantial decrease in 
the incidence of accidents between 1995 and 1996.
    Our expert confirmed that the CPSC changed its methodology 
in 1997 and suggested that this change could account for the 
increase that took place during this period of time. That is 
exactly what we were told on three occasions by the staff of 
the Commission. In other words, the accident increase 
justification being cited for this legislation simply does not 
exist.
    My second point is that the industry is already highly and 
effectively regulated by a number of agencies. All but a 
handful of parts are subject to State regulation. Only eight 
States do not have ride laws, Alabama is one of them, but is 
currently considering legislation. Of the remaining seven 
states, two have no parks and therefore no need for regulation. 
The remaining five have a total of seven parks between them. 
Whatever your personal opinion may be. I would suggest that it 
is a legitimate issue of public policy that States with so few 
parks need to set up an agency to oversee them, especially in 
the absence of a demonstration of need.
    My final point is that our industry has proven its capacity 
for leadership in the area of safety and for constant 
adaptation to new technology. Great concern has been expressed 
that technology is out of control in our industry. For years, 
there has been an independent committee that has produced a set 
of standards dealing with issues of safety raised by 
technology, the ASTM standards that have been adopted by many 
States as law and would serve as the standard that 
manufacturers and parks must operate to even if it has not 
formally adopted them into law.
    I was quite puzzled by Mrs. Brown's comment that CPSC is 
prohibited from participating in this process because they deal 
with fixed-location rides. The agency was represented for years 
on the ASTM committee by a Mr. David Caplan who eventually 
retired, and now there is a Thomas Cayton who represents the 
agency on the ASTM committee. There is nothing that I know of 
in either the rules or the methods of operation of ASTM that 
would prohibit them from being there because fixed-location 
rides are discussed along with mobile rides. There is no 
distinction made in the presentations that are the discussions 
that are made there.
    Let me address just very briefly, the issue of G-forces. G-
forces were under discussion by both the German agency 
responsible for ride standards and by the ASTM before the issue 
was ever raised in this Congress. There is a great deal of 
exchange of that kind of information between all of the policy 
and standards writing organizations, amusement ride safety 
standards organizations that stand in the world. I am confident 
that these groups which cooperate extensively, as I just said, 
will reach a consensus on appropriate action with respect to 
that subject. That this multitiered system of private and 
public regulation works and works well is again best evidenced 
by the success the industry has enjoyed worldwide in keeping 
the number of accidents very low.
    I would also point out that the chart that Mr. Markey used 
is a chart of all amusement park accidents not just ride-
related accidents. And children from 2 years old up to 7 or 8 
or 9 are not allowed on roller coasters because they can't meet 
the height requirements. So we have to be sure what we are 
looking at and what we are talking about here.
    I mention in my statement there are other organizations 
such as the AIMS organization, the Amusement Industry 
Manufacturers and Suppliers organization, which is involved in 
all of this and works closely with the operators, and the 
National Association of Amusement and Recreational Officers. 
These people provide very important information sharing 
function which is a matter of some concern here. They also 
conduct regular teaching seminars for operators and for public 
inspectors. All of this taken together is why the accident rate 
is as low as it is. The effort goes on ceaselessly to improve 
it even further. We are at least as concerned about this as 
anyone in this room and perhaps more so because of the acute 
interest that I mentioned. So I thank you for the opportunity 
to be here today, Mr. Chairman, and to discuss this with you 
and obviously like everyone else here am here to respond to 
questions.
    [The prepared statement of John R. Graff follows:]

   Prepared Statement of John R. Graff, President/CEO, International 
             Association of Amusement Parks and Attractions

    Good morning, my name is John Graff. I am President and CEO of the 
International Association of Amusement Parks and Attractions (IAAPA). 
IAAPA is a trade association for fixed location amusement parks and 
attractions with 5600 members in 91 countries. About 1,500 of those 
members are amusement parks and other facilities. The remainder is 
suppliers to the industry.
    Thank you for the opportunity to appear here today to discuss with 
you the amusement park industry's number one priority, the safety and 
well being of our guests and patrons.
    Our amusement parks have as their number one priority the safety of 
our guests. We have in place extensive training programs for our 
employees and systems to check and recheck the safety of our rides. We 
are safety oriented out of concern for our guests, but we are also 
highly motivated to promote safety because any accident can threaten 
our business. We are in the amusement business and we know that people 
expect their amusement and leisure time activities to be as free from 
potential harm as is humanly possible.
    This is the reason we are constantly striving to ensure the safest 
possible attractions and rides through a variety of programs and 
activities and through our cooperation with public and private 
regulatory and standards setting organizations. When an accident does 
occur, and accidents are rare, we take whatever steps are needed to 
assure that our guests receive prompt care and attention. We want to be 
measured not just by the steps we take to prevent accidents, but also 
on the actions we take when there is that rare accident. Our staff is 
trained to handle medical emergencies that are inevitable whenever 
people congregate, as well as for accidents. We are sensitive to the 
needs of our guests, and for their care from the time they enter our 
gates until they leave.
    I intend here to very briefly discuss three points that should be 
central to your examination of this issue. They are highly relevant to 
the decision you must make concerning the wisest use of limited federal 
resources. That is, the critical element of every public policy debate 
of this type is whether a realistically perceived benefit to be 
realized from some action justifies the diversion of resources from 
other priority items.
    My points are these:

1. Amusement rides are an exceptionally safe form of recreation and 
        entertainment--perhaps the safest available;
2. The industry is highly and adequately regulated at the present time; 
        and
3. The industry has demonstrated its own capacity for effective self-
        regulation and constant adaptation to new technology and new 
        challenges in the area of safety.
    IAAPA strongly and with ample justification believes that our 
industry is exceptionally safe. This belief is supported by the 
government's statistics. While attendance at fixed-site U.S. parks and 
attractions has grown to 309 million annually, the CPSC estimates that 
of the 4,500 injuries nationwide in 1998 involving rides at these 
venues, only 36 resulted in hospitalization. Again, according to CPSC 
statistics, fatalities related to fixed-site amusement rides have 
averaged just 2 per year over the past two decades.
    Assuming each guest takes only three rides (for a conservative 
total estimate of 900 million rides in the U.S. yearly), the odds of 
being injured seriously enough to require hospitalization are therefore 
1 in 25 million, and the odds of being fatally injured are 1 in 450 
million. I invite you to look at the entire list of products and modes 
of conveyance regulated by CPSC and other federal agencies and see 
which, if any, come even close to our record in terms of the number of 
injuries.
    Year after year, rides have remained at the low end of the CPSC's 
figures on product-related injuries. In fact, the latest statistics 
estimate that more people were injured in 1998 while fishing (77,643), 
dancing (38,427), golfing (46,019), and bicycling (597,284) than were 
injured on or in fixed-site amusement rides (4,500). Please remember, 
too, that in each of these instances we are talking about injuries 
serious enough to require the individual involved to be examined or 
treated in a hospital emergency room--the same threshold as is used for 
counting amusement ride injuries.
    I know that some question the relevance of these comparisons. They 
are nonetheless relevant and informing. They demonstrate that there are 
risks in life, sometimes from everyday activities. Yet, we in the 
amusement park industry have minimized these risks well below these 
other, some seemingly innocuous, activities.
    Let me add that it seems clear that the public is very confident of 
our ability to provide safe entertainment. As already noted, amusement 
park attendance is currently at 309 million visits. Despite the 
occasional accidents that do occur and the tremendous amount of media 
coverage they generate, that attendance number has been increasing 
steadily for years.
    If you will permit me a further, personal, note, I can state 
truthfully that I have visited hundreds of amusement parks all over the 
world. My employment provided me the opportunity to take my children to 
many parks of all types and sizes. We are all enthusiastic riders and 
to this day there is not a ride I would be afraid to get on alone at 
age 64 or with my children.
    It has been said that there is a loophole in the law for fixed site 
rides. There is no such loophole. In 1981, Congress examined the issue 
of ride safety and the jurisdiction of CPSC. That review was not a 
Reagan administration initiative to take away CPSC jurisdiction over 
our parks. For several years CPSC had been exercising a jurisdiction it 
did not have.
    Prior to 1981 there had been a number of court cases asking the 
court to decide whether the definition of the term ``consumer product'' 
in Consumer Product Safety Act was intended to cover amusement rides. 
The decisions had split. Congress was urged, by our organization among 
others, to clarify the law. It did. After hearings and much discussion, 
including a review of the safety numbers and our industry practices, it 
concluded that our rides were not consumer products and not in need of 
regulation by CPSC. Several times over the intervening years the issue 
has been presented again. Congress has never seen fit to change its 
mind.
    The safety record to which I refer doesn't just happen. It is the 
result of concerted effort. IAAPA members have in place a variety of 
procedures and protocols to minimize the chance of an accident and to 
evaluate accidents that do occur in order to take appropriate action. 
IAAPA members do all they can to maximize safety.
    Although there is some disagreement as to the exact number of 
accidents that are caused by rider action or inaction, it is widely 
agreed that the majority of the accidents that do occur are unrelated 
to design, manufacturing, maintenance defects or defaults or operator 
error. I mention this because it means that of the already very small 
number of serious accidents that occur, an even smaller number are due 
to the kind of things that might be, and usually are, found by 
inspection.
    While it is impossible to control all human behavior, IAAPA members 
review every accident case, including those cases where rider horseplay 
or other patron negligence is shown to have caused the accident, in an 
attempt to develop operations and security methods to minimize the 
potential risk of harm to all of our patrons.
    Proponents of this legislation maintain that there has been a 
dramatic increase in the number of ride-related accidents in the last 
five years, particularly during the period 1995-96. I would invite you 
to take a very careful look at that claim before relying on it as 
justification for a new federal program. IAAPA undertook to check this 
out as soon as we saw the increase reported for 1995-96. We were told 
by the CPSC staff that the increase did not reflect an actual increase 
in the number of accidents but was, rather, the result of a change in 
the methodology used to collect and analyze the results.
    That explanation seemed more plausible than that all of a sudden, 
and for one year only, there was a 54% increase in accidents.
    To further satisfy ourselves on that point, we recently 
commissioned an independent analysis of the years in question by a 
company thoroughly familiar with the CPSC reporting system. Working 
with the data supplied to them by CPSC and using the same methods 
followed by the agency, our independent analysts found that the CPSC 
conclusion that injuries had substantially increased for 1995-96, was 
not supported by the agency's data.
    Further, this independent analysis reveals that in 1997 CPSC 
significantly redesigned its injury data collection sample, adding 
approximately 30 new hospitals to that sample. The analysis indicated 
that this significant redesign of the sample raised questions about the 
statistical representativeness and year-to-year comparability of the 
data for a product like fixed site amusement rides, with their non-
uniform geographic distribution across the nation. The modifications in 
methodology could also account for an increase that is revealed for the 
following and subsequent years. This is precisely what we were told 
when we contacted the Commission.
    It would seem important that you proceed with extreme caution and 
diligence so as to base sound policy decisions on valid and accurate 
data.
    For our part, we believe that even if the agency's numbers are 
correct, they show a leveling off after 1996 and, in fact, a decrease 
for the years 1997-98. There is simply no basis for believing that 
there has suddenly been a sharp, systemic, increase in ride injuries in 
recent years. Some variation is almost inevitable as total park 
attendance increases (or, as is happens quite rarely, decreases) each 
year.
    Efforts have been made to cast our safety claims in terms of 
accidents per mile and other comparisons; but the simple fact remains-
and it is confirmed by the public record--that what is at issue here is 
an annual average of 36 injuries serious enough to require over-night 
hospitalization and two fatalities in the entire country.
    The second of my three main points is that the industry is already 
highly and effectively regulated.
    In addition to the thorough set of internal protocols and 
procedures followed by member parks, all facilities are subject to one 
or more layers of outside, independent examination.
    Almost all parks are subject to compliance with various 
governmental codes and requirements. State and/or local officials 
perform a range of ride-inspection tests, and often assist park 
personnel with accident prevention programs.
    Much is being made of the fact that only 41 of 50 states regulate 
parks. Again, I invite you to look carefully at this. A critical factor 
is the distribution of parks among the states and whether they have any 
rides. More than a dozen years ago we surveyed and discovered that at 
that time 85% of all the parks in the country were subject to some, in 
almost all instances State, jurisdiction. Since that time, a number of 
additional states, including California which has a great many parks, 
have enacted ride regulation statutes. Since the figure 41 was 
published, the State of Missouri has enacted a law. So, there are now 8 
states without such a law. Of those, the legislature in Alabama is 
currently addressing the issue, and five states have a total of only 7 
parks with rides (AZ, KS, MS, SD, UT). The remaining two states have no 
parks (ND, MT).
    I might add parenthetically that I was surprised to find South 
Dakota, my home state, among those having an amusement park. I visit 
there constantly and have never been aware of such. In investigating, I 
found that an indoor swimming pool that has been in the Black Hills for 
nearly a century recently added a Ferris wheel to its property and thus 
became, by somebody's definition, an amusement park.
    I think it is a fair question of public policy with respect to 
which reasonable people can disagree as to whether a state with no 
parks or even only one or two should set up an agency to regulate 
parks. I would note, however, that as an organization we have never 
opposed state regulation.
    One has only to look again at the number of serious accidents 
occurring to be re-assured that this system of regulation is working 
very well. But it is not the only safeguard.
    Amusement parks must pass rigorous ``risk control'' inspections 
carried out by representatives of insurance companies. Other outside 
specialists are also used to inspect rides. All these various 
government agencies, organizations and specialists work together 
effectively to provide the public with a very high level of assurance 
that their day in the park will be a safe one.
    Finally, I point with pride to the fact that the industry has 
proved its capacity for leadership in the area of safety and for 
constant adaptation to new technology and the changes that affect our 
industry.
    Years ago we took the leadership in getting the industry involved 
in the development of comprehensive amusement ride standards, under the 
auspices of the American Society for Testing and Materials. ASTM is an 
independent standards-writing organization that requires broadly based 
committees, including representatives of the public interest, in 
setting their standards. CPSC has participated in that process for many 
years.
    That ASTM committee exists precisely to analyze the uses of 
technology and to provide standards to both manufacturers and operators 
concerning safe design, manufacture and practices.
    The ASTM standards are in place. They are, however, constantly 
subject to review and revision as new technology and new experience 
dictates. The committee meets twice a year for this purpose.
    The ASTM standards are voluntary as drawn but many states have 
incorporated them in their regulatory schemes, thereby giving them the 
force of law. Where they are not encoded, the standards still provide 
an effective shield for the public. The nature of our legal system is 
such that no one operating in the industry could afford to ignore the 
standards.
    The issue of g-forces and ride design has been raised. This, too, 
needs to be looked at objectively. The designers and manufacturers of 
rides have been designing rides for years in accordance with the best 
knowledge available concerning the effect of such forces on our guests. 
The same modern technology that makes higher and faster rides possible 
also makes it possible to much more accurately assess these forces and 
accommodate them in design and manufacturing processes.
    Proposals relating to g-force analysis and safety are under 
discussion in both the German organization responsible for ride safety 
and the ASTM committee in the U.S.
    Furthermore, for years there has been a high level of communication 
and cooperation between those involved in writing ride standards in the 
U.S. and the various standards writing bodies in Europe. I am confident 
that this process of international sharing of information and ideas in 
the standards area will continue.
    The maintaining of the industry's excellent safety record also 
involves an assurance that information concerning safety matters be 
communicated effectively throughout the industry. There are many 
protocols involving the parks, manufacturers and government agencies 
that result in the reporting of incipient or actual problems involving 
ride safety. The ASTM ride standards also require reporting of both 
accidents and ride-related defects.
    The existing regulatory system which helps insure the extraordinary 
safety record of the industry is capable of making whatever adjustments 
are necessary to produce and make available vital information.
    The industry has long opposed being subject to the reporting 
requirements contained in Section 15 b of the Consumer Product Safety 
Act. Those provisions may be quite adequate for most general consumer 
products but they are not at all appropriate for something like an 
amusement ride.
    It is the conclusion of all legal experts in the industry that I 
have spoken to over the years that the language of Section 15 b is 
ambiguous at best when applied to rides and could very well require 
every ride in every park to be reported to CPSC as a potentially 
dangerous product. That would include such things as carousels and 
kiddie cars.
    Let me conclude by stressing once again that the safety and well 
being of our guests and patrons is our number one priority. Anyone in 
the business who had had to deal with an serious accident knows the 
anguish and anxiety that results--certainly for the injured guest and 
his or her family, which is our first concern, but also for the people 
on staff. IAAPA members recognize and accept that full responsibility 
for providing a safe environment rests squarely with the parks 
themselves. We strongly believe that the current scheme of voluntary 
and state-based regulation is working and that adding another layer of 
federal regulatory oversight will not improve safety in our parks.
    Thank you for the opportunity to testify. I stand ready to answer 
any questions that you might have.

    Mr. Tauzin. Thank you very much. The Chair recognizes 
himself and other members in order. Let me first of all, Mr. 
Graff, ask you with reference to the statistics compiled by 
CPSC on accidents and amusement parks, you quarrel with the 
statistical finding that that was a dramatic increase in 
injuries in the year 1995, 1996, but you don't quarrel with the 
number of injuries reported do you?
    Mr. Graff. We have accepted the number of injuries reported 
by the agency for years. Mr. Hyden, the CPSC expert I talked 
to, suggests that because of the reporting system, because of 
the NEISS reporting system the number of accidents in our parks 
is probably overestimated. Mrs. Brown said underestimated. Mr. 
Hyden says that because of the way the NEISS system works with 
these 100 sample hospitals from which they determine a 
statistical average which is then multiplied times all the 
hospitals in America. There is a severe distortion in what he 
called location specific. There are 450 parks in the country, 
and there are 5,000 hospitals.
    Mr. Tauzin. Ms. Fackler makes a point that there are some 
parks which don't report to anyone, exempted. In the cases 
where parks do report to State inspectors or ride 
manufacturers, that information never reaches a central 
clearing house so that it can be distributed to other parks and 
other manufacturers or other operators so that they might make 
the changes that might protect a child from the foot injury her 
own son suffered. In terms of improving the ride safety or 
advices to those who are going to be riding the ride, what is 
wrong with a minimum requirement for centralized reporting and 
distribution of that information?
    Mr. Graff. Let me say first with respect to that, then I 
will get after the question. There is a great deal of 
communication of that type of information within the industry.
    Mr. Tauzin. I suspect there is, but I am asking you what is 
wrong with a mandatory requirement that everyone report these 
accidents and the defects that may be related to them so that 
everybody can fix them?
    Mr. Graff. Our basic objection to this process was the same 
one that was made in 1981, when you were still--I mean we were, 
you were involved in this committee, and again in 1987 that and 
that has to do with the specific language of the Consumer 
Products Safety Act as it applies to amusement rides and 
devices. On of the greatest things that was discussed in 
Congress in 1981 and 1987 was whether the NEISS language could 
be reasonably applied to amusement parks and it was decided 
that it couldn't. The act would require----
    Mr. Tauzin. But look I am going to have to move on. I want 
to ask you specifically regardless of the legalities of what 
the law says today, what it might say if we pass a different 
bill, what is wrong with the simple notion of all amusement 
parks whether fixed or mobile reporting to a central data bank 
from which--managed by CPSC or anyone, would mandatorily report 
any incidents of defects and accidents so that everybody can 
share that information and act accordingly.
    Mr. Graff. Reserving my objection to the precise language 
of the statute, I would say anything that will facilitate the 
exchange of useful information in a way that is protective of 
everybody's legitimate interest is certainly something that we 
will look at.
    Mr. Tauzin. Ms. Fackler, let me go to you and commend you 
for your efforts following your son's injury. By the way, I 
came within a week of having my own foot amputated as a child 
from a roller accident, you know, just roller skates. And so 
you know, accidents like that are just awful. That is the foot 
I love the most because I always put it in my mouth. So I am 
glad to still have it. But the bottom line is that kids have 
accidents, kids make mistakes.
    What you are saying in effect is that these things are 
going to happen by the nature of children making mistakes. They 
are asking simply that there be some systems by which when 
those things happen people know about them, people generally 
share that information. And hopefully rides can continually be 
improved so that there are fewer of those mistakes that lead to 
the accidents like your son suffered. Is that about the 
substance?
    Ms. Fackler. That is about it. And it is not just that the 
rides be improved. There has been a lot talk about product 
defects. I am not sure that the vast majority of the problems 
here has to do with a defective product, but it is the fact 
that children are being loaded on to heavy machinery. There is 
an expectation gap. We have heard a lot about car seats today. 
It is so interesting. Today we talk about restraining children 
in cars. We restrain children everywhere else in high speed 
vehicles, and then you get to an amusement park and those same 
protections don't apply. But oftentimes parents don't 
understand that when they go on.
    You know those hard metal lap bars that come down across 
your lap are not considered restraints by the designers I have 
talked to. They are considered something to hold on to. They 
help keep someone from being thrown bodily out of the car. But 
there is a chronic problem with those lap bars fitting closely 
against only the largest person in the car, and the children 
slip out either through the motion of the ride or if they are 
young enough they will just stand up. So having an adequate 
data base allows someone like me maybe to go out and help 
educate the public to the problem so that parents know when 
they go on those rides that they need to watch more closely 
than in a car.
    Mr. Tauzin. Let's talk about restraints quickly. Ms. Stone, 
you made the observation that in fact there ought to be better 
information to consumers about whether or not in particular a 
child restraint will work well in a particular car they own. I 
want to turn to your Britax seat, Mr. Baloga. It may perform 
very well in a Chevy Blazer but not so well in a Ford Taurus is 
what we are told. Can you answer that criticism on whether that 
is true and whether parents ought to be told whether a seat 
performs better in a given vehicle.
    Mr. Baloga. It is a very complicated issue and to answer 
that the engineers would need to know what kind of crash is it 
going to be, which is virtually impossible to answer. The 
characteristics of the vehicles are so much different because 
the seats are designed for adults and therefore vehicle seats 
need a child restraint. So there is such a variety of 
performance that it is really impossible to answer that.
    Mr. Tauzin. For example, just the simple question of 
whether the seat will fit in the car, shouldn't you give 
consumers information as to whether the seat you are selling 
them the seat for the child will actually fit in the car that 
the parents own?
    Mr. Baloga. There is a factor where the seat belt location 
is dictated by the vehicle manufacturers to fit adults and the 
child seat manufacturers have no influence on that whatsoever.
    Mr. Tauzin. I am not questioning whether you have 
influence, I am just saying consumer information. Wouldn't it 
be useful for you to put on your seats, in fact, all 
manufacturers whether or not it will fit in a car? I just made 
the case for my remote, you know, I was pretty upset when I 
called last night and found out this universal remote didn't 
work on my television. Just how much worse it is when you go 
buy an expensive car seat for your child and find out it 
doesn't fit in your car.
    Mr. Baloga. This is a good point. That is why we recommend 
try before you buy in terms of the child seat.
    Mr. Tauzin. But do you know as a manufacturer which cars 
your seat won't fit in.
    Mr. Baloga. In some cases where there are extreme problems, 
yes.
    Mr. Tauzin. I would just suggest, you know, maybe we have 
some need for some good consumer education information here. 
Because apparently the agency is not yet ready to report to 
consumers about which seats work better in which cars, but you 
certainly can tell at least whether they fit in a car. We 
probably ought to know that. I want to quickly turn to the 
other point with you that is the LATCH system. My understanding 
is that new cars do not need to be equipped with anchors until 
the year 2002. If that is correct, how much more do you think 
it will cost to equip car seats with the LATCH hardware?
    Mr. Baloga. Are you talking about vehicles or child seats.
    Mr. Tauzin. I am talking about vehicles that do not need to 
be equipped with the anchors that are critical to a LATCH 
system as I understand it.
    Mr. Baloga. So how much would it cost?
    Mr. Tauzin. To equip cars that don't have it. What are we 
talking about?
    Mr. Baloga. I am not really the right one to answer that. 
If it means a redesign, serious redesign of the whole vehicle 
it could be 10's of millions of dollars to retool.
    Mr. Tauzin. How much would it cost to make a change in the 
seat?
    Mr. Baloga. We are doing that right now, the industry. It 
can be $15 to $75 depending on the complexity of the 
attachment.
    Mr. Tauzin. You are in the business of doing that right 
now.
    Mr. Baloga. Absolutely, yes.
    Mr. Tauzin. Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman. When I was 5, I was 
chasing Bobby Olson and Charlie Kiddaro across the street. They 
were 9. In retrospect, I was way up where I should have been up 
there on the corner of Welsh Street, and I was run over by a 
car. There were two things my mother always told me, if I got 
run over by a car and was taken to an emergency room. One was 
my telephone number is M840815. Your name is Eddy Markey. And 
second make sure you change your underwear every day because I 
will be totally embarrassed if you ever go into your emergency 
room and they found out you didn't change your underwear.
    There is another lesson I learned too because I carry it 
with me for my whole life, which is this huge bump up here on 
the top of my head, which is--unlike other kids when they were 
15 or 16 back in the 1960's, I put my seat belt on. These cars 
can hurt you if they hit you.
    Now better to learn that lesson vicariously than in person. 
Huh?
    So now we look at the roller coaster industry, and they are 
over here kind of in this separate world where you are putting 
a whole bunch of kids into a ride which we know is very 
dangerous but without any Federal and in many States any State 
regulation. And we have got this huge increase now in the 
number of kids who will have a memory of the injury which they 
suffered.
    And I think that it again is much better for people to 
learn this lesson vicariously. The injury really isn't 
necessary and hundreds of millions of kids learn how to buckle 
up now or protect themselves without having to learn it in 
person. But there were no laws, obviously, when I was a kid 
that dealt with those kind of issues.
    So Mr. Graff, here is the problem for your industry. Your 
industry has--if we can put up the chart--your industry has a 
higher fatality rate per distance traveled than scheduled 
airlines, passenger trains, buses. In 1997, 42 passengers died 
on scheduled airlines at a rate of .01 per 100 million miles 
traveled. Roller coaster rides are much shorter than plane 
rides, but even so people are dying on roller coasters on a 
much higher rate than on airplanes. Now, do you think the 
airline industry is not sensitive to safety concerns? No, I 
don't think the answer is no to that. They are concerned. But 
do you think it makes sense for us not to regulate them at the 
Federal level to make sure that there are safety precautions 
built in for the public? I think obviously the answer to that 
is no as well.
    So your industry may be concerned, but there is no other 
industry that has such a high rate of accidents and fatalities 
for a million miles travelled that we allow to escape some form 
of Federal regulation. So the information is shared. If there 
is a plane accident in one State, the information is then 
shared with every other airline so that every other passenger, 
every other child getting on a plane any place else in the 
United States is given the opportunity to be given the 
protections which they need.
    Do you think, sir, Mr. Graff, that your industry should be 
exempt while the bus, plane, train, automobile industries are 
not except from some form of Federal regulation?
    Mr. Graff. Yes, I do. First place, I take issue with your 
characterization that you say these are really dangerous 
instruments, these roller coasters. They are not. And again I 
point to our public safety record. You characterize it, sir, in 
this manner, and that is fine and that is an interesting way to 
do it. The fact remains that there are 41,967 people killed in 
motor vehicles in 1997. From 1994 to 1996, the average number 
of airline deaths was 262. Our average for 20 years has been 2. 
Now, I suggest that the regulatory system that is out there and 
plus the industry activities that go on are producing an 
extraordinary safety record.
    Mr. Markey. Well, I think I am going to have to disagree 
with you. Because obviously every American for the most part is 
in an automobile every day. Every American is not on a roller 
coaster every day. Americans only go on a roller coaster once a 
year, and it is a very small percentage of all Americans that 
do and it is mostly families with small children for that 1 day 
they are going to go to the amusement park.
    So the absolute numbers may be smaller, but the percentage 
per mile traveled in the vehicle is higher in terms of the 
actual risk. And that is the only way there which you can have 
a fair comparison in terms of the rate of injuries and deaths 
on these competing modes of transportation.
    Mr. Graff. I would suggest that a more meaningful one would 
be the number of times the number of incidences that you get in 
your car as compared to the number of times you get in a 
coaster and how many times you have an accident.
    Mr. Markey. Let me move on. I know the Chairman wants me to 
wrap up. The industry has moved to adopt G-force limits, the 
amount of stress that these children should be placed under. At 
least one ride in the United States, Texas Tornado boasts of G-
force standards that exceed the German industry standard. Does 
that concern you that there are no standards in the United 
States, that other countries have standards, and we have yet to 
adopt one?
    Mr. Graff. First of all, you point out the Germans have not 
adopted a standard. They have a standard pending. There is a 
standard related to G-forces pending before the ASTM, the 
American Society of Testing Materials. So both of these 
organizations have that issue under consideration. There is a 
European Union committee working on amusement right standard. 
The issue is relevant to them. This is not anything new.
    Mr. Markey. When will your industry adopt a standard? Are 
you going to adopt a standard, Mr. Graff, on G-forces?
    Mr. Graff. The ASTM's committee of experts will look at 
that and determine what standards, if any need, to be adopted. 
That is what the process is about. And the CPSC has been 
involved over the years in that. I said again today, I don't 
know why they said they can't because they have been.
    Mr. Markey. We need a G-force standard, Mr. Graff.
    Mr. Graff. It is being considered by the committee.
    Mr. Markey. I don't know how many children have to die or 
be injured before G-force standard is put in place, but we are 
long past the time where your industry should ensure that every 
child is safe going on a roller coaster.
    Mr. Graff. We have exchanged that information with the 
Germans. I talked to Mr. Leitensdorfer this week about this 
very subject. I have known him for years. They come back and 
forth to our meetings. We go to theirs. This information is 
traded. I think you can assume that the industry across 
national boundaries will be arriving at some point of a 
consensus about what happens to G-forces.
    Mr. Markey. Mr. Graff, as long as the consensus is that you 
are going to have a standard then it is a good consensus. But 
it would be just plain wrong for us to go through another 
summer without having you built in the safety precautions for 
families with small children heading toward amusement parks in 
America.
    Mr. Tauzin. Thank you Mr. Markey. We have another vote on 
the floor. Let me just say for the record, Mr. Currie, you have 
sold me on your bikes. I am going to pass on you. But the other 
two of you that spoke on the children's sleepwear issue there 
are some questions I would like you to respond in writing. I 
will send them to you, but they basically have to do with the 
three commissioners testifying that there is not a single 
incident of a child wearing tight-fitting cotton sleepwear and 
receiving burn injuries. I would like to get your comments on 
that whether it is true or not.
    Second, that we have heard that there has been some real 
problems with consumers buying clothes that have been treated 
because of their fear of the toxicity of the chemicals involved 
in treating the sleepwear. I would like to get your comments on 
that.
    And finally whether or not you think the CPSC burn data 
information itself is flawed. Because obviously we have got a 
spotty record when it comes to Congress telling them what to 
do. You remember the first time we told them what to do with 
seat belts, some at least claim may have cost a lot of children 
their lives in the way--not seat belts, rather the air bags, by 
the way those air bags operate.
    And our record is spotty in that regard. We want to be very 
careful here to make the right decisions. Please respond in 
writing. We will issue the questions to you. The record will 
stay open for 30 days.
    Thank you all very much for the information you provided us 
today and the time you spent with us. The hearing stands 
adjourned.
    [Whereupon, at 2:20 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

 Joint Prepared Statement of the Alliance of Automobile Manufacturers 
            and the Automotive Coalition for Traffic Safety

    We are pleased to offer our comments on H.R. 4145, the Child 
Passenger Safety Act of 2000 and welcome the opportunity to work with 
the Subcommittee on Telecommunications, Trade, and Consumer Protection, 
along with the bill's sponsors and the sponsors of S. 2070, the Senate 
version of this legislation. Our section-by-section comments are as 
follows:
    We suggest expanding Section 2, Findings to include language noting 
that, notwithstanding the need to update test standards for child 
restraints, most children who are killed or seriously injured in motor 
vehicle crashes are completely unrestrained or are in child restraints 
which are either grossly misused or inappropriate for their age or 
size. In addition to upgrading test standards, NHTSA should expand 
programs that encourage parents and caregivers to properly secure 
children in child restraints, and in the rear seat, whenever possible. 
Additional funding for programs addressing these problems should be 
authorized.
    While we prefer to leave the specifics of regulatory matters in the 
hands of executive branch agencies, to provide flexibility to address 
changing situations, we agree that Congressional encouragement for 
NHTSA to review and update FMVSS 213 may be warranted. In addition, 
given the complexity of the issue of child safety in motor vehicles, we 
suggest that the Subcommittee consider requiring NHTSA to both initiate 
and complete actions by specified dates, and allow the agency to 
terminate rulemaking, or conduct additional research, should the record 
lead NHTSA to those conclusions. Mandating revised rules in so complex 
an area could lead to unintended consequences and we believe NHTSA 
should have the flexibility we suggest. Such a course of action would 
be similar to directions that Congress gave NHTSA in the 1991 ISTEA 
legislation.
    We support new side impact test requirements as described in 
Section 4(b)(1)(A) (except for belt positioning booster seats), but 
believe that rear impact and rollover test requirements may not be 
necessary. Few children in child restraints are seriously injured in 
rear impact crashes. We believe that a child restraint that performs 
well in frontal and side impact tests will also provide protection in 
rollovers. Updating child restraint test platforms to reflect 
contemporary motor vehicle designs is appropriate; however, we hope 
that when doing so NHTSA would consider harmonizing with the current 
ECE R44-03 standard, which has been recently updated.
    With respect to the use of additional anthropomorphic test dummies 
as specified in Section 4(b)(2), we believe that switching to the 
updated, more biofidelic test dummies (including an instrumented infant 
dummy) is as important as is adding more dummy sizes. However, as the 
world's technical community develops additional child dummy sizes, 
particularly representing children above age six, NHTSA should consider 
adding them to FMVSS 213.
    It is important to note that the new LATCH uniform attachment point 
requirements will, as of September 1, 2002, require many child 
restraints to be tested both forward-facing and rear-facing with lap 
belt, lap belt and tether, and LATCH attachments with several dummy 
sizes. The resulting matrix may involve approximately one dozen 
certification tests for a single child seat. Adding side, rear and 
rollover tests would expand the matrix to approximately fifty tests per 
convertible child restraint model. In view of the fact that 
affordability is already an issue with many families, Congress should 
direct NHTSA to carefully consider increased child restraint costs as 
it formulates its revised standards.
    Section 4(b)(3) appears to require that FMVSS 213 be extended to 
cover belt positioning booster seats. This issue is not easily 
resolved. A number of safety groups and the Blue Ribbon Panel II--
Protecting Our Older Child Passengers--have supported such a measure. 
However, belt-positioning booster seats rely on vehicle lap/shoulder 
belts, the geometry of which varies among vehicle models, to restrain 
the child. Since lap/shoulder belts are designed to restrain heavier 
adults, the strength of such belts is adequate to protect children in 
booster seats. In addition, current booster seats appear to be 
performing well in the field and booster seats rated for children up to 
eighty pounds are now being manufactured. The safety need for the 
existing dynamic test of belt positioning booster is highly 
questionable. While we are willing to work with child restraint 
manufacturers and NHTSA to explore possible testing protocols, we are 
not certain that an additional test for belt-positioning booster seats 
would necessarily improve child safety. NHTSA should carefully weigh 
the benefits and costs of such a test as it could have a negative 
effect on the cost and availability of booster seats, and, thus, on the 
fledgling booster seat market. Section 4(c)(1) should be redrafted to 
exempt belt-positioning booster seats. Side impact head restraint 
requirements are not practicable for booster seats because they utilize 
the lap/shoulder belt to restrain the child.
    Due to the large number of vehicle models, seat and seat belt 
configurations and the number of child restraint models in the 
marketplace, the inclusion of a limited number of specific child 
restraints in NHTSA's New Car Assessment Program protocol each year 
would appear unlikely to provide useful information for consumers. For 
example, inclusion of a certain child restraint in a specific vehicle 
NCAP test would provide information only for that child restraint-
vehicle combination. It would provide no information about other child 
restraints in that vehicle or that child restraint in other vehicles. 
In addition, even placing the child seat in a different seating 
position in that vehicle might yield different results. As discussed 
with regard to Section 5, below, we believe the use of a child seat 
that ``fits'' the vehicle seat is a more important criterion. Also, 
LATCH system attachments, as required by FMVSS 225, will help alleviate 
past child restraint and vehicle compatibility problems.
    We support changes to FMVSS 213 to make labeling text more readable 
and note that the Blue Ribbon Panel on Child Restraint and Vehicle 
Compatibility also recommended improved labeling.
    As an added objective for NHTSA, any updated U.S. standards issued 
under the directive of Section 4 should be harmonized with 
international standards and test procedures to the extent possible.
    Section 5 requires the Secretary to develop and implement a safety-
rating program for child restraints. Because of child restraint and 
vehicle compatibility issues, the current widely accepted definition of 
the ``safest'' child restraint is the one that will fit a person's 
vehicle and child and will be used consistently and properly. Many 
child restraints that fit securely on NHTSA's test seat may fit with 
varying degrees of security in different seating positions in different 
vehicles, depending on variations in seat and seat belt design. Thus, 
there can be no single best or safest child restraint for all seats in 
all vehicles. Many of these compatibility issues will be resolved with 
the implementation of LATCH system uniform attachments. In addition, 
NHTSA is developing a database which, when completed, will identify 
which child restraint models can be securely installed in different 
model vehicles.
    Because all vehicles and all child restraints manufactured after 
September 1, 2002 must be equipped with LATCH attachments, we suggest 
that any child restraint ratings program promulgated under the 
requirements of Section 5 rate child restraints as installed with LATCH 
system attachments. Such ratings could be based on the results of the 
updated compliance tests developed under Section 4(b)(1). In keeping 
with the NCAP practice of using all available restraint systems, the 
ratings should also utilize any standard equipment top tether straps or 
other standard safety features. Attempting to rate child restraints 
installed with the lap belt on the NHTSA standard test could 
unintentionally confuse consumers and could induce them to purchase 
child restraints that are not the best for the seats and seat belts in 
their vehicles.
    In closing, we reiterate that while this bill can have a positive 
impact on child passenger safety, the most common causes of death and 
serious injuries are riding unrestrained or in a child restraint that 
is being grossly misused. We urge the Congress to also address these 
important issues.
                                 ______
                                 
          Prepared Statement of American Academy of Pediatrics

    The American Academy of Pediatrics (AAP) is an organization of 
55,000 primary care pediatricians, pediatric medical subspecialists and 
pediatric surgical specialists dedicated to the health, safety and 
well-being of infants, children, adolescents and young adults.
    We are pleased to submit this testimony for the record of the May 
16, 2000, subcommittee hearing on ``Consumer Safety Initiatives: 
Protecting the Vulnerable.'' Specifically, our testimony addresses the 
``Child Passenger Protection Act of 2000'' (H.R. 4145), introduced by 
Representative John Shimkus and others, and the issue of regulations 
regarding the flammability of children's sleepwear.

Child Passenger Protection
    Every day, infants and children are injured and killed in motor 
vehicle accidents because they are not well restrained. In fact, more 
children are killed and injured in car crashes than from any other type 
of injury. As pediatricians, we see the terrible results of motor 
vehicle injuries in children.
    Using a child restraint that is well-designed and used correctly 
can prevent many of these injuries. However, we know that children are 
not always adequately restrained. Larger, older children are often 
transitioned to adult seat belts too soon. Booster seats are essential 
to keeping these kids safe. By using an adult seat belt too early, 
children are at risk for serious head injuries, which are the most 
common injuries in car crashes, as well as damage to the liver, spleen, 
intestine and spinal cord. These types of injuries can be prevented 
through widespread use of booster seats.
    Pediatricians strive to ensure that parents have up-to-date, 
appropriate information about car safety seat choices and use. A safety 
rating program to provide parents with clear, easy to understand 
information about choosing a child safety seat will help us spread that 
important message.
    By addressing these issues, we can help ensure that children are 
better protected in the car. We commend the sponsors of this 
legislation for their efforts to address the safety needs of our 
nation's youth.

Flammability Standards for Children's Sleepwear
    Injury is the leading cause of death and disability in childhood 
and early adult life-more school-age children die of injuries than all 
other diseases combined. Yet most of these major injuries are 
preventable.
    As pediatricians, there is nothing more tragic than seeing a child 
suffering from an injury that could have been prevented. This is true 
whether it is a severe burn treated at a burn center or a minor burn 
that is seen in a pediatrician's office. In many cases, the best way to 
prevent an injury is by altering the environment. The CPSC made the 
right decision years ago when it issued a standard to ensure that 
children's sleepwear would not cause burn injuries to children.
    Considerable progress has been made in the development of ways to 
understand and control childhood injury. The most notable successes 
have been in the reduction of poison and flame burns as causes of death 
and disability in childhood.
    Since the CPSC issued the children's sleepwear standards 
approximately 20 years ago, there has been a substantial decrease in 
the number of burn injuries and deaths to children. This includes an 
estimated tenfold decrease in the number of deaths associated with 
children's sleepwear. This strong association leaves little doubt that 
the sleepwear standard has had a major impact on children's safety. 
That is why the CPSC's decision to relax the children's sleepwear 
flammability standards is so disturbing.
    The American Academy of Pediatrics has had a long history of 
working successfully with the CPSC to prevent injuries to America's 
children. We have urged to reinstate the more stringent flammability 
standards for children's sleepwear in order to ensure maximum 
protection for children.
                                 ______
                                 
   Prepared Statement of David M. Borowski, Manager of Reporting and 
          Information, Corporate Finance Division, Freddie Mac

    Mr. Chairman, members of the Committee. My name is David Borowski. 
I'm the manager of reporting and information in the Corporate Finance 
Division of Freddie Mac. I'm also a counselor for young burn survivors 
at the Mid-Atlantic Burn Camp. There we help children from the 
Washington, Baltimore and Philadelphia areas adjust to living as 
normally as possible with the emotional and physical scars caused by 
fire.
    Proponents for the 1996 relaxation of the safe children's sleepwear 
standard say children are not likely to be involved in fire situations 
if they are younger than nine months. They say we should keep the 
relaxed standard and monitor statistics to see if further adjustments 
are necessary. And they seem to have decided that the risk of fire 
injury to children does not justify the added cost of making infants' 
sleepwear with fire-resistant materials. This is my response.
    First, I am a burn survivor. The fire occurred in 1954, years 
before the safe sleepwear standard was enacted. I was six weeks old. 
Now, I was a precocious child, but trust me, even I wasn't playing with 
matches at that age. In my case, a puppy chewed an electrical cord 
causing sparks that flew to me and the bassinet in which I lay, 
starting the fire. I sustained second and third degree burns over 
eighty percent of my body, and lost, most significantly, my entire 
right hand and part of my left hand. Much of my face, ears, scalp and 
feet have been reconstructed.
    The Consumer Product Safety Commission's statement relaxing the 
safe sleepwear standard says, ``infants under nine months are 
insufficiently mobile to expose themselves to sources of fire.'' I am 
living proof that lack of mobility does not protect children from the 
danger of fire. Fires can and do make their way to infants, who have no 
means of escape. And the younger they are, the more vulnerable they 
are.
    Second. Monitoring. Does anyone really want to wait for statistics 
to prove the previous standard was working? Let me tell you something. 
These statistics will not be neatly typed numbers on tidy white paper. 
They will be bodies: young, burned, in unimaginable pain and some 
horribly disfigured. Worst of all, they will be the same ``statistics'' 
that established the standard in the first place, twenty-nine years 
ago. Some lessons should not have to be re-learned.
    Finally, clothing manufacturers appear to be concerned about costs. 
Whatever that cost is, there is a far greater cost if the fabric is not 
flame resistant.
    There was a cost for me to be in the hospital for months. There was 
a cost to my insurance company for more than fifty surgeries. There was 
a cost to the Government as I continued my efforts to look more normal. 
And I was only one child.
    I'm sure you're aware that there is an even greater cost than 
money. There was the cost to my parents who, to their credit, 
magnificently adjusted to my limitations and helped me overcome them. 
And there was the cost to me, which I was able to pay because I had the 
emotional resources and family encouragement to do so.
    But I am not the norm. Many disfigured burn survivors choose not to 
engage in a society that places so much emphasis on traditional, 
physical beauty. I'm very aware that without my support system, I might 
not have accomplished what I have.
    Now, I know that we won't prevent every fire. But shouldn't we do 
what we can to minimize their effects on children? Today, you have the 
opportunity to do this. By re-establishing the safe sleepwear standard, 
you can, once again, help protect children from the physical and 
emotional scars brought on by fire.
    Each child at the Mid-Atlantic Burn Camp has his or her own sad 
story. Yet, in a way, the emotional results are the same. Even when the 
physical pain is gone and the children are declared physically 
recovered and are released from the hospital, the long, truly hard road 
is just beginning for the seriously injured and disfigured ones.
    Every time we prevent a child from being burned, we keep one more 
little person from ever having to set foot on that road. In light of 
the failure of the CPSC to fulfill its role as public protector, you 
are now charged with the responsibility of being the vigilant guardians 
at that gate.
                                 ______
                                 
                   Prepared Statement of Easter Seals

    Easter Seals national headquarters appreciates the opportunity to 
submit a statement for Subcommittee consideration that supports the 
``Child Passenger Protection Act,'' H.R. 4145. Please include our 
statement in the record for the legislative hearing, titled ``Consumer 
Protection Initiatives: Protecting the Vulnerable,'' held by the 
Subcommittee on Telecommunications, Trade & Consumer Protection on May 
16, 2000,
    Easter Seals strongly supports efforts to reduce the number of 
children who are injured or killed in car accidents. The Child 
Passenger Protection Act, H.R. 4145, includes provisions that will 
improve the accuracy of safety testing methods and ensure that parents 
have greater access to information about car seats, including proper 
installation and use.
    Easter Seals has partnered with the National Highway Traffic Safety 
Administration to improve access to child passenger safety information 
and car seating for all families. Easter Seals is concerned that child 
passenger safety information and seating does not adequately provide 
for the needs of families with children v4th disabilities. It is our 
hope that passage of this legislation will enhance testing, information 
and support to increase passenger safety for children with disabilities 
and special needs.
    Easter Seals is a community-based nonprofit organization dedicated 
to promoting independence for people with disabilities. Through a 
nationwide network of 105 affiliates, Easter Seals provides early 
intervention and special education, vocational rehabilitation, training 
and employment, medical rehabilitation, and an array of other home and 
community services to more than one million children and adults each 
year.
    Easter Seals appreciates the Subcommittee's interest in this 
legislation and encourages passage of this legislation as an effective 
means of promoting child passenger safety.
                                 ______
                                 
            U.S. Consumer Product Safety Commission
                                       Washington, DC 20207
                                                       May 22, 2000

Mr. W.J. Tauzin
Chairman
Subcommittee on Telecommunications, Trade and Consumer Protection
House Committee on Commerce
2125 Rayburn House Office Building
Washington DC 20515-6115
    Dear Mr. Tauzin: During the hearing on May 17, 2000 before the 
Telecommunications, Trade and Consumer Protection Subcommittee, a 
number of statements were made by Members and witnesses that indicate 
to me that the reasons for the Commission's amendments to the 
children's sleepwear standards have been misinterpreted and 
misconstrued. I ask that this letter be included in the hearing record.
    The Commission changed the sleepwear regulations to permit the sale 
of snug-fitting, non-flame resistant cotton sleepwear to give consumers 
who preferred non-flame resistant sleepwear a safe choice for their 
children. When the Commission began its consideration of amending the 
children's sleepwear regulations only one to two percent of all 
children's sleepwear sales consisted of chemically-treated flame-
resistant cotton. The market for flame resistant cotton sleepwear 
remains very small. Sales figures indicate that consumer acceptance of 
flame-resistant sleepwear was and is low. While more advanced chemical 
treatments or other methods of flame-resistance may increase consumer 
acceptance of flame-resistant sleepwear, the Commission was, and 
continues to be faced with the fact that consumers prefer natural 
fibers for children's sleepwear.
    With low consumer acceptance of flame-resistant sleepwear, the 
Commission amended its regulations to provide consumers with a safe 
cotton alternative for children's sleepwear. The Commission developed a 
careful record documenting why snug-fitting cotton sleepwear was 
reasonably safe. The testimony that I delivered at the hearing shows 
why snug-fitting cotton sleepwear is safe and I will not repeat those 
arguments here.
    Dr. David N. Herndon, MD testified during the hearing on behalf of 
the Shriners Burn Centers. Dr. Herndon's testimony proceeds from the 
premise that children are virtually safe from burn injuries if they are 
dressed in flame-resistant sleepwear. He even claims that such clothing 
will protect its wearers from burn injuries in house fires (pages 9 and 
10 of his testimony,) a claim that not even the manufacturers of flame-
retardant sleepwear will make. The Commission staff has conducted over 
200 investigations of combustion incidents involving children's 
clothing since 1993. About 70 of those incidents involved clothing that 
the children used for sleeping. While the majority of the incidents 
involved the ignition of garments not intended for use as sleepwear 
(e.g., T-shirts, sweatshirts, etc.), fifteen completed investigations 
involved burn injuries to children in sleepwear covered by the 
flammability standard, in other words, made of flame-resistant fabrics. 
Flame-resistant sleepwear is designed to protect its wearers from small 
open-flame, single-point ignition. It is not intended, designed or 
manufactured to protect a child in a house fire, and it will not do so.
    An objective that appeared to receive little attention at the 
hearing was consumers' freedom to choose among safe sleepwear 
alternatives. Consumers who wish to do so may purchase chemically-
treated flame-resistant traditional sleepwear (e.g., nightgowns, 
nightshirts, and traditional pajamas). Consumers who prefer untreated 
natural fibers may now purchase safe alternatives in the form of snug-
fitting sleepwear. I hope that the availability of safe sleepwear made 
from natural fibers will prompt consumers to reject unsafe alternatives 
such as oversize cotton T-shirts. The action taken by the Commission 
provides a greater net safety because it permits the sale of additional 
safe sleepwear options. Congress should not overturn the Commission's 
action legislatively and reduce this net increase in safety.
            Sincerely,
                                           Mary Sheila Gall
                                     Vice Chairman and Commissioner
cc: Members, Subcommittee on Telecommunications, Trade and Consumer 
Protection
   The Honorable Greg Ganske
   The Honorable Ann Brown, Chairman, CPSC
   The Honorable Thomas Moore, Commissioner, CPSC
                                 ______
                                 
                             Shriners Hospital for Children
                                                       June 2, 2000

W.J. ``Billy'' Tauzin
Chairman
Subcommittee on Telecommunications, Trade, and Consumer Protection
    Dear Mr. Tauzin, thank you for the opportunity to speak to the 
Subcommittee on Telecommunications, Trade and Consumer Protection. I 
appreciate the opportunity to clarity any issues before the hearing 
record is printed. Please find below my responses to each question.
    Question 1 All three CPSC Commissioners have testified that there 
has not been a single serious incident of a child wearing tight-fitting 
cotton sleepwear and receiving burn injuries resulting from single 
point ignition. Is this true?
    Answer: No, this is not true. We produced three examples in the 
testimony that was submitted to Congress. The patients are: a) J.F. 
burned 12-1-99 (page 36-36). The four-year-old child from California 
was wearing close fitting, long underwear like bunny suit sleepwear 
when he brushed against a candle in the family's dining room. b) U.S. 
burned 1-20-98 (page 37-38). The two-year-old child from California was 
sleeping when a candle fell over and caught her close fitting pajamas 
on fire. c) D.S. burned 4-16-97 (page 39-40). The seven-year-old child 
from Florida was involved in a house fire when he was wearing tight 
fitting pajamas.
    Question 2. In the past, haven't some parents been concerned about 
the toxicity of the chemicals used to treat children's sleepwear, and 
have been less willing to buy those garments?
    Answer: Yes. The substance used to treat sleepwear in the 70's was 
called ``Tris'' which had potential difficulties and was withdrawn, 
Today, technology is available to treat sleepwear so it is flame 
resistant but that treatment does not alter the quality of sleepwear in 
any way. It feels and looks the same as normal cotton, The product is 
being marketed under the brand name ``Skivvydoodles'' which meets all 
these characteristics and consumer acceptance has been excellent.
    Question 3. Has the CPSC been basing their analysis on faulty burn 
data?
    Answer: Yes, their data was flawed, as already stated in the 
testimony. It was based on a random sampling of 101 emergency rooms in 
the United States, which included only 4 burn centers. Those burn 
centers do not admit pediatric burn patients at a rate that would be 
demonstrative of national statistics. In fact, three of those refer 
pediatric burns in their area to other hospitals. The Massachusetts 
General Hospital in Boston refers all pediatric burn patients for 
direct admission to the Shriners Hospitals for Children in Boston. 
Children's Hospital in Kansas City Missouri refers their patients to 
Shriners Hospitals for Children in Galveston and King's County Brooklyn 
emergency room preferentially diverts patients with large pediatric 
burns to the New York Hospital Burn Center in New York. This leaves 
only one burn center in their sample, the Columbus Children's Hospital 
that routinely does admit children with burn injuries. Their referral 
area, however, is limited by proximity to Cincinnati where the 
Cincinnati Shriners Hospitals for Children admits pediatric patients 
for burn care.
            Sincerely,
                               David N. Herndon            
                Chief of Staff, Shriners Burns Hospital            
                                       Professor of Surgery        
             Jesse H. Jones Distinguished Chair in Burn Surgery    
                                 University of Texas Medical Branch
                                 ______
                                 
     Prepared Statement of The National Fire Protection Association

    Thank you for the opportunity to submit this statement. The 
National Fire Protection Association (NFPA) commends the Chairman and 
the members of the Telecommunications, Trade and Consumer Protection 
Subcommitteefor holding this important hearing on child safety.
    NFPA is the premier source worldwide for the development and 
dissemination of knowledge about fire and life safety. Our mission is 
to reduce the worldwide burden of fire and other hazards on the quality 
of life by providing and advocating scientifically-based consensus 
codes and standards, research, training, and education.
    NFPA is an independent, voluntary membership, nonprofit 
organization. Our membership totals over 68,000 individuals and our 
activities fall into two broad, interrelated areas: technical and 
educational. The basic technical activity involves the development, 
publication and dissemination of state-of-the-art consensus codes and 
standards intended to minimize the possibility and effects of fire in 
all aspects of life.
    For over 90 years, NFPA has been teaching how to be fire safe. Our 
public education materials include school-based programs such as the 
Learn Not to Burn Curriculum<SUP>'</SUP>, and Risk Watch <SUP>TM</SUP>. 
The Association's Fire Analysis and Research Division maintains the 
world's most extensive fire experience databases.
    In 1996 the NFPA opposed the decision made by the U.S. Consumer 
Product Safety Commission (CPSC) to amend the children's sleepwear 
flammability standards. NFPA's disagreement with CPSC over standards 
for children's safety is an anomaly. Our two organizations have a long 
history of concurrence on the needs of a nation that values safety.
    NFPA has contended throughout the debate that CPSC abandoned the 
mandatory flame resistant children's standards without appropriate 
analysis or sufficient facts or data.
    The pre 1996 sleepwear flammability standards were successful in 
preventing injuries and deaths to children by fire. The relaxation of 
the standards purported to address CPSC's concern with parents putting 
children to bed in loose fitting T-shirts or underwear. We do not 
believe these amendments eliminated any risks. To the contrary, we 
believe the amendments placed children at higher risk by compromising 
the mandatory flame resistant requirements.
    The old standards for flammability of children's sleepwear served 
for decades to protect America's children from fatal or disfiguring 
burns due to clothing ignitions. Children under the age of five are 
among America's population at highest fire risk. Current fire death 
rates for preschool children is more than twice the average of people 
of all ages and four times the rate for young youths. They also suffer 
a substantially higher rate of fire injuries.
    The leading cause of fatal fires in this age group is children 
playing with matches and lighters, a scenario in which the ignition 
heat source is very close to the children's clothing from the beginning 
of the fire. Children's sleepwear must be able to stand up to these 
exposures.
    The arguments we used to oppose the 1996 decision have been 
reinforced and validated over the past 3 years. The difficulty in 
achieving compliance with the flame resistant sleepwear standards led 
to the CPSC conclusion that ``snug fitting'' cotton garments could 
deliver an equivalent level of safety. NFPA questioned whether skin 
tight was achievable. There is an American tradition of hand-me-downs 
and the common practice of buying clothing large enough for the child 
to grow into. Parents do not buy age-appropriate garments.
    The revised standards also added a new concern, an exemption for 
infants up to 9 months of age. The theory was that infants are not 
mobile and therefore are not exposed to fire. This was asserted without 
supporting data and in the face of data showing that many infants are 
mobile and that fire play by older siblings and playmates can and does 
bring fire near younger children.
    For the old standards, the problem was non-use of compliant 
sleepwear. For the revised standards, the problems are non-use of 
compliant sleepwear, compliant sleepwear that is not snug enough to 
assure protection, compliant sleepwear in age-inappropriate use, and 
the lack of protection for infants.
    In June 1999 GAO issued the report ``Consumer Education Efforts for 
Revised Children's Sleepwear Safety Sandard''. GAO's conclusion 
reaffirmed NFPA's position that ``while consumers often have some 
information on children's sleepwear safety available at the point-of-
sale, it is not to the extent envisioned by CPSC. The effectiveness of 
this consumer education effort is unknown . . . neither CPSC nor the 
industry has assessed whether consumers use this information to select 
the proper size of snug-fitting garments''. The old standards protected 
children even if families had no idea how they worked. The revised 
standards are much more dependent on the level of knowledge and the 
consistency of safe usage by customers. There is no evidence that the 
revised standards will achieve a high rate of proper usage, and little 
evidence that industry is doing much to raise the rate of proper usage. 
And, there is no evidence that families previously using daywear as 
sleepwear are returning to sleepwear.
    After three years, we still fail to see the logic behind the 1997 
amendments. Why weaken the standards that for over twenty-five years 
worked to reduce the number of burn injuries and deaths suffered by 
children? We recommend a return to safer standards.
    This is not an industry versus safety advocate issue, or a 
political issue. As the Subcommittee recognized by including it in 
today's hearing, it is a child's safety issue.
                                 ______
                                 
 Prepared Statement of Rosemary Shahan, President, Consumers for Auto 
                         Reliability and Safety

    Mr. Chairman and Members, I am Rosemary Shahan, President of 
Consumers for Auto Reliability and Safety (CARS), a national auto 
safety and consumer advocacy organization based in Sacramento, 
California. CARS is affiliated with the CARS Foundation, formerly named 
Motor Voters, which for over 20 years has been active in promoting auto 
safety and preventing vehicle-related deaths and injuries.
    The CARS Foundation helped form the National Coalition to Reduce 
Car Crash Injuries, which worked to promote seat belt use and ensure 
the availability of more advanced occupant restraint technologies, 
including improved seat belt systems and air bags.
    On behalf of the members of CARS and the motoring public which 
benefits from our work, I offer this testimony in support of the Child 
Passenger Protection Act of 2000, H.R. 4145, because it is an important 
step in improving protection for America's children from preventable 
deaths and injuries.
    Car crashes remain the leading cause of death among children ages 6 
to 14. Despite progress in the enactment of child safety seat laws, 
there is much more that needs to be done, particularly as new 
technologies become available. The advent of side impact air bags, 
which may offer increased protection to some occupants but not 
necessarily to children, poses a special set of challenges.
    CARS is particularly pleased to support H.R. 4145's provisions for 
better protection for older children, addressing the ``forgotten 
child'' problem, which persists. For decades, NHTSA has been in the 
forefront of efforts to improve child safety, in a number of ways. 
However, the agency and the public can still benefit from direction 
from Congress.
    In 1990, the CARS Foundation petitioned the National Highway 
Traffic Safety Administration to require auto manufacturers to provide 
height adjusters for seat belt shoulder harnesses, allowing seat belts 
to be easily adjusted to properly fit smaller or taller children and 
adults. The efficacy of properly worn seat belts in reducing deaths and 
injuries is well-documented, and was not in dispute.
    The CARS Foundation was particularly concerned about the lack of 
comfortable, properly fitting restraints for older children and smaller 
adults, many of them women and older citizens. It had also come to our 
attention, through consumer complaints and real-world observation, that 
children who are too large to fit into child safety seats but too small 
for seat belts designed to meet standards set for adult-sized dummies, 
are at risk. It was common to see children ages 5-16 riding either 
unrestrained or with the shoulder portion of the belt under their arms 
or behind their backs, compromising the benefits of the restraint 
system and posing new risks, including the threat of devastating 
internal injuries, spinal cord injuries, and head injuries.
    The petition was supported by many respected organizations, 
including the Insurance Institute for Highway Safety and the National 
Coalition for Consumer Health and Safety, including leading physicians 
organizations, consumer and public safety groups, and insurers. The 
petition also attracted support from many individuals including parents 
and smaller adults. However, it was opposed by a number of auto 
manufacturers, although some of them at the time were installing height 
adjusters, mostly in the front seats of luxury models.
    In 1991, NHTSA denied the petition, citing a lack of evidence the 
height adjusters were needed, and their cost, which the agency 
estimated to be approximately $2 per seating position, or a total of $8 
per typical passenger car.
    The CARS Foundation then worked with the National SAFE KIDS 
Campaign and Congress, and succeeded in gaining enactment of a 
provision in ISTEA requiring the agency to revisit the issue. In 1994, 
NHTSA issued a rule requiring that auto manufacturers install the 
height adjusters beginning in the 1998 model year, but only for seating 
positions in the front.
    H.R. 4145 may help spur NHTSA to take the long-overdue step of 
mandating seat belt height adjusters in rear seats. This is an 
important step, particularly since the entire safety community urges 
children to ride in the rear seats, rather than in the front. Belt-
positioning child booster seats offer greatly enhanced protection. 
However, many children will remain dependent upon the systems available 
as original equipment, particularly as the vehicles age and are resold 
to families that may be less likely to provide the additional 
protection of a booster, due to cost constraints or other factors.
    CARS also is pleased to support the provision in H.R. 4145 that 
requires consideration of the need to conduct more comprehensive and 
real-world dynamic testing of child restraints. Dynamic side-impact 
testing is necessary to fully evaluate the effect of existing 
technologies on safety. With increasing numbers of new vehicle models 
equipped with side impact air bags, dynamic tests are also needed to 
ensure that new air bag designs are compatible with child safety 
restraints and do not jeopardize the safety of children riding in 
outboard seating positions.
    For purposes of testing child restraints, CARS is concerned about 
the limitations inherent in the NCAP program, which tests only about 40 
vehicles each year. There may be other more comprehensive, yet cost-
effective approaches available which NHTSA should explore.
    The consumer information provisions of H.R. 4145 are also worthy of 
support, in CARS' estimation. The child safety seat rating system 
promises to provide valuable information for parents and caregivers, 
allowing market forces to encourage innovation and superior designs. We 
would also urge that NHTSA continue to expand upon its outreach efforts 
in multiple languages, as we are a diverse nation, and all our children 
need protection from vehicle crashes.
    Thank you for this opportunity to present our views. Should you or 
your staff have any questions, please do not hesitate to contact me 
directly via phone at 530-759-9440 or via e-mail at Error! Bookmark not 
defined.
                                 ______
                                 
   Prepared Statement of Stephanie M. Tombrello, L.C.S.W., Executive 
                    Director, SafetyBeltSafe U.S.A.

    It is our privilege to share ideas about beneficial outcomes 
expected from passage of H.R. 4145 which has been introduced to 
increase statutory protection for youngsters across the United States. 
Our goal is to demonstrate the importance of assisting parents and 
other caregivers in finding the best protection from injury and even 
death as motor vehicle passengers for the youngsters for whom they are 
deeply concerned. By increasing the testing approaches to better 
simulate the multiple conditions to which children are exposed in motor 
vehicle crashes, particular characteristics of safety seats will be 
enhanced by their producers, providing a level playing field for all 
and assuming that even the least expensive safety seat will offer more 
protection.
    Safety seats already do a good job in most circumstances. However, 
the position of SafetyBeltSafe U.S.A. (SBS USA) is that in any area in 
which parents cannot modify the performance of the product by being 
more assiduous themselves in ``getting it right'', the changes must be 
regulatory. The other differences for which parents can compensate by 
overcoming, for example, less convenient systems can be left to the 
companies.
    Therefore, we believe that in the following areas, regulatory 
change is needed.
    These aspects fall under the first three provisions of H.R. 4145, 
enumerated below:
    1)\1\ require that some car seats and boosters seat be crash-tested 
in actual vehicles (under NHTSA's existing, annual ``New Car Assessment 
Program'');
    2)\1\ require the National Highway Traffic Safety Administration, 
or NHTSA, to revisit its current standard for child safety seats within 
the next two years (to improve outdated crash testing methods);
    3)\1\ require that child safety seats have side-impact padding to 
better protect against head injuries in rollovers and side-impact 
crashes, as they do in Europe.
    The six areas SBS USA has identified for regulatory action are:
    1. Recalls: Investigations of possible child restraint system [CRS] 
defects which affect crashworthiness, as opposed to less dangerous non-
compliance problems, should be handled very quickly. SBS USA has 
identified at least eight persistent, repetitive problems with safety 
restraints that need to generate recalls so all owners can become aware 
of the resolutions available. [If it is determined that there is a 
defect and a recall campaign cannot be carried out because the 
manufacturer is out of business, NHTSA should notify the public about 
the problem. Currently, consumers who own products which have failed 
NHTSA testing and have no manufacturer support, such as the Safe Rider 
Harness, receive no warning that their children are at risk.]
    2. Padding: Specifications for the quality and placement of padding 
protecting the child's head should be revised to require energy-
absorbing material.
    3. All convertible CRS should be tested forward facing with an 
instrumented 12-month dummy, not the uninstrumented 9-month dummy, to 
better judge the effect of particular designs on the well being 
especially of tiny babies. [(Convertibles are tested with rear-facing 
newborn, rear- and forward-facing 9-month, and forward-facing 3-year 
dummies; the 9-month dummy cannot measure head contact.) There is a 
concern that shields may cause increased head and neck injuries for 
smaller children; at least one death was caused by interaction of a 9-
month-old with a shield.]
    See overhead of baby in a convertible safety seat labeled 
inappropriately as fitting an infant.
    4. The plastic shell of convertible CRS should be strong enough to 
hold a harnessed 40-lb. child at 30 mph, even if the parents fail to 
use the proper slots. Of 15,482 convertible CRS checked by the Family 
Safety in the Car program from 1992-1998, 37% had straps in the wrong 
slots. At least two cases are known in which children were ejected and 
died when the harness ripped through non-reinforced slots in the shell
    See the consequence of choosing the wrong strap slots; the 
youngster died.
    5. Indelible identifying information: Labels with identifying 
information and manufacture date should be marked indelibly on the CRS, 
not on paper stickers which can peel off or be washed off 
inadvertently. Twenty-six percent of 19,725 CRS checked by the Family 
Safety in the Car program from 1992-1998 had no readable date. 
Transport Canada is using these data as part of their study of 
improvements; we invite US regulators to review them as well.
    See the label coming off 3 weeks after manufacture--when the photo 
was taken.
    The model name should be on the CRS (some manufacturers leave it 
off) so consumers can identify their restraints easily in case of a 
recall or if they need to order an instruction booklet or other parts.
    6. Height ranges for certification should not be based on total 
height, which does not accurately address CRS fit. For rear-facing 
seats, the child's head should be no higher than a specified point on 
the back of the CRS. For forward-facing CRS, the child's shoulders 
should be at or below the highest set of strap slots. Ideally, a mark 
on the CRS cover would indicate the height limit; one manufacturer 
already provides height indicator lines on the CRS cover.
    Two other areas covered by the bill cover the areas in which 
reporting of the features of the product would allow parents to make 
informed decisions about the facets where they can increase their 
personal efforts or choose a more convenient product.
    4)\1\ call for NHTSA to furnish crash test results information that 
is reliable and easy to understand, for parents' use in deciding which 
car seats to purchase and install;
    5)\1\ require that warning labels and instructions on child safety 
seats be written in plain English.
---------------------------------------------------------------------------
    \1\ Summary comments on S. 2070 from Senator Fitzgerald's office.
---------------------------------------------------------------------------
    Any rating system developed should be based on real-world 
conditions and behavior, not just crash testing with dummies secured 
properly in brand-new CRS. Children are not dummies. Developmental and 
behavioral issues must be taken into consideration in any evaluation of 
child restraints. Crash test results, alone, cannot accurately predict 
the performance of a child restraint in the real world. For example, a 
two-year-old who meets size criteria to ride in a belt-positioning 
booster generally is not mature enough to sit still with the lap/
shoulder belt properly positioned. Or parents may not tighten harness 
systems as children change their clothing if the adjustment mechanisms 
are hard to reach or balky. These factors can have enormous effects on 
the real-world protection of children. Parents do not know enough about 
the way the systems operate BEFORE they use them; a grid listing such 
factors along with the most critical aspects of crash-test performance 
will make it possible for parents to make intelligent choices.
    The specific areas in which SafetyBeltSafe U.S.A. sees the effect 
of the bill are enumerated below:
    1) Crash test results. To help parents evaluate performance, 
provide one or two of the most important measures, such as head 
excursion and HIC (head injury criteria). Today, most parents and many 
professionals believe that the federal government tests and certifies 
safety seats BEFORE they are placed on the market, not understanding 
the self-certification system.
    2) Frequently updated information about ongoing investigations of 
CRS for alleged defects with extremely dangerous potential 
consequences, such as ejection or severe head injury.
    3) Characteristics of the safety seat that can affect correct use. 
Bringing these inconvenient designs to parents' attention may encourage 
their improvement without regulatory mandate, AND parents can strive to 
equalize the outcomes with both inconvenient and convenient features.
    a) Ease of harness adjustment. Parents have a tendency to leave the 
straps loose if they cannot adjust the harness without unbuckling the 
CRS from the car every time the child puts on or takes off a jacket. 
Although SAFE KIDS found 33% of the seats evaluated at checkups had 
loose harnesses, random review of safety seat checkup data gathered by 
SBS USA indicates an even higher level of failure. Once the situations 
evaluated that do not include harness snugness tabulations (no kids, 
boosters, etc.) were omitted, in a series of three checkup events, SBS 
USA found that 69% of the cases in which harness snugness was evaluated 
were too loose!!
    [The adjuster strap and release lever on some rear-facing CRS 
cannot be reached when the CRS are securely installed. Some forward-
facing CRS are adjusted behind the shell which prevents tightening of 
the harness without unbuckling the vehicle belt.] HOWEVER, bringing 
these inconvenient designs to parents' attention may encourage their 
improvement without regulatory mandate, AND parents can strive to 
equalize the outcomes with both inconvenient and convenient adjustment 
mechanisms.
    b. Width, thickness, and material of harness straps. Thinner straps 
are more likely to become twisted and ropy, which may cause injuries in 
a crash. The harness may not be adjusted snugly because the child 
complains that the straps hurt. However, parents can make extra efforts 
to keep straps clean and flat.
    4) A number of critical measurements/features of the products 
should be listed since they affect the proper selection and use of the 
products. Among them are the I) Height of bottom and top harness strap 
slots; II) Distance from back of CRS to crotch strap and availability 
of two crotch strap positions. III) Width of the CRS at the base to 
compare to distance between vehicle belt anchor points; also will 
assist in selecting seats for use on aircraft. IV) Vehicle belt path, 
especially if it is unusual and could help or hinder installation in 
certain vehicles. V) Color-coding of the belt paths, strap slots, and 
other features appropriate for use with babies and older children.
    The most common question asked of SafetyBeltSafe U.S.A. volunteers 
and staff has not changed since our founding in 1980. It is, ``Which 
car seat is the best?'' Our response has always been, ``The best seat 
is the one that fits your child, fits your vehicle, and fits the needs 
of your family.'' It is essential that any rating system include all of 
these essential factors so that parents do not inadvertently ignore the 
impact of features of the products which contribute mightily to the 
protection of their children.

[GRAPHIC] [TIFF OMITTED] T4762.004

[GRAPHIC] [TIFF OMITTED] T4762.005

[GRAPHIC] [TIFF OMITTED] T4762.006

[GRAPHIC] [TIFF OMITTED] T4762.007

[GRAPHIC] [TIFF OMITTED] T4762.008

[GRAPHIC] [TIFF OMITTED] T4762.009

[GRAPHIC] [TIFF OMITTED] T4762.010

[GRAPHIC] [TIFF OMITTED] T4762.011

[GRAPHIC] [TIFF OMITTED] T4762.012

[GRAPHIC] [TIFF OMITTED] T4762.013

[GRAPHIC] [TIFF OMITTED] T4762.014

[GRAPHIC] [TIFF OMITTED] T4762.015

[GRAPHIC] [TIFF OMITTED] T4762.016

[GRAPHIC] [TIFF OMITTED] T4762.017

[GRAPHIC] [TIFF OMITTED] T4762.018

[GRAPHIC] [TIFF OMITTED] T4762.019

[GRAPHIC] [TIFF OMITTED] T4762.020

[GRAPHIC] [TIFF OMITTED] T4762.021

[GRAPHIC] [TIFF OMITTED] T4762.022


</pre></body></html>
